<html>
<title> - OVERSIGHT HEARING ON THE COLORADO RIVER DROUGHT CONTINGENCY PLAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              THE COLORADO RIVER DROUGHT CONTINGENCY PLAN

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 28, 2019

                               __________

                           Serial No. 116-10

                               __________

       Printed for the use of the Committee on Natural Resources
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-817 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f1f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>                  
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                               
                               ------                                

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                        JARED HUFFMAN, CA, Chair
             TOM McCLINTOCK, CA, Ranking Republican Member

Grace F. Napolitano, CA              Doug Lamborn, CO
Jim Costa, CA                        Robert J. Wittman, VA
Gregorio Kilili Camacho Sablan,      Garret Graves, LA
    CNMI                             Jody B. Hice, GA
Jefferson Van Drew, NJ               Aumua Amata Coleman Radewagen, AS
Nydia M. Velazquez, NY               Daniel Webster, FL
Anthony G. Brown, MD                 Mike Johnson, LA
Ed Case, HI                          Jenniffer Gonzalez-Colon, PR
Alan S. Lowenthal, CA                Russ Fulcher, ID
TJ Cox, CA                           Rob Bishop, UT, ex officio
Joe Neguse, CO
Mike Levin, CA
Joe Cunningham, SC
Raul M. Grijalva, AZ, ex officio

                                ------                                
                              
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 28, 2019.........................     1

Statement of Members:

    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement of....................................     6
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     6

Statement of Witnesses:

    Burman, Brenda, Commissioner, U.S. Bureau of Reclamation, 
      Washington, DC.............................................     8
        Prepared statement of....................................     9
        Questions submitted for the record.......................    12
    Buschatzke, Tom, Director, Arizona Department of Water 
      Resources, Phoenix, Arizona................................    32
        Prepared statement of....................................    33
    D'Antonio, John, New Mexico State Engineer, Albuquerque, New 
      Mexico.....................................................    49
        Prepared statement of....................................    51
    Eklund, James, Colorado Commissioner, Upper Colorado River 
      Commission, Denver, Colorado...............................    44
        Prepared statement of....................................    46
    Entsminger, John, General Manager, Southern Nevada Water 
      Authority, Las Vegas, Nevada...............................    36
        Prepared statement of....................................    37
    Millis, Eric, Director, Utah Division of Water Resources, 
      Salt Lake City, Utah.......................................    53
        Prepared statement of....................................    54
    Nelson, Peter, Chairman, Colorado River Board of California, 
      Glendale, California.......................................    28
        Prepared statement of....................................    29
    Tyrrell, Pat, Wyoming State Engineer, Cheyenne, Wyoming......    56
        Prepared statement of....................................    58

Additional Materials Submitted for the Record:

    Submissions for the Record by Representative Huffman

        American Rivers, et al.--a group of Environmental NGOs, 
          Letter dated April 1, 2019.............................    70
        American Rivers, et al.--a group of Environmental NGOs, 
          Statement submitted for the record.....................    71
        Association of California Water Agencies (ACWA), Letter 
          dated March 27, 2019...................................    74
        Business for Water Stewardship, Letter dated March 26, 
          2019...................................................    75
        California Natural Resources Agency, Letter dated March 
          27, 2019...............................................    76
        Central Arizona Water Conservation District, Statement 
          submitted by Alexandra Arboleda, Board Member..........    77
        Central Arizona Water Conservation District, Statement 
          submitted by Theodore Cooke, General Manager...........    78
        Citizens United for Resources and the Environment (CURE), 
          Letter dated March 27, 2019............................    80
        Coachella Valley Water District, Letter dated March 26, 
          2019...................................................    82
        Colorado River Indian Tribes, Statement submitted by 
          Dennis Patch, Chairman.................................    83
        Denver Water, Letter dated March 25, 2019................    84
        Imperial Irrigation District (IID), Letter dated April 
          11, 2019...............................................   100
        Metropolitan Water District of Southern California, 
          Letter dated March 25, 2019............................    85
        National Water Resources Association (NWRA), Letter dated 
          March 26, 2019.........................................    86
        Northern Colorado Water Conservancy District, Letter 
          dated March 26, 2019...................................    87
        Palo Verde Irrigation District, Letter dated March 26, 
          2019...................................................    88
        Pueblo, Colorado Board of Water Works, Letter dated March 
          26, 2019...............................................    88
        Salt River Project (SRP), Letter dated March 25, 2019....    89
        San Diego County Water Authority, Statement submitted by 
          Dan Denham, Assistant General Manager..................    90
        Torres Martinez Desert Cahuilla Indians, Statement 
          submitted by Thomas Tortez Jr., Tribal Council Chairman    91
        Truckee-Carson Irrigation District, Letter dated March 
          27, 2019...............................................    93
        Upper Colorado River Commission, Letter dated March 25, 
          2019...................................................    94
        Western Area Power Administration, Statement submitted by 
          Mark Gabriel, Administrator and CEO....................    95
        Western Coalition of Arid States (WESTCAS), Letter dated 
          March 27, 2019.........................................    96
        Western States Water Council, Letter dated March 22, 2019    97
        Western Urban Water Coalition (WUWC), Letter dated March 
          25, 2019...............................................    98

    Submissions for the Record by Representative Stanton

        Arizona, Colorado, and Utah business leaders, Letter 
          dated March 26, 2019...................................    18
        City of Phoenix, Office of the Mayor, Letter dated March 
          26, 2019...............................................    17

                                     


 
    OVERSIGHT HEARING ON THE COLORADO RIVER DROUGHT CONTINGENCY PLAN

                              ----------                              


                        Thursday, March 28, 2019

                     U.S. House of Representatives

              Subcommittee on Water, Oceans, and Wildlife

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1324, Longworth House Office Building, Hon. Jared Huffman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Huffman, Napolitano, Costa, Van 
Drew, Cox, Neguse, Levin, Cunningham, Grijalva (ex officio); 
McClintock, Lamborn, and Fulcher.
    Also present: Representatives Stanton, Gallego, Lesko, 
Biggs, Schweikert, Tipton, Cheney, and Gosar.

    Mr. Huffman. Good morning, everyone. If you could take your 
seats, we are going to get started. This is the Subcommittee on 
Water, Oceans, and Wildlife, and we will now come to order.
    The Subcommittee is meeting today to hear testimony on the 
Colorado River Drought Contingency Plan. Under Committee Rule 
4(f), any oral opening statements at this hearing will be 
limited to the Chairman, the Ranking Member, the Vice Chair, 
and the Vice Ranking Member. This allows us to hear from our 
witnesses sooner and keeps Members on schedule.
    Therefore, I ask unanimous consent that all Members' 
opening statements be made part of the hearing record if they 
are submitted to the Clerk by 5 p.m. today or the close of the 
hearing, whichever comes first. Hearing no objection, it is so 
ordered.
    We also have a few Members from the Basin states who would 
like to join us on the dais for this hearing. I ask unanimous 
consent that the following Members be allowed to sit on the 
dais and participate in the hearing today: Representative Greg 
Stanton of Arizona, Representative Ruben Gallego of Arizona, 
Representative Debbie Lesko of Arizona, Representative Andy 
Biggs of Arizona, Representative David Schweikert of Arizona, 
Representative Scott Tipton of Colorado, and Representative Liz 
Cheney of Wyoming. Hearing no objection, that too is so 
ordered.
    Mr. McClintock. Mr. Chairman, I would also ask unanimous 
consent that Mr. Gosar of Arizona be permitted to sit with the 
Subcommittee and participate in the hearing.
    Mr. Huffman. Without objection.
    And I would also ask unanimous consent that Congresswoman 
Napolitano, the former Chair of this Subcommittee, be allowed 
an opening statement.
    Mrs. Napolitano. Thank you.
    Mr. Huffman. Without objection, that will be done.
    I will now recognize myself for 5 minutes.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. I want to thank everyone for joining us today 
for a very important hearing to examine the Colorado River 
Drought Contingency Plan.
    The Colorado River Basin has been in drought for 19 years 
and counting. The Basin spans the states of Arizona, 
California, Colorado, New Mexico, Nevada, Utah, and Wyoming. 
Representatives from all seven states are here with us today to 
tell this Committee about the severity of this drought and the 
action that has spurred them to come together.
    Lake Mead, one of Colorado River's two main reservoirs, has 
spent the last few years hovering around the level that would 
trigger a ``shortage declaration,'' which would automatically 
lead to water delivery cuts.
    With 40 million residents and 5.5 million acres of 
irrigated agriculture, the Colorado River supports communities 
from Kremmling, Colorado down to Coachella, California, along 
with major cities, including Los Angeles, Phoenix, Las Vegas, 
and Denver. It is also a valuable resource to 29 tribes, and 
the river supports a $25 billion outdoor recreation economy.
    There is a lot riding on a river that, since the turn of 
the century, has seen a 19 percent decline in flows on average. 
It has less water than we once thought it did. And climate 
change is likely to only make things worse.
    Just a month ago, this Committee heard expert testimony 
that hotter temperatures and lower precipitation will likely 
contribute to what scientists have termed ``megadroughts'' in 
the southwestern United States that will be happening 
throughout the rest of the century.
    Right now, on the Colorado River, the reservoirs tell the 
story of a historic drought in action. Lake Mead, the river's 
largest reservoir, is at 41 percent of capacity. In fact, it 
has consistently been at half capacity or less for the past 6 
years. And while there is positive news this year with improved 
snowpack levels, a single wet year isn't going to fix the 
problem in this basin.
    Even though this year's snowpack is far above average, the 
flows into Lake Powell--the river's second largest reservoir--
will likely be below average, reflecting the fact that there is 
a lot of catching up to do after the historically dry 
conditions we have seen over the past two decades.
    The seven Colorado Basin states know full well the 
challenge they face, and they are here today to tell us how 
they hope to address it. Last Tuesday, the states sent us their 
Drought Contingency Plan, or DCP, which is a set of agreements 
that would help keep the river's two major reservoirs from 
dropping to dangerously low levels.
    The states have asked Congress to approve enabling 
legislation to allow the DCP to move forward. The Department of 
the Interior has worked closely with the states over the 
several years that it has taken to get this plan to the hearing 
room today, and there are certain provisions that will require 
congressional approval for Interior to implement.
    I am pleased to see that those involved in the DCP have 
managed to work across state lines, across party lines to find 
ways to protect the Colorado River. I understand that the 
states started initial conversations in 2013 about what they 
could do, the next steps they could take to conserve water and 
protect the river. Former Interior Secretary Sally Jewell 
highlighted the importance of additional planning for this 
ongoing drought in a December 2013 speech wherein she discussed 
the need for a Contingency Plan that included states and tribes 
across the Basin. And, today, we have the Bureau of Reclamation 
prepared to testify before the Committee about how they have 
continued to work with the states to help reach this point.
    I should note that the U.S. Government is also making water 
conservation commitments in the DCP, as are tribes and other 
parties within the Basin, including the nation of Mexico, where 
the Colorado River ends in the Gulf of California.
    I look forward to hearing more about how the plan that 
started with the states has grown to an intergovernmental and 
international partnership.
    I also want to make sure we don't forget the impact of the 
Colorado River Basin drought on ecosystems and the environment. 
It is heartening to see that many in the environmental 
community have expressed support for the DCP.
    I also want to applaud the efforts of the seven Basin 
states to work with our staff in recent days to ensure that the 
Members know we are respecting our Nation's environmental laws 
in the DCP enabling legislation. My understanding is that there 
is broad support from all seven Basin states for DCP enabling 
legislation that will soon be introduced by Chairman Grijalva. 
I appreciate the work of many people who helped get us to this 
point.
    Finally, I should note that the ongoing drought has 
provided a common reason for the states to develop the DCP, but 
each state will face its own distinct set of challenges in 
implementation. In order to understand these challenges, and to 
recognize the robust partnership that is the foundation of the 
DCP, this Committee has asked representatives from all seven 
Basin states to testify today.
    I look forward to hearing not just what the DCP is, but why 
it matters to everyone who depends on this river. With that, I 
will invite the Ranking Member to say a few remarks.

    [The prepared statement of Mr. Huffman follows:]
 Prepared Statement of the Hon. Jared Huffman, Chair, Subcommittee on 
                      Water, Oceans, and Wildlife

    I want to thank everyone for joining us today for an important 
hearing examining the Colorado River Drought Contingency Plan.
    The Colorado River Basin has been in drought for 19 years and 
counting. The Basin spans the states of Arizona, California, Colorado, 
New Mexico, Nevada, Utah, and Wyoming. Representatives from all seven 
states are here with us today to tell this Committee about the severity 
of that drought, and the action it has spurred them to take.
    Lake Mead, one of the Colorado River's two main reservoirs, has 
spent the last few years hovering around the level that would trigger a 
``shortage declaration,'' which would automatically lead to water 
delivery cuts.
    With 40 million residents and 5.5 million acres of irrigated 
agriculture, the Colorado River supports communities from Kremmling, 
Colorado down to Coachella, California--along with major cities 
including Los Angeles, Phoenix, Las Vegas, and Denver. It is also a 
valuable resource to 29 tribes and the river support a $25 billion 
outdoor recreation economy.
    That's a lot riding on a river that, since the turn of the century, 
has seen a 19 percent decline in flows on average. And climate change 
is likely to only make things worse.
    Just a month ago, this Committee heard expert testimony that hotter 
temperatures and lower precipitation will likely contribute to what 
scientists have termed ``megadroughts'' in the southwestern United 
States throughout the rest of this century.
    Right now, on the Colorado River, the reservoirs tell the story of 
historic drought in action. Lake Mead, the river's largest reservoir, 
is currently at 41 percent of its capacity. In fact, it has 
consistently been at half-capacity--or less--for the past 6 years.
    And while there is positive news this year with improved snowpack 
levels, a single wet year isn't going to fix the problem on the 
Colorado River. Even though this year's snowpack is far above average, 
the flows into Lake Powell--the river's second largest reservoir--will 
likely be below average, reflecting the fact that there is a lot of 
catching up to do after the historically dry conditions we've seen over 
the past two decades.
    The seven Colorado River Basin states know full well the challenge 
they face on the Colorado River, and they are here today to tell us how 
they hope to address it. Last Tuesday, the states sent us their Drought 
Contingency Plan, or DCP, which is a set of agreements that would help 
keep the river's two major reservoirs from dropping to dangerously low 
levels.
    The states have asked Congress to approve enabling legislation to 
allow the DCP to move forward. The Department of the Interior has 
worked closely with the states over the several years it has taken to 
get the plan to this hearing room today, and there are certain 
provisions that will require Congress' approval for Interior to 
implement.
    I'm pleased to see that those involved in the DCP have managed to 
work across state lines and across party lines to find ways to protect 
the Colorado River. I understand that the states started initial 
conversations in 2013 about what they could do to take the next step to 
conserve water and protect the river. Former Secretary of the Interior 
Sally Jewell highlighted the importance of additional planning for this 
ongoing drought in a December 2013 speech discussing the need for a 
contingency plan that included states and tribes across the Colorado 
River Basin.
    And today, we have the Bureau of Reclamation prepared to testify 
before the Committee to tell us how they have continued to work with 
the states to help reach this point. I should note that Reclamation is 
also making water conservation commitments in the DCP, as is the nation 
of Mexico. I look forward to hearing more about how the plan that 
started with the states has grown to an intergovernmental and 
international partnership.
    I also want to make sure we don't forget the impact of the Colorado 
River Basin drought on ecosystems and the environment. It's heartening 
to see that many in the environmental community have expressed support 
for the DCP.
    I also want to applaud the efforts of the seven Basin states to 
work with our staff in recent days to ensure that our Members know 
we're respecting our Nation's major environmental laws in DCP enabling 
legislation. My understanding is that there is broad support from all 
seven Basin states for DCP enabling legislation that will soon be 
introduced by Chairman Grijalva. I appreciate the work of the many 
people who helped get us to this point.
    Finally, I should note that the ongoing drought has provided a 
common reason for the states to develop the DCP, but each state will 
face its own distinct set of challenges in implementation. In order to 
understand these challenges, and to recognize the robust partnership 
that is the foundation of the DCP, this Committee has asked 
representatives from all seven of the Basin states to testify today. I 
look forward to hearing not just what the DCP is, but why it matters to 
everyone who depends on this river.
    With that, I want to invite the Ranking Member to say a few 
remarks.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman.
    The Subcommittee meets today to consider the Colorado 
Drought Contingency Plan agreed to by all of the states that 
draw from the Colorado River Basin. The dams on the Colorado 
have been the foundation to the prosperity of the Western 
states that rely on them to store water from wet years to 
assure abundance in dry ones. Forty million people and 5.5 
million acres of productive farmland now depend on the water 
stored behind these dams and the 4,000 megawatts of 
hydroelectricity that their turbines generate.
    Both natural and man-made developments have brought us to 
this juncture. The first is the continuing drought in the 
American Southwest. Precipitation in most of the continental 
United States has increased considerably since the turn of the 
last century, almost two-tenths of an inch per decade. The 
exception is the Southwest, which has seen a decrease in 
precipitation in the same period as weather patterns have 
shifted.
    In addition, the original allocations of Colorado River 
water were set back in 1922, during a period of unusually high 
precipitation, thus building into the system an overestimate of 
available system-wide supply.
    As Yogi Berra famously observed, it is tough to make 
predictions, especially about the future. The good news is that 
the Upper Colorado snowpack is currently 128 percent of normal 
for the year. February precipitation was well above the 30-year 
median, double in most places. And this month is likely to be 
the wettest March on record in the Colorado Basin. But one good 
year is no guarantee the 19-year drought is over, and prudence 
and experience both warn us of the need to be prepared.
    Droughts have plagued this region from time immemorial. 
Over the last 1,200 years, there have been five periods with 
droughts equal or greater than this one. Indeed, in the mid-
1100s, the region experienced a 25-year drought. History is 
desperately warning us to be prepared.
    And one thing is absolutely certain about the future of the 
Colorado River Basin: Demand for water will continue to 
increase with population, while the supply of water will 
continue to fluctuate. That is the fine point of the matter, 
and it is an inescapable reality that we cannot ignore.
    It is a remarkable development that seven of the most 
politically diverse states in the Nation could find agreement 
on something as controversial as reduced water allocations, but 
that miracle is before us today. I think we would be well 
advised to show a little humility and defer to the judgment of 
the states that directly depend on the water allocations set 
forth in this Contingency Plan.
    During the Miracle at Philadelphia, Benjamin Franklin 
observed that the principal difference between the Catholic and 
Protestant religions was that the Catholics believed their 
church is infallible, while the Protestants believe that their 
church is never wrong. His advice to them that day, which I 
believe is entirely applicable here, is that we should each 
doubt a little of our own infallibility, and in this case, 
approve this compact.
    I yield back.

    [The prepared statement of Mr. McClintock follows:]
    Prepared Statement of the Hon. Tom McClintock, Ranking Member, 
              Subcommittee on Water, Oceans, and Wildlife
    The Subcommittee meets today to consider the Colorado Drought 
Contingency Plan, agreed to by all of the states that draw from the 
Colorado River Basin.
    The dams on the Colorado have been the foundation of the prosperity 
of the Western states that rely on them to store water from wet years 
to assure abundance in dry ones. Forty million people and 5.5 million 
acres of productive farmland now depend on the water stored behind 
these dams and the approximately 4,200 megawatts of hydroelectricity 
their turbines generate.

    Both natural and man-made developments have brought us to this 
juncture.

    The first is the continuing drought in the American Southwest. 
Precipitation in most of the continental United States has increased 
considerably since the turn of the last century--almost two-tenths of 
an inch per decade. The exception is the Southwest, which has seen a 
decrease in precipitation in the same period as weather patterns have 
shifted.
    In addition, the original allocations of Colorado River water were 
set back in 1922, during a period of unusually high precipitation, thus 
building into the system an overestimate of available system-wide 
supply. In addition, the release of water to meet environmental laws in 
recent years has further drained our reservoirs, compounding the 
shortages imposed by drought.
    As Yogi Berra famously observed, ``Predictions are difficult, 
especially when they involve the future.'' The good news is that the 
Upper Colorado snowpack is currently 128 percent of normal for the 
year. February precipitation was well above the 30-year median, double 
in most places, and this month is likely the be the wettest March on 
record in the Colorado Basin. But that is no guarantee the drought is 
over, and prudence and experience both warn us of the need to be 
prepared. And one thing is absolutely certain about the future of the 
Colorado River Basin: demand for water will continue to increase with 
population, while the supply of water will continue to fluctuate. That 
is the fine point of the matter and an inescapable reality we cannot 
ignore.
    It is a remarkable development that seven of the most politically 
diverse states in the Nation could find agreement on something as 
controversial as decreased water allocations, but that miracle is 
before us today. I think we would be well-advised to show a little 
humility and defer to the judgment of the states that directly depend 
on the water allocations set forth in this contingency plan.
    During the Miracle at Philadelphia, Benjamin Franklin observed that 
the principal difference between the Catholic and Protestant religions 
was that the Catholics believed their church is infallible while the 
Protestants believed that their church is never wrong. His advice to 
them that day--which I believe is entirely applicable here--is that we 
should each doubt a little of our own infallibility and in this case, 
approve this compact.

                                 ______
                                 

    Mr. Huffman. Thank you.
    The Chair now recognizes the gentlelady from Southern 
California, who has been working on Colorado River issues for a 
long time, Mrs. Napolitano.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you very much, Mr. Chair. Thank you 
for holding the hearing, and thank you to the witnesses, but 
thank you for allowing me to make the statement.
    The Colorado River Drought Contingency Plan is an 
achievement of collaboration, compromise, and foresight. It 
reflects a realistic appraisal by the water managers in the 
Colorado River system of increasing waters scarcity and the 
realization that our water supply is a finite source.
    Collectively, the Basin states developed a practical and 
workable approach for dealing with the challenges managing the 
Colorado River. The fact that seven states and the Department 
of the Interior can come together, as was stated before, over 2 
years and agree on a difficult and meaningful path forward that 
achieves the greater overall sustainability is something to be 
celebrated.
    Southern California and the people of the West will benefit 
from improved reliability of the water supply the DCP will 
provide. Forty million people rely on this amazing resource, 
and each one of them is better off with the plan. We must pass 
the legislation to authorize the Secretary of the Interior to 
implement what the seven Basin states have agreed to and need.
    The testimony that we will be hearing today reflects a very 
bipartisan effort supported by the seven states, multiple water 
districts, Native American tribes, and a broad coalition of 
environmental organizations. Enactment of the authorizing 
legislation will initiate all states' efforts to manage the 
water in the Colorado River system, along with the Republic of 
Mexico, which has willingly participated in and actively worked 
with the United States to address drought conditions.
    We are blessed that we have a good snowpack, as was 
mentioned before, in the Upper Colorado River watershed this 
year. This provides us the opportunity to take advantage of the 
extra water if the DCP legislation is enacted so that 
implementation can begin immediately.
    I must say that Southern California is still in a drought 
condition. We still need more rain. It will take a couple more 
water years than we have had this year to be able to come up to 
a fairly decent topping of the rivers and the dams.
    We must support collaborative approaches to manage our most 
precious resource: water. The DCP will provide increased 
dependability to water users in Southern California and provide 
initiative to address Salton Sea issues. I look forward to 
continue to work with Congressman Ruiz, Commissioner Burman, 
this Committee, and all stakeholders on providing a long-term 
solution to the Salton Sea, and I request that we continue this 
conversation later on the Salton Sea, Madam Secretary--
Commissioner.
    I thank you very much for the ability to do this. I yield 
back.

    Mr. Huffman. Thank you.
    We will now hear witness testimony. Let me remind our first 
witness that under our Committee Rules, witnesses must limit 
their oral statement to 5 minutes, but the entire statement 
will appear in the Committee hearing record. When you begin--I 
don't need to tell you this, Commissioner Burman--there will be 
a light on the witness table. It will be green. As you get to 
the 1-minute point, it turns yellow, and you know what the red 
light means.
    Now, I will introduce the witness for our first panel. It 
is Commissioner Brenda Burman, the Commissioner of the Bureau 
of Reclamation. We welcome you to the Committee, Commissioner 
Burman. You are recognized for 5 minutes.

   STATEMENT OF BRENDA BURMAN, COMMISSIONER, U.S. BUREAU OF 
                  RECLAMATION, WASHINGTON, DC

    Ms. Burman. Thank you.
    Good morning, Chairman Huffman, Ranking Member McClintock, 
members of the Subcommittee. I am Brenda Burman, Commissioner 
of the Bureau of Reclamation. Thank you for the opportunity to 
testify today on the efforts on the Colorado River Basin on 
Drought Contingency Plans. We appreciate that the Subcommittee 
called this oversight hearing as promptly as possible.
    Just to paint a picture, and as the handouts you have been 
provided show, the Colorado River irrigates nearly 5.5 million 
acres of farmland. It serves approximately 40 million people in 
major metropolitan areas across nine states in the United 
States and Mexico, including Denver, Salt Lake City, Las Vegas, 
Phoenix, Tucson, Los Angeles, San Diego, Mexicali, and Tijuana. 
It is the most vital resource to the environment and the 
economy of the Southwest.
    Understanding its importance, the Colorado River Basin is 
in danger. We are currently experiencing its worst drought in 
recorded history. The period from 2000 through 2018 is the 
driest 19-year period in over 100 years. And this period 
represents one of the driest periods in the 1,200-year paleo 
record.
    These dry periods have caused combined storage of Lake 
Powell and Lake Mead to drop precipitously. The combined 
storage in these two massive reservoirs stands at approximately 
40 percent of capacity. Conservation and storage programs 
developed in the last few years have added approximately 25 
feet in elevation to Lake Mead, and it is these conservation 
efforts that have helped the Lower Colorado River Basin avoid 
shortage in the past few years. These efforts will also be 
instrumental in helping to avert a shortage condition through 
2019.
    While shortages are likely part of the Lower Basin's 
future, none of the Lower Basin states, or Mexico for that 
matter, can afford to allow a true crisis of water supply to 
develop. Simply put, if Lake Mead were to decline to elevations 
blow 1,020 feet mean sea level, the remaining live storage 
would be less than 6 million acre-feet. To put that in context, 
in a normal year, we deliver 9 million acre-feet, and this 
would leave us without even a full year's supply. That is not 
the future we want this basin to experience.
    Reclamation data from January indicates that critical 
elevations could be reached as early as 2021. The risk of our 
primary reservoirs, Lake Powell and Lake Mead, reaching 
critically low elevations has increased nearly fourfold over 
the past decade, and could continue to increase without action.
    The seven Colorado River Basin states deserve great credit 
here. Over the past 25 years, we have seen that by working 
together, we are able to accomplish far more than any one 
party, any one state, or even any one country could do on its 
own. Together, the Upper and Lower Basins, all seven states, 
are committed to taking actions to reduce risk on the system, 
and we applaud their efforts and their successful negotiation 
of a set of agreements that will reduce risk on the Colorado 
for all that rely on the river.
    Whether you rely on the Colorado River for your city's 
water supply, irrigate with water from the Colorado, use 
electricity generated by the Colorado, or enjoy the natural 
wonders of the Colorado River, everyone benefits when we work 
together to protect this limited, declining, and irreplaceable 
resource.
    Thank you again for calling this hearing. I look forward to 
your questions and to the testimony of the Basin state leaders 
that are here with us today.

    [The prepared statement of Ms. Burman follows:]
     Prepared Statement of Brenda Burman, Commissioner, Bureau of 
              Reclamation, U.S. Department of the Interior
    Good morning, Chairman Huffman, Ranking Member McClintock and 
members of the Subcommittee, I am Brenda Burman, Commissioner of the 
Bureau of Reclamation (Reclamation).
    Thank you for the opportunity to testify today on the efforts in 
the Colorado River Basin (Basin) on the drought contingency plans 
(DCPs). We appreciate that the Subcommittee called this oversight 
hearing as promptly as possible given the recent drought agreements 
forged by the Colorado River Basin states, who also are testifying 
today.
    We are here for a very serious and important purpose: to discuss 
critically needed efforts to ensure that, by working together across 
the Colorado River Basin, we can protect all who rely on the Colorado 
River.
    The Basin states have now completed their drought plans and have 
determined that Federal legislation will be necessary to promptly 
implement their plans. As you will hear from the states, the goal of 
the DCP is straightforward. The goal is to reduce the risk that 
Colorado River reservoirs, primarily the massive reservoirs of Lake 
Powell and Mead, decline to critically low elevations. For example, and 
for context, if Lake Mead were to decline to elevations below 1,020 
feet mean sea level, at that point the remaining live storage in Lake 
Mead would be less than 6 million acre-feet. In a normal year, the 
Lower Basin states use 7.5 million acre-feet and deliveries to Mexico 
total 1.5 million acre-feet.
                               background
    The Colorado River irrigates nearly 5.5 million acres of farmland 
and serves approximately 40 million people in major metropolitan areas 
across nine states in the United States and Mexico including Denver, 
Salt Lake City, Las Vegas, Phoenix, Tucson, Los Angeles, San Diego, 
Mexicali and Tijuana, and a number of tribal reservations.
    The Colorado River Basin (Basin) is currently experiencing its 
worst drought in recorded history. The period from 2000 through 2018 is 
the driest 19-year period in over 100 years and one of the driest 
periods in the 1,200-year paleo-record.
    Over a decade ago, responding to 5 years of intense drought, the 
Department of the Interior (Interior) worked with the Basin states, 
tribes and other stakeholders in the Basin to adopt operating rules for 
Glen Canyon and Hoover Dams. These operating rules are known as the 
2007 Interim Guidelines and were adopted to better coordinate the 
operations of Lakes Powell and Lake Mead, encourage water conservation, 
and to provide objective rules for shortages and reductions of water 
use in the Lower Basin by Arizona and Nevada.
    Since 2007, the drought has persisted and more action, such as 
combining provisions requiring reduced use of water with new incentives 
to conserve water, is needed to protect these reservoirs that are 
essential to our environment and economy.
    Following the extremely dry years of 2012 and 2013, when the 
Colorado River experienced the lowest 2-year runoff period in modern 
recordkeeping, the seven Colorado River Basin states began pursuing 
drought contingency plans. In 2014, Reclamation and the Basin states 
initiated a series of pilot projects to encourage additional, 
compensated, water conservation. Most recently, the adoption in 
September 2017 of a new, long-term cooperative agreement with Mexico 
known as Minute 323 included additional important water conservation 
and savings actions by Mexico. Some of these water savings actions 
would only be triggered if the DCPs are completed in the United States, 
which intensified efforts to complete the DCPs in the Upper and Lower 
Basins.
    In December 2017, during my first public remarks as Commissioner of 
Reclamation, based on the ongoing historic drought, I called on all 
seven Basin states and key water districts in the Lower Basin to 
complete their work on finalizing the drought contingency plans by the 
end of 2018. During development of the DCPs, the states requested, and 
received, technical assistance from Interior on such matters as the 
projected risk facing the Basin as a result of long-term drought. 
Interior is proud to have worked collaboratively with the states, 
tribes, non-governmental organizations and other Basin stakeholders on 
the DCPs. We look forward to continuing our work with the states, 
tribes, NGOs, key water districts, and Mexico on implementation of the 
DCPs once they become effective.
                     colorado river basin hydrology
    2018, the fifth driest year on record, caused the combined storage 
of Lake Powell and Lake Mead to drop to approximately 40 percent of 
capacity, the lowest level since the mid-1960s when Lake Powell was 
initially filling. Conservation and storage programs developed in the 
last few years have added approximately 25 feet in elevation to Lake 
Mead, helping to avert a shortage condition for at least the past 4 
years (2016 through 2019). However, Reclamation analysis conducted in 
January 2019 indicates the risk of water levels declining to critical 
elevations at Lakes Powell and Mead, has increased nearly fourfold over 
the past decade. Critical elevations could be reached as early as 2021.
    Hydrology in the Upper Colorado River Basin, where 92 percent of 
the total inflow in the Basin originates, appears to be experiencing a 
modest reprieve in water year 2019. As of March 19, 2019, snowpack in 
the Upper Basin is 138 percent of median, one of the highest snowpack 
totals for this time of year since the drought started, and the 
forecasted seasonal runoff into Lake Powell is 133 percent of average. 
We are reminded that while hydrologic conditions in the Basin have 
improved this year, 1 year of above average inflow will not end the 
ongoing, extended drought and does not substantially reduce the risks 
facing the Basin. In fact, after a robust water year in 2011, the Basin 
experienced exceptionally low snowpack and flows in 2012 and 2013. Due 
to hydrologic uncertainty, there is still a possibility that Lakes 
Powell and Mead decline to critical levels over the next few years.
                       drought contingency plans

Upper Colorado River Basin Drought Contingency Plan

    The Upper Basin DCP is designed to reduce the risk of reaching 
critical elevations at Lake Powell and help assure continued compliance 
with the 1922 Colorado River Compact and authorize storage of conserved 
water in the Upper Basin that could help establish the foundation for a 
Demand Management Program that may be developed in the future.
Drought Response Operations Agreement

    The Drought Response Operations Agreement (DROA) in the Upper 
Colorado River Basin creates a process to temporarily move water stored 
in the Colorado River Storage Project (CRSP) Initial Units above Lake 
Powell--Aspinall, Flaming Gorge, and Navajo--to Lake Powell if it is 
projected to approach critical elevations. The purpose of temporarily 
moving water to Lake Powell is to avoid critical elevations (below 
elevation 3525') that threaten compliance with the Colorado River 
Compact, and hydropower production. DROA creates a process to respond 
to critical elevations at Lake Powell: if advance forecasting shows the 
that Lake Powell's elevation is approaching a critical elevation, the 
Secretary will convene representatives of the Upper Basin states to 
monitor the forecasts, assess the water needs to avoid reaching 
critical elevations, and assess the water that may be available from 
the upstream Initial Units. If forecasted hydrology continues to show 
levels below a critical elevation, this group will recommend a plan to 
the Secretary regarding what water releases can be made from the 
Initial Units to avoid critical elevations, and the Secretary will 
approve or reject that plan.
Demand Management Storage Agreement

    The Demand Management Storage Agreement creates support for each of 
the four Upper Basin states, working through the Upper Colorado River 
Commission, to have access to storage capacity in the CRSP Initial 
Units where they can store conserved water, should the states decide to 
create Demand Management Storage programs in the Upper Basin. Water 
conserved under such programs, if developed, would be set aside for 
meeting the Upper Basin's obligations contained in the Colorado River 
Compact of 1922 and the Upper Colorado River Compact of 1948.
    The Demand Management Storage Agreement contains important 
safeguards. Before water can be set aside for demand management 
storage, each respective Upper Basin state must work with its water 
users to assess conservation opportunities available at facilities 
within the state and approve its own intrastate voluntary demand 
management program to conserve water. The Demand Management Storage 
Agreement does not affect what particular water conservation 
opportunities may be available in a particular state. Each state must 
then secure interstate approval for its program throughout the Upper 
Basin. The states have indicated to Reclamation that available storage 
for conserved water in the CRSP Initial Units is critical to pursuing 
discussions to develop these conservation programs because there is no 
incentive to begin complex discussions on water conservation if there 
is no place to store conserved water. We understand that these 
discussions are conceptual at this time and specific plans have yet to 
be negotiated or approved and are likely to take some time to develop.
    The states have not identified operational details for a potential 
Demand Management program and therefore have not defined how water 
savings will be determined, how water will be conveyed to CRSP Initial 
Units, or how much water the states may be able to save. Of the 
30,000,000 acre-feet of storage capacity in the Initial Units, the 
Demand Management Storage Agreement authorizes storage in the Upper 
Basin up to a maximum of 500,000 acre-feet. Once these details become 
available, Interior will work with the Upper Basin states, in 
consultation with the Lower Basin states, to review the technical 
elements of the anticipated Demand Management Storage Program.

Lower Colorado River Basin Drought Contingency Plan

    The Lower Basin DCP is designed to reduce the risks of Lake Mead 
declining to critical elevations by requiring Arizona, California, and 
Nevada to contribute additional water to Lake Mead storage at 
predetermined elevations and creating additional flexibility to 
incentivize additional voluntary conservation of water to be stored in 
the lake. These new contributions of water by each Lower Basin state 
are an overlay and are in addition to the shortage volumes outlined in 
the 2007 Interim Guidelines. Like the shortage elements of the 2007 
Guidelines, new contributions would increase as Lake Mead's elevation 
declines, providing protection against Lake Mead declining to 
critically low elevations. The DCP also provides for the potential 
recovery of contributions later, should Lake Mead conditions improve 
significantly.
    The Lower Basin DCP creates important incentives to encourage water 
conservation and storage in Lake Mead. New rules allowing flexibility 
to withdraw previously conserved water from Lake Mead below elevation 
1,075 feet will remove disincentives to conserve water when Lake Mead 
is near those elevations. The Lower Basin DCP also removes incentives 
to withdraw previously stored water as Lake Mead approaches elevation 
1075'.
    The DCP increases the maximum allowable storage of Intentionally 
Created Surplus (ICS) for each Lower Basin state to help incentivize 
creation and long-term storage of ICS. This incentive aims to further 
bolster Lake Mead's elevation.
    In the Lower Basin, the DCP agreements will be accompanied by 
intra-state agreements in Arizona and California for each Lower Basin 
state, and related inter-state agreements among Arizona, California and 
Nevada, required to implement the DCP.
    Implementation of a Lower Basin DCP will automatically trigger 
Mexico's Water Scarcity Contingency Plan as outlined in Section IV of 
Minute 323 to the 1944 U.S.-Mexico Water Treaty. This agreement, 
finalized in 2017, provides that Mexico will share proportionally in 
making additional contributions to Lake Mead at predetermined 
elevations. Following execution of the Lower Basin DCP in the United 
States, the principal engineers from the United States and Mexican 
Sections of the International Boundary and Water Commission will 
prepare an engineer's report implementing Mexico's Water Scarcity 
Contingency Plan.
    Collectively, these elements of drought response actions in the 
Upper Basin, Lower Basin and Mexico would cut the risk of Colorado 
River reservoirs reaching critically low elevations by approximately 50 
percent. These are critically important actions and Interior believes 
these efforts need to be implemented this year to provide the maximum 
benefits in terms of water conservation opportunities and associated 
risk reduction.
                      environmental considerations
    Reclamation has worked closely with the Basin states as the DCPs 
were developed, and, as noted above, provided technical assistance to 
the states throughout their discussions. Through this engagement, 
Reclamation has been able to inform the states of relevant existing 
environmental programs and environmental compliance in the Upper and 
Lower Basins so that the elements of the DCPs could be carefully 
developed with these important considerations in mind.
    Now that the DCPs have been finalized and transmitted for 
congressional consideration and approval on March 19, 2019, Reclamation 
has been carefully reviewing the final provisions in the context of 
existing environmental analyses that guide operation of Colorado River 
reservoirs.
                          avoidance of crisis
    The DCP is a program that implements simultaneous and coordinated 
actions among the seven Colorado River Basin states and Mexico through 
the activation of their Binational Water Scarcity Plan in a critically 
needed effort to reduce water use, or conserve water, to protect the 
Colorado River system from crisis.
    Implementation of the DCPs would occur while Basin state 
representatives, along with tribes, NGOs, and the public, begin efforts 
to develop agreements on longer-term operations that would be adopted 
beyond 2026.
    Committing to this level of conservation, more than double what is 
currently required, results in a more reliable future for all resources 
that depend on the Colorado River--municipal, agricultural, hydropower 
production, recreation, and the environment.
                               conclusion
    In summary, the Upper and Lower Basin DCPs, coupled with Mexico's 
Water Scarcity Contingency Plan under Minute 323, are designed to 
reduce the risk of Lakes Powell and Mead declining to critical levels.
    With these plans in place, analysis indicates that the risk of 
declining to critical levels decreases to what they were when the 2007 
Interim Guidelines were implemented. This would help bridge the gap as 
Interior and Reclamation work with stakeholders to develop a new set of 
operating guidelines prior to the expiration of the 2007 Interim 
Guidelines in 2026.
    In closing, the Colorado River Basin is a critical resource to the 
seven Basin states. Recognizing that, they have worked and will 
continue to work hard on this effort. Thank you for the opportunity to 
appear before the Subcommittee today and I would be happy to answer any 
questions you may have.

                                 ______
                                 

   Question Submitted for the Record by Representative Napolitano to 
        Brenda Burman, Commissioner, U.S. Bureau of Reclamation
    Question 1. Director Burman, will the Bureau commit to working with 
Rep. Ruiz, me and this Committee to mitigate and improve the 
environmental degradation of the Salton Sea?

    Question 1a. What are the Bureau's plans to address this issue?

    Answer. Yes, Reclamation commits to working with the Committee on 
Salton Sea issues. As you are aware, in 2016, the Department of the 
Interior signed a Memorandum of Understanding (MOU) with the California 
Natural Resources Agency for the purposes of coordinating efforts at 
the Sea, including a commitment by the Department to pursue $30 million 
in funding to help support operation, maintenance, and monitoring costs 
of state-initiated efforts. To date, Interior has met its funding 
commitments under the MOU. Recognizing the state of California's role 
as lead on Salton Sea management, Reclamation and the Interior look 
forward to continuing to coordinate on Salton Sea issues with the 
state, as well as tribal and local entities.

                                 ______
                                 

    Mr. Huffman. Thank you, Commissioner Burman.
    I will now recognize myself for 5 minutes.
    In your testimony, you talk about the importance of the DCP 
in terms of minimizing risk and maximizing opportunity for 
water conservation. The states have also expressed a great 
sense of urgency in seeking congressional authorization to move 
this forward very quickly. Can you speak to why the DCP is 
needed on such an urgent basis?
    Ms. Burman. We look out and we see the risk of Lake Mead 
and Lake Powell falling to critically low elevations in the 
very near future. There has been a lot of conservation and 
partnership on the river, and that is what has kept us out of 
shortage to date. But the Drought Contingency Plans aren't 
designed to keep us out of shortage; they are designed to keep 
us out of crisis. And that is what we see on the horizon.
    Actions today will produce better results tomorrow. There 
is too much risk on the system to do nothing. As you mentioned, 
this is a wet year, but one wet year is not going to fix a 19-
year problem. The sooner we act, the better. The sooner we act, 
the more likely we are to prevent crisis.
    Mr. Huffman. So, the actions that you reference include a 
commitment from Reclamation itself to come up with 100,000 
acre-feet of water savings per year. Could you speak to the 
kind of opportunities Reclamation sees for achieving those 
savings?
    Ms. Burman. We have a really good story here. And I will 
just mention, back in the early 2000s when I started working on 
the Colorado River, the water that we lost in the system, the 
water that was lost out of Hoover Dam and never used, was over 
100,000 acre-feet. Some years it was over 150,000 acre-feet. 
Since that time, Reclamation, working with partners, has been 
able to tighten the system, increase efficiencies, use 
infrastructure to save water, and last year, that loss on the 
system was only 7,000 acre-feet. So, we have overwhelmingly 
tightened the system.
    We plan to use all of our authorities, work with all of our 
partners on the river to move forward to find even more water 
supplies within the United States' commitment.
    Mr. Huffman. Under the DCP, if Lake Powell nears a target 
elevation of 3,525 feet, Upper Basin states and the Secretary 
would convene to create a response plan to make sure that the 
reservoir stays above that level. Can you explain why that 
target elevation was chosen? What would happen if Lake Powell 
dropped below that level?
    Ms. Burman. The Basin states will be testifying right after 
me, and I think they will speak far more eloquently about why 
they----
    Mr. Huffman. You are eloquent.
    Ms. Burman [continuing]. Have chosen that level and why it 
is important, and we have worked with them along the way. The 
idea is to protect power pool and Lake Powell with the idea 
that protecting power pool will protect the resources of the 
Upper Basin and also prevent a crisis on Lake Powell, a crisis 
where the Upper Basin was not able to make its delivery south.
    Mr. Huffman. OK. We will ask them in more detail about 
those technical questions.
    Let me ask this. This DCP is to address the crisis 
immediately before us, but our work is not done on the Colorado 
River Basin. As you know, negotiations for future water use and 
the next Colorado River guidelines will begin next year. I 
wonder if you could share some thoughts on what you think needs 
to be done for the long term to prepare for droughts of the 
future, which we know will become more frequent and severe 
because of climate change.
    Ms. Burman. Back in 2007, when the Department put in place 
the shortage guidelines and the coordinated operations of Lake 
Mead and Lake Powell, the idea was we would learn as we went. 
We would operate the system, we would understand the system 
better. We find ourselves in 2019, and we have learned a lot.
    The Drought Contingency Plans are designed to be a 7-year 
insurance policy. And that 7-year insurance policy buys down 
the risk of us hitting crisis by 2026. We are prepared to start 
negotiations in 2020 for what happens after 2026. The Drought 
Contingency Plan is so important because what it is going to do 
is give us that space for all the partners to come together, 
for the states, the Federal Government, tribes, non-
governmental organizations, local entities, water districts, 
farmers, and work together on what is the next steps.
    Mr. Huffman. In the time we have remaining, I wonder if you 
could explain the water management differences in the Upper 
versus the Lower Basin and how that is reflected in the DCP.
    Ms. Burman. That could take hours and hours, Mr. Chairman.
    Mr. Huffman. You have 37 seconds.
    Ms. Burman. Very good. In the Lower Basin, Lake Mead sits 
at the top of the system. So, while Southern Nevada Water 
Authority, who will be testifying today, takes their water from 
Lake Mead itself, both California and Arizona take their water 
below Hoover Dam. They have a very large savings account 
sitting above their system. It is a good back-up system. That 
storage has allowed them the certainty to move forward, and it 
is the backbone of their economies.
    In the Upper Basin, there are several storage projects. The 
largest storage project, Lake Powell, sits at the bottom of the 
system. It is a much different calculus about how saving 
programs work, how you will move, but that reservoir, Lake 
Powell, is absolutely important for how water flows south, 
meeting compact commitments, and how the Basin states of the 
Upper Basin come together to make sure that they are buying 
down their risk, that they know that they won't hit crisis.
    Mr. Huffman. I appreciate that. I am sorry we didn't have 
more time to do justice to the technical differences.
    The Chair now recognizes Ranking Member McClintock for 5 
minutes, and then I think we are going to have to break for 
votes, and we will come right back. I apologize in advance for 
the interruption.
    Mr. McClintock. Thank you.
    Commissioner Burman, we have heard objection from some 
environmental groups that the state-proposed legislation 
purposely averts Federal environmental laws. Do you think that 
the legislative language proposed by the seven Basin states 
attempts to circumvent environmental laws?
    Ms. Burman. Ranking Member McClintock, no one ever likes 
this answer, but the Administration is unable to comment on 
legislation that has not been introduced. But I know that the 
states who will be testifying next, that is their proposed 
language, and I expect they will be happy to explain all of 
what they have proposed.
    Mr. McClintock. In fact, we have heard suggestions that in 
some way, the DCP ought to be subject to the California 
Environmental Quality Act. Should this plan or any of the Basin 
states' proposals be subject to CEQA?
    Ms. Burman. Again, I don't want to comment on what 
legislative----
    Mr. McClintock. Well, let me ask you this. What effect 
would it have on the plan if they were required to conform to 
CEQA?
    Ms. Burman. It is hard to picture that the Federal 
Government would have to comply with CEQA. I think it would be 
a major change. It would be difficult to see how the Federal 
Government would be imposed to follow state law.
    Mr. McClintock. Tell me, what changes do you anticipate 
being made to Federal law in order to accommodate the DCP?
    Ms. Burman. The Drought Contingency Plans were designed by 
the seven states, working with the Federal Government, to work 
within existing law. There is a very complex Law of the River 
that governs the Colorado River. That includes a Supreme Court 
decree, it includes several statutes, it includes agreements 
and compacts, both international and between states. And in 
looking forward, the states have come together and they have 
put together a plan that they believe creates incentives that 
can move forward, but that the Law of the River for these 7 
years will work within--let me rephrase--they believe that the 
changes they have put forth will allow the Law of the River to 
work for the DCPs for the next 7 years.
    Mr. McClintock. OK. Are we approaching the maximum ability 
to utilize water in the Colorado River Basin? One thing that 
has always struck me, everybody thinks the Colorado River is 
the great river in the West. The Sacramento River is actually 
bigger. The difference is we store about 70 million acre-feet 
in total on the Colorado system, we only store about 10 million 
acre-feet on the Sacramento. We lose most of the rest of that 
to the ocean every year.
    Are we reaching the upper limits of our ability to retain 
water in the Colorado Basin, assuming we go back to a normal 
weather pattern?
    Ms. Burman. I think you have just said it. The Colorado 
River has an overwhelming storage capacity. And that storage 
capacity is what has allowed us to survive 19 years of drought. 
So, the storage capacity on the Colorado River system----
    Mr. McClintock. Well, let me ask you this. What would the 
Southwest look like today without our system of dams in the 
Colorado Basin?
    Ms. Burman. It would be very difficult to see how the 
Southwest could thrive or survive without the storage that we 
have seen on this system.
    Mr. McClintock. OK. Thank you very much.
    Mr. Huffman. The votes have been called, so the Committee 
will now recess, subject to the call of the Chair. We should be 
back shortly, so thanks.
    [Recess.]
    Mr. Huffman. Thanks for your patience, everyone, we are 
back. And I believe the gentleman from Arizona, Mr. Stanton, 
was next in line. The former mayor of Phoenix knows something 
about the Colorado River and this settlement agreement.
    Mr. Stanton, you are recognized for 5 minutes.
    Mr. Stanton. Thank you very much, Mr. Chair. Sorry about 
that quick vote that we had to take, and everyone's patience in 
that regard. Mr. Chairman, I want to say first, thank you for 
allowing me to participate in today's hearing about the future 
of the Colorado River, a critically important issue to us from 
Arizona.
    And I want to extend a special thank you and welcome to Tom 
Buschatzke, the Director of Arizona's Department of Water 
Resources. He will be testifying in a future panel.
    The importance of the Colorado River to the West and to my 
state cannot be overstated. Forty million people in seven 
Western states get their water from the Colorado. And nearly 40 
percent of the water used in Phoenix comes from the Colorado. 
So, we must absolutely protect it, and we must do so without 
delay.
    Make no mistake, one of the primary reasons we are here 
today is climate change. Climate change has ravaged the 
American Southwest, where we are in our 19th year of drought. 
The federally funded National Climate Assessment found that 
rising global temperatures have changed the Southwest water 
cycle and decreased snowpack. Less snowpack means less water to 
the Colorado River. And as a result, the once mighty river is 
dangerously overallocated and on the verge of collapse.
    To prepare for the impact of the changing climate and a 
drier future, water users in the seven Colorado River Basin 
states have worked to reach important agreements to voluntarily 
conserve water and better manage the river to mitigate the risk 
of water levels falling to perilous levels in Lake Mead and 
Powell. It has not been an easy process. It has taken several 
years, and I want to recognize the difficult and painstaking 
work it has taken each of the parties to reach these important 
agreements.
    During my time as mayor, the city of Phoenix worked very 
closely with Director Buschatzke and his team at ADWR, so I 
know exactly how much time and effort went into making these 
agreements happen.
    What I think is important to recognize is that the 
agreements and the legislation is a compromise. Everybody is 
going to feel some pain. If we can get this through Congress, 
Arizona will enter into shortages on the Colorado sooner and in 
larger amounts, but it is essential to conserving and 
protecting against overallocation of the Colorado River system. 
This is our new reality in the desert Southwest. And we must 
prepare for it today and in the future.
    Mr. Chairman, I ask unanimous consent to enter into the 
record two letters, one from the newly elected mayor of the 
city of Phoenix, Kate Gallego, on the importance of passing the 
DCP; and one from business leaders from across Arizona, Utah, 
and Colorado, all who are in support of quick action on the 
DCP.
    Mr. Huffman. Without objection.
    Mr. Stanton. Thank you so much.

    [The information follows:]

Submissions for the Record by Rep. Stanton

                                    CITY OF PHOENIX
                                        Office of the Mayor

                                                     March 26, 2019

Re: Colorado River Drought Contingency Plans (DCP)

    Dear Members of Congress:

    As Mayor of the City of Phoenix (Phoenix), I am writing to you 
today in support of the Colorado River Drought Contingency Plans (DCP), 
as proposed by representatives of the seven Colorado River Basin States 
in their letter to Congress dated March 19, 2019. As you know, the 
Colorado River provides water to over 40 million people in the West, 
and comprises 40% of the water supply for Phoenix. Phoenix is the 
nation's largest desert city; reliable and sustainable water supplies 
are of paramount importance to our community.
    The Colorado River is over-allocated. After nearly 20 years of 
prolonged drought and climate change that has brought the Colorado 
River reservoirs to historic low levels, action to prevent catastrophic 
failure on the Colorado River is necessary. For the past several years, 
parties representing the 7 Basin States (Wyoming, Colorado, New Mexico, 
Utah, Arizona, Nevada and California) have carefully crafted drought 
contingency plans which represent a significant step forward in 
collaboration to conserve and manage the water resource jewel that is 
the Colorado River. It is essential that we attain Congressional 
support for the proposed legislation so DCP can be signed and 
implemented by the states immediately.
    Phoenix has been an integral part of the DCP discussions within 
Arizona, and like stakeholders throughout the Colorado River Basin, 
Phoenix understands that the time is now for implementation of this 
important collaboration among all Colorado River stakeholders. As an 
urban water provider to over 1.6 million customers, Phoenix needs the 
certainty and security the DCP brings to protect the water supplies 
that are the lifeblood of the Phoenix economy. Phoenix also appreciates 
the value of the very difficult and complex collaboration DCP 
represents among water users in the Basin States, including 
municipalities, agricultural interests, tribal communities, federal 
interests and the Republic of Mexico. In order to capitalize on that 
collaboration, it is essential that Congress pass DCP without delay.
    The risks posed to the Colorado River Basin caused by over-
allocation, prolonged drought and climate change are significant and 
immediate. While the 2018-19 winter was a productive one in the 
Colorado River watershed, one wet winter cannot reverse the dramatic 
declines we have witnessed since 2000--only an effective and flexible 
conservation management plan such as the DCP can improve the 
sustainability of the Southwest. Importantly, the voluntary 
conservation measures described in the DCP can be implemented without 
impacting the water rights of other Colorado River water users or 
environmental protections for the Colorado River Basin.
    After years of careful review and negotiations among stakeholders 
throughout the Colorado River Basin and the United States Department of 
Interior, and with reservoir levels at historic lows, it is critical 
that Congress approve the DCP without delay so we can begin to 
implement it without further jeopardizing the water supplies for 
Phoenix and the Southwest.
    Thank you for your consideration and I appreciate your support for 
this important piece of legislation.

            Sincerely,

                                              Kate Gallego,
                                                             Mayor.

                                 ______
                                 

                                                     March 26, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
House Committee on Natural Resources

Hon. Martha McSally, Chair,
Hon. Catherine Cortez Masto, Ranking Member,
Subcommittee on Water & Power,
Senate Committee on Energy & Natural Resources

    Dear Chairs Huffman and McSally, Ranking Members McClintock and 
Cortez Masto:

    As business leads with major operations in the Southwest and 
Colorado River basin, we write to support the seven Colorado River 
basin states' request that Congress move forward with federal 
legislation supporting implementation of approved Drought Contingency 
Plans (DCPs). The states' collective agreement to move forward on these 
plans comes after years of negotiations, with states pledging proactive 
conservation measures to safeguard Colorado River water supplies and 
protect water levels in Lake Mead.
    We request that Congress now work to pass companion federal 
legislation authorizing implementation of the DCPs through the 
Secretary of the Interior.
    Across economic sectors, business operators increasingly recognize 
the challenges drought has brought to the Southwest and all the 
Colorado River basin states. Uncertainty around water availability and 
pricing, combined with pressures from population growth, threaten 
business operations, economic prosperity, business innovation, 
investment, and financing.
    Businesses need certainty to hire, invest in new facilities and 
equipment, and continue growing our economy. Right now, companies 
across the Southwest are facing real risk of water shortage. All seven 
Colorado basin states have reached agreement through coordinated DCPs, 
providing a critical step in addressing the region's complex water 
supply issues. DCP also provides interim security on reservoir 
operations and water management while longer-term solutions are under 
negotiation, ensuring that the seven basin states maintain a 
coordinated dedication to water conservation during negotiations and 
planning for a drier future.
    As a next step, decisive federal passage of DCP implementation 
legislation is essential to provide a secure water future for 
agriculture, industry, cities and communities.
    Our companies and business organizations have already stepped up to 
urge state leaders to prioritize drought planning, and many in our 
group are already taking voluntary steps to reduce our water 
footprints, conserve water, and contribute to a secure water future.
    We look forward to working with you on implementation of federal 
legislation on the DCPs.

            Sincerely,

        Glenn Hamer,                  Derek Miller,
        President and CEO             President and CEO
        AZ Chamber of Commerce & 
        Ind.                          Salt Lake Chamber
        Phoenix, AZ                   Salt Lake City, UT

        John Wolfe,                   Cheryl L. Lombard, Esq.,
        Sr. VP & Southwest Region 
        Mgr.                          President and CEO
        Cox Communications            Valley Partnership
        Arizona and Las Vegas         Phoenix, AZ

        Nicholas J. Colglazier,       Suzanne Kinney,
        Director                      President and CEO
        Colorado Competitive 
        Council                       AZ Chapter of NAIOP
        Denver, CO                    Phoenix, AZ
        Allison Gilbreath,            Sandy Fabritz,
        Executive Director            Director of Water Resources
        Arizona Manufacturers 
        Council                       Freeport McMoRan
        Phoenix, AZ                   Phoenix, AZ

        Jennifer Martin,              John Courtis,
        Executive Director            Executive Director
        Sierra Vista Chamber of 
        Commerce                      Yuma County Chamber of Commerce
        Sierra Vista, AZ              Yuma, AZ

        Amber Smith,                  Mea Brown,
        President and CEO             Executive Director
        Tucson Metro Chamber          Tubac Chamber of Commerce
        Tucson, AZ                    Tubac, AZ

        Todd Sanders,                 Dave Perry,
        President and CEO             President and CEO
        Gr. Phoenix Chamber of 
        Commerce                      Greater Oro Valley Chamber of 
                                      Commerce
        Phoenix, AZ                   Oro Valley, AZ

        Olivia Ainza-Kramer,          MaRico Tippett,
        President and CEO             President and CEO
        Nogales-Santa Cruz County 
        Chamber of Commerce           Greater Vail Area Chamber of 
                                      Commerce
        Nogales, AZ                   Vail, AZ

        Terri Kimble,                 Danone North America
        President and CEO             Broomfield, CO
        Chandler Chamber of 
        Commerce
        Chandler, AZ
        Robert Lotts,                 Steve Trussell,
        Director                      Executive Director
        Palo Verde Water Resources    Arizona Mining Association
        Tonopah, AZ                   Phoenix, AZ

        Julie Pastrick,
        IOM President/CEO
        Greater Flagstaff Chamber 
        of Commerce
        Flagstaff, AZ

                                 ______
                                 

    Mr. Stanton. I have a quick question for Director Burman, 
covered a little bit earlier but worth repeating. If the 
legislation to implement the DCP does not move forward, can you 
describe what will happen in the Basin states?
    Ms. Burman. Yesterday in the Senate, I think the Basin 
states testified themselves very eloquently to why this was so 
important. But I would say the situation on the river is 
urgent. This is a dangerous situation where we could be 
reaching critically low elevations that affect the drinking 
water of 40 million people; that affect 5.5 million acres that 
could go dry; that affect species, both endangered and not 
endangered; that affect entire economies and recreation of the 
Southwest.
    Action is needed now. The states are looking at water 
management decisions they have to make this year. For example, 
the Metropolitan Water District in Southern California has to 
make decisions in the very near future about, do they leave 
water in Lake Mead this year, or if there is no DCP, do they 
have to take it out? The Gila River Indian Community in Arizona 
is facing urgent decisions as water managers about whether they 
look to help the state and to leave water in Lake Mead. Those 
decisions can't move forward unless they have the certainty of 
the Drought Contingency Plans.
    Mr. Stanton. Thank you very much. I yield back.
    Mr. Huffman. I thank the gentleman.
    The Chair recognizes Mr. Costa for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member, for this important Subcommittee hearing.
    And, Commissioner Burman, congratulations, and welcome. As 
they say, all politics are local, and water, of course, to 
California is an absolutely critical issue.
    As you know, it tends to be either feast or famine. Either 
we have drought periods or we have an abundance of rainfall and 
snow in the Sierras. And this year, we have been blessed with 
the latter. We have an abundance of snow and rain, and we are 
in excess of 150 percent in some of the areas where 
measurements have been taking place. San Luis Reservoir, I am 
pleased, I looked at it in the last week, is full, or 
practically full, and our other reservoirs are above their 
averages. And, of course, 10-year averages are how we measure 
the water.
    Congressman Cox and I sent you a letter--well, actually, we 
sent it to the Regional Director Ernest Conant, and I hope you 
are familiar with the letter. When Senator Feinstein and I 
worked several years ago on the WIIN Act, we had hoped there 
was some flexibility, especially when we had an abundance of 
rain, as we have had this year, to try to maximize allocation 
for the respective districts.
    Now we are at 100 percent on the Sacramento River Valley. 
We are at 100 percent with the exchange contractors. With the 
plant water users, we are at 100 percent. But in the revised 
estimates in mid-March, we are at 55 percent on the San Luis 
unit. And for the life of me, when we have an abundance of cfs 
going through the delta, it begs the question why we are at 55 
percent when everywhere else we are at 100 percent. I am 
wondering if you can respond to that.
    The timing is really critical on this stuff. For our 
permanent crops, obviously, that is good news. But we make 
decisions with bankers in February and March based upon a water 
allocation for annual crops. I am talking about the fresh 
fruits and the fresh vegetables, the asparagus, the tomatoes, 
all these annual crops, and bankers loan money based upon 
allocation of water.
    So, can you explain why in April and May we seem to be 
limited when we have this incredible amount of snowpack we are 
dealing with?
    Ms. Burman. Thank you, Representative Costa. We have 
received your letter, and we are working diligently to get you 
an answer right away. I would say we are acutely aware of the 
water needs of our water contractors on the Central Valley 
Project, and we work to maximize those water allocations and to 
make them as early in the year as we possibly can. On the 
Central Valley Project, we were able to move forward in mid-
March. A lot of times we have to wait till the end of the month 
to increase allocations. So, we were very happy to say that we 
could increase allocations in mid-March.
    Mr. Costa. And you did that for everyone, which is good, 
but I am at a loss to try to figure out why everybody else is 
at 100 percent and even the states increased their allocation, 
and for the Central Valley Project on the San Luis unit, we are 
stuck at 55 percent. If we can't provide maximum allocation in 
an abundance in a big hydrological year as this year, then 
obviously we will never be able to come close to making 
allocation numbers.
    Ms. Burman. It has continued to rain and snow in 
California.
    Mr. Costa. I know, I am trying to take credit for it, since 
I got blamed for the drought. I think it is only fair. It is 
not working.
    Go ahead.
    Ms. Burman. The state snow reports will come out the very 
beginning of April, and we will use those and work with 
National Marine Fisheries Service to see if we are able to 
increase allocations at that time.
    Mr. Costa. So, wait and see, another 2 weeks, is what you 
are telling me?
    Ms. Burman. We will be doing everything we can to maximize 
those water allocations.
    Mr. Costa. Let me ask a question about the Colorado Drought 
Contingency Plan. I am glad my colleague here raised the issues 
that are important, not only to Arizona, but to California and 
other Lower Basin states. Without the Drought Contingency Plan 
under current operational agreements, what would happen if Lake 
Mead goes into shortage conditions below 1,075 feet or 1,025 
feet?
    Ms. Burman. There are specific allocations. First, under 
the 2007 Guidelines, the Lower Basin states of Nevada and 
Arizona agreed to make certain cutbacks when the lake reached 
shortage level, and those shortage levels were named at 1,075, 
1,050, and 1,025. Through work with Mexico, Mexico also has 
agreed to make certain cutbacks at those levels.
    What the Drought Contingency Plan does, is it incentivizes 
and creates reason to create even more conservation. And that 
conservation will come into effect if Congress moves to 
complete the Drought Contingency Plans and we move and sign 
forward to implement. That will start at elevation 1,090. For 
example, when I checked yesterday, that is exactly where the 
lake level is today.
    Moving forward, the parties will basically be saving more 
and more water. And by passing the Drought Contingency Plans, 
what Congress would be doing and what the parties would be 
doing moving forward is, not only incentivizing further 
conservation, but allowing the certainty of the parties to move 
forward to make those investments.
    Mr. Costa. All right. Thank you. My time has expired. Thank 
you, Mr. Chairman. And we will continue to try to work together 
to solve some problems.
    Mr. Huffman. Thank you.
    The Chair now recognizes Mr. Schweikert for 5 minutes.
    Mr. Schweikert. Thank you, Mr. Chairman.
    I was actually in the State Legislature many, many years 
ago when we did our groundwater recharge districts and those 
things. So, it is sort of fun coming back, reading all the 
material you are producing, and sort of everything old is still 
the same.
    Madam Commissioner, a couple just so those of us who do tax 
stuff and not necessarily water. We have had a big hydrological 
year, if that is the proper terminology. Does that take the 
pressure off of you, off of us, or should we use this as an 
opportunity to continue sort of working out the final mechanics 
on the Contingency Plans? Because I am fearful that there may 
be a number of us who say, hey, it is a great year, let's not 
have to deal with this.
    Ms. Burman. I am fearful of the exact same thing. One year 
is not going to fix a 19-year drought. We are in a very 
critical situation on the Colorado River. There are parties, 
water managers, who have to make decisions in the next several 
weeks and months. Those decisions can't be made unless they 
have the certainty to know that the incentives of the Drought 
Contingency Plan are going to be there, that those investments 
can be made without being lost.
    Those decisions have to be made in Southern California, 
they have to be made in Arizona, and I am sure there are 
decisions that need to be made in Nevada and the Upper Basin 
states. It is critically important that Drought Contingency 
Plans move forward this year.
    Mr. Schweikert. Mr. Chairman, Madam Commissioner, in that 
same sort of vein, I have been asked by someone in my district 
about the quality of the data you get on--we will call it the 
watershed, the snowshed--on knowing what we have, what the 
predictions are on the melt rates and those things. Are you 
comfortable that you have good enough data sets that you can 
telegraph to those irrigation districts in California, for 
those of us who have concerns because of where we fall in 
priority? Do you have the tools you need right now?
    Ms. Burman. We have very robust data on the Colorado River 
system. And Reclamation works with the U.S. Geological Survey, 
we work with National Weather Service, with NOAA, with 
universities, with our own Ph.D. modelers, to put forward that 
information. And there is one thing about the information we 
put forth that summarizes all of that. It is watched by seven 
Basin states, it is watched by Mexico, so we know it has to be 
accurate because there are a lot of people watching and 
checking our math.
    Mr. Schweikert. On the back half of that, as a Member of 
Congress, if we wanted, ourselves or one of us, to log in, 
other than always watching the lake levels of Lake Powell--
which we all go to that website--is there a wonderful porthole 
that I can go in that I can pass on to our constituents to say, 
understand, this is what is happening in our part of the 
country?
    Ms. Burman. The Reclamation website is a very good place to 
go, as far as Colorado River information. There are a number of 
other places to go for more specific local information.
    Following up on, are there more tools that are needed, we 
are never satisfied with just what we have. The President's 
memo in October of last year, it called on making Western water 
supplies more reliable, and it did that by looking at what are 
our scientific tools that we need to improve. Forecasting. 
Forecasting is one of those tools.
    Reclamation just recently closed a prize competition. I set 
it out basically to the Nation--can you improve forecasting in 
Colorado River Basin and other places? And we had so many 
entrants. We have three folks that we have picked to work with, 
but those types of tools are improving all the time.
    Mr. Schweikert. Mr. Chairman, last sort of quirky question. 
And don't point and laugh at me, but I don't have the joy of 
sitting in the Committee. Over the years, we have always had 
certain folklore. We need to encourage California to line their 
canals because of seepage or these sorts of things. Are there 
other things that wouldn't fit typically into a Drought 
Contingency Plan that--we talk about these things, because, as 
you know, from Arizona, we are scared to death of our friends 
to the West stealing our water.
    Mr. McClintock. Well, wait just a second.
    Mr. Schweikert. I mean it with love. But are there actually 
those sorts of ideas out there that, over the next couple 
decades, could be drawn in, saying there are other things also, 
for all of us, that would help us on, if not today, in a future 
drought situation, that we could start embracing either the 
technology or the engineering?
    Mr. Huffman. Right. And at the risk the stealing time, 
Commissioner Burman, could you wrap that answer in 30 seconds?
    Mr. Schweikert. Thank you for your patience, Mr. Chairman.
    Mr. Huffman. Thank you.
    Ms. Burman. I think there is an incredible story to be told 
in the Southwest. You look at the conservation programs, of 
agriculture, of the cities, of California, Nevada, Arizona, 
which I am most familiar with, the Upper Basin is very similar, 
it is a pretty incredible story to tell about the changes in 
efficiencies, the changes in conservation that have moved 
forward in the last decade. That doesn't mean there isn't 
always room to do more, but the story is very impressive.
    Mr. Schweikert. Thank you.
    Mr. Huffman. Thank you.
    Mr. McClintock and I were just commiserating. It is pretty 
rare that Members of the California delegation would ever feel 
outnumbered on anything, but clearly, Arizona is showing up on 
this issue.
    Mr. McClintock. The last time that happened, it didn't work 
out well for California. Just saying.
    Mr. Huffman. We are going to recognize the next Member from 
Arizona, the Chair of the Full Committee, Mr. Grijalva, who has 
some comments and questions about the Arizona River--I mean the 
Colorado River.
    Mr. Grijalva. Thank you. It is not proprietary, but it does 
feel that way occasionally, you know.
    Thank you, Mr. Chairman. I want to thank you and the 
Ranking Member for expediting this hearing. The timing of this 
is critical, and much appreciation for that and the work of 
your staff in working with all the stakeholders and the Basin 
states as well. In particular, Mr. Muirragui, who did a 
wonderful, a really good job in putting something together that 
we can all support, I hope.
    Commissioner, welcome, and thank you. Can you please tell 
us how the DCP fits within the framework of existing 
environmental compliance?
    Ms. Burman. Certainly, Mr. Chairman. Both the Upper and 
Lower Basin Drought Contingency Plans were designed 
specifically to fit within existing environmental compliance. 
First, let's start in the Upper Basin. The Drought Response 
Operations Agreement, one of the key agreements in the drought 
contingency package, was designed with input from a broad range 
of stakeholders to strike a careful balance between protecting 
environmental resources throughout the Upper Basin and 
assisting in facilitating adding storage to Lake Powell.
    The Upper Basin states achieved this careful balance by 
recognizing from the very outset that any drought response 
actions that would send additional water from the key upstream 
reservoirs would do so within the rigorous bounds of the 
applicable Records of Decision and Biological Opinions.
    Conversely, after the efforts to protect Lake Powell have 
been completed, we need to ensure the additional water sent 
downstream is able to be replaced, leaving those upper 
reservoirs whole.
    In conclusion, in this example, the Drought Contingency 
Plans use the environmental flexibility to not only send water 
to Lake Powell but then to allow the upper reservoirs to 
recover, all while complying within the framework of existing 
Records of Decisions and Biological Opinions. And I am sure the 
next panel will want to talk about that.
    Turning to the drought contingency provisions in the Lower 
Basin, the Lower Basin DCP provides for volumes of water 
conservation by each of the Lower Basin states at identified 
Lake Mead elevations. An important note, at these same 
elevations, under historic agreements reached in 2017 with 
Mexico, water savings by Mexico will take place at these 
identical Lake Mead elevations.
    The primary mechanisms for achieving these water savings, 
which add extra water to Lake Mead, are designed to occur 
through the creation of Intentionally Created Surplus, what we 
call ICS. ICS is a water conservation tool that was designed in 
the 2007 Guidelines to incentivize extraordinary conservation, 
allowing parties to save water now, leave it in Lake Mead, and 
recover it at a later date.
    The new element of the DCP is that the states have now 
agreed that ICS will occur and identified required volumes. And 
at the specified Lake Mead levels I just identified, the lower 
Lake Mead goes, the greater the required water savings, thereby 
decreasing Lake Mead's decline. In this way, we are utilizing 
the essential tools that are the framework of the 2007 
Guidelines by adding mandatory savings.
    At the same time, the actions to be undertaken under the 
Lower Basin DCP are designed to fit within the environmental 
documents prepared, pursuant to the Endangered Species Act and 
the National Environmental Policy Act and the 2007 Final 
Environmental Impact Statement on Colorado River Interim 
Guidelines for Lower Basin shortages and coordinated operations 
for Lake Powell and Lake Mead.
    Mr. Grijalva. Thank you, Commissioner. I think for many 
members of this Committee, your answer is very welcomed and 
very much appreciated. Knowing that environmental requirements 
and our Nation's environmental laws are going to be respected 
by the DCP, I think, is the added impetus to moving this as 
rapidly as possible, and that is very much appreciated. And as 
Chairman Huffman said in his opening statements, I will be 
introducing legislation shortly to authorize the DCP and 
expedite its movement through Committee and eventually action.
    I should note that the legislation that is being introduced 
has the support of all seven Basin states. It respects the 
environmental laws, as you outlined, and allows us to 
immediately authorize the DCP, which is very, very important, 
given the urgency of time and the millions of people that are 
affected by what we do here.
    I want to thank the states for all the time that they spent 
with our staff and the vast majority of it constructive. Thank 
you.
    I also want to note the absolute critical role of the 
tribes in the DCP, the Colorado River Indian Tribes, and the 
Gila River Indian Community are essential to the DCP's success, 
and I want to commend them, their leadership, their 
communities, for the contribution that they have made to the 
health of the Colorado River.
    Finally, a lot of discussions regarding the Salton Sea. I 
have made a commitment, Madam Commissioner, to Congressman Ruiz 
and Congressman Vargas to work with them, and pledge to work 
with them and affected stakeholders to deliver some possible 
solutions to the Salton Sea. They have my commitment on that. 
And I hope, Commissioner, going forward, that we will be able 
to work with your office to explore that and see what 
possibilities are available in terms of the remediation, 
restoration agenda that is being talked about for Salton Sea. 
And I look forward to that.
    Ms. Burman. We would be happy to work with you, Mr. 
Chairman.
    Mr. Huffman. All right, thank you.
    The Chair now recognizes the next Member from Arizona. I 
had no idea the Arizona delegation was this large, but, Mrs. 
Lesko, you are recognized for 5 minutes.
    Mrs. Lesko. Thank you, Mr. Chairman. Yes, we are out in 
full force today, bipartisan no less.
    I just want to say, it is not really a question. I just 
have a statement.
    I was in the Arizona Senate when the discussion of the 
Drought Contingency Plan started, and it was quite contentious 
for a while. So, I am very pleased with the work that you have 
done, with the work that our Arizona Department of Water and 
Mr. Buschatzke has done, with Governor Ducey, and with the 
Arizona State Legislature. It has been an effort. I know at 
times it has been contentious, but we hung in there.
    And, Mr. Grijalva, thank you for leading on the legislation 
on this, and I do believe this is truly going to be a 
bipartisan coalition to preserve our water rights in Arizona. 
Thank you so much.
    Mr. Huffman. The Chair now recognizes Mr. Gallego for 5 
minutes from the state of----Arizona, yes.
    Mr. Gallego. Thank you, Mr. Chair. We have achieved some 
really big bipartisanship bridges here. The most important one, 
the fact you have Maricopa County and Pima County agreeing to 
anything is quite miraculous, especially for us Arizonans that 
know the politics there.
    But first of all, all jokes aside, I really want to thank 
Chairman Grijalva. We are very lucky as Arizonans, both on this 
Committee, and if you have worked on any issues, the fact that 
he happens to be Chairman at this exact moment in time when we 
needed him, and he has ushered this through the Federal 
process, which can be tricky, and the fact that he has been 
able to do it smoothly, and will be able to continue to move 
forward in such a fast manner, is all really due to him, his 
effort, and his staff, and I think we should all thank him for 
that.
    I also, of course, want to thank our State Representatives, 
State Senators, Governor, and all of our staff in water 
departments in Arizona who really put themselves out there, 
stretched themselves in many ways in terms of partisanship, 
both Democrats and Republicans, to make this happen.
    And last, our tribal nations. They really stepped up, and 
they did not need to do that. Indian Country in Arizona was 
truly putting their heart out there for Arizona, and if it 
wasn't for them working with us in a collaborative manner and 
really stretching themselves, this would never have been done. 
And we need to make sure that we recognize the fact that they 
deserve just as much praise as any of the other politicians. 
So, I am very glad to see this happen.
    You know, Arizonans, as we say, whiskey is for drinking, 
water is for fighting. But apparently today, water is for 
compromising, and that is a good thing. Thank you.
    Mr. Huffman. All right. Thank you.
    I think Ms. Cheney is here to introduce one of the second 
panel witnesses, right? So, Mr. Fulcher, did you want to be 
recognized?
    Mr. Fulcher. Thank you, Mr. Chairman----
    Mr. Huffman. You are recognized.
    Mr. Fulcher [continuing]. And thank you for being here.
    Mr. Huffman. Thank you for not being from Arizona.
    Mr. Fulcher. We are close, but----
    Mr. Gallego. We all can't be perfect, you know.
    Mr. Fulcher. You are going to get us both in trouble.
    Thank you, Commissioner, for being here. I wanted to just 
let you know, I am from Idaho, not Arizona, and the water users 
there are very interested in the streamlined process. That has 
been something that has the potential of giving some of the 
locals just a little bit more control. And I wanted to just 
have you talk about that for a moment. How do you see that 
moving forward, and what would a qualifying entity need to do 
in order to implement that streamlined process for a certain 
legislation?
    Ms. Burman. In discussing streamlining of, say, 
environmental compliance as you move forward on important 
projects, the----
    Mr. Fulcher. Specifically, if I may, it would be more for 
locals to have more input in a specific project.
    Ms. Burman. So, what we have done, there are a number of 
things that have moved forward. This Congress has just passed 
title transfer legislation, which is something that the 
Department has been hoping for, for a number of years. We are 
excited that that has passed. That process will streamline and 
allow the Administration to move forward and set up a program, 
which we are working hard to do, that will allow local entities 
to transfer their Reclamation projects to local ownership, 
giving them the true, on-the-ground control, instead of having 
the Federal Government controlling those projects.
    On a number of other fronts, both the Administration and 
the Department specifically have been working to streamline the 
environmental process, to look for more local control, but also 
to see if those processes can be done so they are 
understandable to a layperson, so that they can be done within 
the bounds of a time frame that gets a real project done, that 
can be done within the page limits where a layperson can pick 
up a document and understand it.
    That is just an example of some of the ways that we are 
trying to move forward to show that there is more local 
control.
    Mr. Fulcher. Right. And that is specifically what I was 
looking for, potentially off-line, or at some further point, I 
could get some more information, or with that specific process 
that a qualifying entity might need to go through. So, that was 
the genus of my question.
    Ms. Burman. We are happy to work with you, sir.
    Mr. Fulcher. All right. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Huffman. All right. Thank you, Mr. Fulcher.
    Commissioner Burman, thanks for your testimony. We will now 
excuse you and bring up our second panel of witnesses.
    Ms. Burman. The real experts, Mr. Chairman.
    Mr. Huffman. Thank you.
    Ms. Burman. Thank you.
    Mr. Huffman. As our second panel comes forward, let me 
remind the witnesses that under Committee Rules, they should 
limit their oral statements to 5 minutes. The entire statement, 
however, will appear in the hearing record. Again, for the 
second panel witnesses, when you begin your testimony, there 
will be a green light. When there is 1 minute remaining, that 
light will turn yellow, and the red light means it is time to 
complete your statement.
    I will allow the entire panel to testify before we begin 
the questions. And now I will begin to introduce our witnesses. 
We will allow a minute here for folks to come forward.
    This second panel includes the governors' representatives 
of the seven states of the Colorado River Basin who are with us 
to present their testimony. Since the DCP includes specific 
plans for the Lower Basin and the Upper Basin, we will start 
with the three Lower Basin representatives and then hear from 
the Upper Basin.
    So, in order of their testimony, we will hear first from 
Peter Nelson, who is the Chairman of the Colorado River Board 
of California. Then we will hear from Thomas Buschatzke, 
Director of the Arizona Department of Water Resources. We will 
then hear from John Entsminger, General Manager of the Southern 
Nevada Water Authority, located in Las Vegas.
    And then we will move to the Upper Basin. We will hear from 
James Eklund, who is Colorado's Commissioner to the Upper 
Colorado River Basin Commission. And then from the state of New 
Mexico, we will hear from John D'Antonio. He is the State 
Engineer of New Mexico. Then we will hear--this is a big 
panel--then we will hear from Eric Millis who is the Director 
of the Utah Division of Water Resources.
    And then finally, I will invite my colleague, the 
gentlewoman from Wyoming to introduce the witness from Wyoming, 
who will be our final witness.
    Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman. And thank 
you to all of you for being here.
    It is my particular honor to introduce our State Engineer, 
Mr. Pat Tyrrell, and to welcome him here. He has done more for 
Wyoming and Wyoming water issues than I think just about 
anybody else living today, and we are sad that he will be 
retiring as of Monday. But really, I am honored to have this 
opportunity to thank him for everything that he has done for 
the state, to thank him for the continued advice and counsel 
and guidance he will be giving us after he retires, and also to 
thank him for his important work on this plan, which I am very 
pleased to see the bipartisan support.
    And I would like to say, Wyoming may not have as large a 
contingent in Congress as Arizona, but we are certainly 
quality. Not that Arizona's not. So, let me then stop there and 
welcome you, Pat. Thank you very much for being here, for all 
of your time.
    And thanks, Mr. Chairman, for letting me take the 
opportunity to introduce Pat.
    Mr. Huffman. We are going to blow up this multi-state 
settlement if we continue here.
    All right. Mr. Nelson, you are up first. You are recognized 
for 5 minutes.

 STATEMENT OF PETER NELSON, CHAIRMAN, COLORADO RIVER BOARD OF 
                CALIFORNIA, GLENDALE, CALIFORNIA

    Mr. Nelson. Great. Thank you. Good morning. Thank you for 
the introduction, and thank you, Chairman Huffman, Ranking 
Member McClintock, and Committee members. I have 32 years of 
farming experience in the Coachella, Imperial, and Palo Verde 
Valleys. I serve on the Coachella Valley Water District Board, 
and from 2000 to 2014, I served on the Salton Sea Authority. I 
have roots in the Basin near the Salton Sea, and hope for my 
granddaughters to grow up in a vibrant community with plenty of 
water and clean air.
    Today, I am appearing on behalf of the Colorado River Board 
of California. Thank you for the opportunity to testify on the 
Colorado River Drought Contingency Plan. These plans are of 
vital importance to California and the entire Colorado River 
Basin, including the Republic of Mexico. I will focus my 
comments on the Lower Basin DCP.
    Enactment of Federal legislation is needed this year to 
implement the Lower Basin DCP, which could result in 
significant benefits for California, including, but not limited 
to, incentivizing the conservation and storage of water in Lake 
Mead this year, with the assurance of greater flexibility in 
storage and recovery of ICS supplies so that demands and needs 
are met during shortage conditions; providing operational 
certainty for Intentionally Created Surplus conserved water 
supplies if Lake Mead declines to below elevation 1,075; all of 
which result in reducing the risk of Lake Mead dropping below 
the critical elevation level of 1,020 feet, from over 40 
percent without the DCP, to just about 5 percent with 
implementation of the DCP during this interim period.
    In 2000, the Basin's combined reservoir system was 
approximately 95 percent of capacity. By 2004, the reservoir 
system had fallen to just about 50 percent of capacity. The 
continuing drought conditions led to the seven Basin states 
collaborating on the development of the 2007 Colorado River 
Interim Guidelines. The 2007 Guidelines have helped us manage 
the Lower Basin better, but not enough to overcome the last 19 
years of drought.
    The DCP agreements would strengthen the most effective 
tools of the 2007 Guidelines. This DCP would significantly 
reduce the risk of Lake Powell and Mead declining to these 
critically low elevations through the remaining term of the 
2007 Guidelines which ends in 2025.
    The Salton Sea and the Imperial Irrigation's participation 
in the Lower Basin DCP is being addressed. California 
acknowledges concerns recently expressed regarding Salton Sea 
management and restoration issues. Unfortunately, as of today, 
the Lower Basin DCP would be implemented in California without 
the Imperial Irrigation's participation. As Chairman for only 4 
months, this was a big disappointment to me personally. I 
wanted the IID to be a part of the DCP and will work to bring 
them back. The Lower Basin DCP agreement was amended to give 
the IID the option to become a party to that agreement after 
its effective date, with the consent of all the parties here.
    To meet the Commissioner's deadline, the DCP authorization 
to protect California's ICS supplies, the Metropolitan Board 
authorized that agency to step in for the IID and assume 
responsibility of the volume of the DCP contributions that IID 
had negotiated in its intrastate agreements with Metropolitan.
    In either case, with or without the IID's participation, 
there is no impact on air quality or natural resources in the 
Salton Sea during the remaining interim period of the 2007 
Guidelines. Along with our sister states in the Basin, we are 
united in the goal of causing no harm to the Salton Sea, and 
hope that the IID will initiate its commitment to participate 
in and implement the DCP in the same way that it began, a 
willing partner in a consensus-based, stakeholder-driven 
effort.
    In closing, in choosing compromise and collaboration over 
conflict and litigation, we ask that you enact the legislation 
to implement the DCPs. We have the support of the seven states, 
the Republic of Mexico, as well as stakeholders across the 
Basin, including members of the environment community.
    Thank you very much for the opportunity to address you, and 
I look forward to your questions.

    [The prepared statement of Mr. Nelson follows:]
 Prepared Statement of Peter Nelson, Chairman, Colorado River Board of 
      California, Colorado River Commissioner, State of California
    Good morning, my name is Peter Nelson. I am providing this 
testimony on behalf of the Colorado River Board of California (Board). 
I want to thank you for the opportunity to testify before this 
Committee on the Colorado River Basin Drought Contingency Plan (DCP) 
and the proposed authorizing legislation, both of which are important 
to California and the entire Colorado River Basin, including Mexico.
           why california needs the dcp implemented this year
    I am here this morning to request the help and support of the 
Congress in achieving the implementation of the Lower Basin DCP this 
year, as it is vital to California's Colorado River agencies. 
Specifically, implementation of the Lower Basin DCP this year would:

    <bullet> Provide operational certainty regarding Intentionally 
            Created Surplus (ICS) conserved water supplies if Lake Mead 
            declines below elevation 1,075 feet;

    <bullet> Reduce the risk of Lake Mead dropping below the critical 
            elevation of 1,020 feet from over 40 percent without the 
            DCP to about 5 percent with implementation of the DCP; and

    <bullet> Incentivize the conservation and storage of water in Lake 
            Mead this year with the assurance of greater flexibility in 
            storage and recovery of ICS supplies.

                               background
    The Colorado River Board is a state agency established in 1937 to 
protect California's rights and interests in the water and power 
resources of the Colorado River System. The Chairman of the Board also 
serves as the Governor's representative and California's Colorado River 
Commissioner on Colorado River water and power related matters as it 
works with other state of California agencies, the other six Colorado 
River Basin states, various Federal agencies, Native American tribes, 
the environmental community, the Republic of Mexico, and others.
    The Board is composed of 10 members, appointed by the Governor, and 
includes: the Directors of both the Department of Water Resources and 
the Department of Fish and Wildlife, the Coachella Valley Water 
District (CVWD), the Imperial Irrigation District (IID), the Los 
Angeles Department of Water and Power, the Metropolitan Water District 
of Southern California (Metropolitan), the Palo Verde Irrigation 
District (PVID), the San Diego County Water Authority (SDCWA), and two 
at-large public members. Four of the six water agencies, CVWD, IID, 
Metropolitan, and PVID, represented on the Board were actively involved 
in negotiations and development of the Lower Basin DCP and related 
intra-state implementing agreements.
    The water and power resources of the Colorado River System are 
vital to California. California's basic Colorado River mainstream 
apportionment of 4.4 million acre-feet of Colorado River water provides 
for the irrigation of over 900,000 acres of some of the Nation's most 
productive farmlands and supplies water to more than 20 million people 
along California's south coastal region. California receives about 3.5 
billion kilowatt hours of electrical energy from Colorado River 
hydroelectric facilities. The Colorado River System contributes 
billions of dollars to California's and the Nation's economy each year, 
including benefits from recreation and tourism.
    California and the water providers in California that deliver 
Colorado River water (CVWD, IID, Metropolitan and PVID) have been 
working to respond to increased pressures on California's Colorado 
River allocation that are the result of both increased demands for 
Colorado River water and decreasing inflows into the system. 
California's Colorado River water agencies have taken a range of 
actions to respond to drier hydrology and increased demand including: 
the Quantification Settlement Agreements (2003), lining of portions of 
the Coachella and All-American Canals, land-fallowing programs, 
regulatory storage construction, adoption of extensive urban water 
conservation measures, as well as participation in binational water 
conservation projects with Mexico. These efforts have yielded increased 
water supply reliability and improved management of California's 
Colorado River water supplies.
             why the dcp needs to be implemented this year
    It is a well-known fact that the Colorado River Basin has been in a 
severe and sustained drought condition since 2000, when the Basin's 
combined reservoir system was approximately 95 percent of capacity. By 
2004, the reservoir system had fallen to just above 50 percent of 
capacity. The continuing drought conditions led to the seven Colorado 
River Basin states collaborating on the development of the 2007 
Colorado River Interim Guidelines for Lower Basin Shortages and 
Coordinated Operations for Lake Powell and Lake Mead (2007 Guidelines).
    The 2007 Guidelines include two key features that have been 
effective in managing the reservoirs in continuing drought, including 
(1) incentivizing conservation of water supplies and storage of that 
water in Lake Mead as Intentionally Created Surplus (ICS); and (2) the 
coordinated and conjunctive operations and management of Lakes Powell 
and Mead. Since the 2007 Guidelines, nearly 2.5 million acre-feet 
(cumulative) of Colorado River water supplies have been conserved and 
stored in Lake Mead. The Basin states seek to build upon the success of 
the 2007 Guidelines with the DCP agreements by expanding and 
strengthening the most effective tools in the 2007 Guidelines while 
improving flexibility and making specific commitments to store water in 
Lake Mead. The DCP agreements have been designed to fit within the in-
depth environmental reviews that were conducted in connection with the 
2007 Guidelines. If the DCP is implemented this year, it would 
significantly reduce the risk of Lake Powell and Lake Mead declining to 
critically low elevations through the remaining term of the 2007 
Guidelines which terminate at the end of 2025.
    The drought has been even worse than expected when the 2007 
Guidelines were adopted, which has resulted in reservoir elevations 
continuing to decline in most years since 2007. Since the Guidelines 
were adopted, the seven Basin states, the Department of the Interior, 
and even the Republic of Mexico have responded to the worsening drought 
through continued, and multi-faceted approaches to mitigate the impacts 
of reduced inflow into the System. These ``out-of-the-box'' and 
collaboratively developed measures included: construction of the Warren 
H. Brock Reservoir Regulatory Storage Project; a pilot-run of 
Reclamation's Yuma Desalting Plant; and the Pilot System Conservation 
Program. Without these efforts and other voluntary efforts in the 
Basin, Lake Mead would likely have fallen below elevation 1,075 feet as 
early as 2015, which would have led to a declaration of a shortage 
condition by the Secretary of the Interior.
    This winter season appears to be providing above average 
precipitation and snowpack, but one good year cannot fix the ongoing 
trend of declining inflows into the reservoir system. Over the past 18 
years, only 5 years have produced flows above average, and the combined 
storage in Lakes Powell and Mead in each of the past 6 years has been 
below 50 percent of capacity. The 2007 Guidelines and the voluntary 
efforts taken since then, unfortunately, have not been enough to keep 
the reservoirs from continuing to decline. The drought conditions have 
been worse than predicted and new measures are needed to keep the 
system stable and protect water supplies for the 40 million people 
throughout the Colorado River Basin who rely on this vital source of 
water. This is what the DCP is intended to do and why California, along 
with every other Basin state, is asking Congress to take action to 
authorize implementation of those agreements this year.
    the salton sea and imperial irrigation district's participation
    California acknowledges concerns recently expressed regarding 
Salton Sea management and restoration related issues. As of the date of 
this testimony, the Lower Basin DCP will be implemented in California 
without the IID's participation. After the IID indicated that it would 
not meet the Commissioner of the Bureau of Reclamation's deadline for 
DCP authorization on March 18, 2019, the Lower Basin DCP Agreement was 
amended to give a contractor the option to become a party to that 
agreement after its effective date, with the consent of all of the 
other parties.
    In order to meet the Commissioner's deadline and protect 
California's ICS supplies, the Metropolitan board authorized that 
agency to step in for the IID and assume responsibility for the volume 
of DCP Contributions that the IID had negotiated in its intra-state 
agreement with Metropolitan. That intra-California agreement to 
implement the Lower Basin DCP between Metropolitan and IID would have 
limited the IID's DCP Contributions to no more than a cumulative total 
of 250,000 acre-feet of already conserved water, currently stored in 
Metropolitan's service area or in Lake Mead as ICS. As such, even if 
IID opts to participate in the Lower Basin DCP at a later date, IID's 
participation will have no impact on the air-quality or natural 
resources of the Salton Sea during the remaining interim period. 
Finally, although implementation of the DCP going forward, with or 
without the IID's participation, will have no impact on the resources 
of the Salton Sea during the remaining interim period, the California 
agencies' preferred option would be to have the largest user of 
Colorado River water in the entire Basin participate in and be part of 
the DCP implementation. The state of California, its Colorado River 
agencies, and our sister states in the Basin are united in the goal of 
causing no harm to the Salton Sea and await the IID to finalize its 
commitment to participate in and implement the DCP in the same way that 
it began: as a willing partner in the consensus-based, stakeholder-
driven effort.
                              conclusions
    In summary, the California agencies are prepared to execute the DCP 
interstate agreements upon adoption of Federal legislation authorizing 
and directing the Secretary of the Interior to implement the DCP. In 
collaboration with our colleagues in the other six Colorado River Basin 
states, the state of California and its Colorado River agencies have 
worked diligently over the past several years to develop the DCP inter- 
and intra-state agreements as well as the proposed Federal legislation 
before you. The proposed DCP--like the 2007 Guidelines, the 2005 Lower 
Colorado River Multi-Species Conservation Program, and ongoing 
binational processes with Mexico--is an example of continuing to choose 
the path of compromise and collaboration over that of conflict and 
litigation. It is in this spirit of collaboration that California 
appears before you today and requests that you take action to approve 
this innovative and important Colorado River management program that 
not only has the support and commitment of participation by seven 
states and the Republic of Mexico, but has also earned the support of 
stakeholders from across the Colorado River Basin, including members of 
the environmental community. Thank you for the opportunity to provide 
this testimony and I look forward to answering any questions that the 
Committee may have.

                                 ______
                                 

    Mr. Huffman. Thanks, Mr. Nelson.
    Mr. Buschatzke, you are recognized for 5 minutes.

 STATEMENT OF TOM BUSCHATZKE, DIRECTOR, ARIZONA DEPARTMENT OF 
               WATER RESOURCES, PHOENIX, ARIZONA

    Mr. Buschatzke. Thank you. Good morning, Chairman Huffman, 
Ranking Member McClintock, and members of the Subcommittee. I 
am Tom Buschatzke, the Director of the Arizona Department of 
Water Resources. Thank you for providing me an opportunity to 
present testimony on behalf of the state of Arizona on the 
Lower Basin Drought Contingency Plan, or the DCP. It is a plan 
negotiated by representatives of the states of Arizona, 
California, Nevada, water agencies within those states, and the 
U.S. Bureau of Reclamation to address the ongoing drought in 
the Lower Colorado River Basin that began nearly two decades 
ago, and that has no end in sight.
    The DCP also accounts for the drier future that we all 
expect will be the norm for the river in the coming decades. 
The drought and that drier future could lead to Lake Mead 
falling to critical elevations, resulting in draconian 
reductions in water deliveries throughout the Lower Basin. The 
DCP is an urgent measure that could help avert such a crisis. 
The time to act is now.
    The DCP and the Drought Contingency Plan crafted by the 
Upper Basin states are the latest examples of the states 
working together with the Bureau of Reclamation to achieve 
agreed-upon solutions to issues facing the states regarding the 
Colorado River. The Republic of Mexico has also agreed to a 
binational water scarcity plan for their Colorado River water 
that provides additional benefit to the actions of the seven 
Basin states.
    We have developed a sound plan for protecting the water 
supply in both lakes in the face of historic drought 
conditions, and we have done so in a manner that continues to 
protect and respect the water rights of those that rely on the 
Colorado River.
    The DCP is innovative and strikes a careful balance between 
flexibility and certainty that results in a more sustainable 
Lake Mead. The DCP is an overlay to the existing operational 
criteria set out in the 2007 Interim Guidelines that include 
water shortages in the Lower Basin to protect critical Lake 
Mead elevations.
    The DCP recognizes that the 2007 Guidelines are covered by 
existing environmental compliance under NEPA and the ESA. The 
DCP was expressly designed to fall within the parameters of 
that existing environmental compliance. The DCP benefits accrue 
as a result of less water being delivered from Lake Mead.
    The DCP will have consequences for water users in Arizona. 
Nevertheless, stakeholders in Arizona, that include tribes, 
cities, towns, counties, irrigation districts, agriculture, 
NGOs, and members of our legislature, came together to create 
an Arizona implementation plan to engender support for the DCP.
    Water users in Arizona, recognizing the urgent need to 
address Colorado River issues, agreed to make sacrifices. Their 
support enabled legislative action on January 31, 2019, with 
nearly unanimous approval by the State Legislature, authorizing 
me to sign the DCP documents and to bind the state of Arizona. 
Governor Doug Ducey signed the legislation that same day, in 
the same room that Arizona's landmark 1980 Groundwater 
Management Act was signed, symbolizing the importance of the 
DCP to the state.
    It is important to understand that the Drought Contingency 
Plan is an initiative of the seven Basin states. I recognize 
that the participation of the Bureau of Reclamation over the 
last 4 years was key to the success of this endeavor, and I 
thank them.
    Over the last two decades, innovative management on the 
Colorado River has been dependent upon cooperation between the 
states and upon partnerships with the Federal Government, even 
as presidential administrations have changed. The DCP continues 
that paradigm.
    In conclusion, I urge the adoption of the bipartisan 
Federal enabling legislation necessary to implement the Drought 
Contingency Plan.
    Thank you for the opportunity to provide testimony to the 
Subcommittee, and I look forward to answering your questions.

    [The prepared statement of Mr. Buschatzke follows:]
 Prepared Statement of Thomas Buschatzke, Director, Arizona Department 
                           of Water Resources
Introduction
    My name is Thomas Buschatzke and I am the Director of the Arizona 
Department of Water Resources. Thank you for providing me an 
opportunity to present testimony on behalf of the state of Arizona on 
the Lower Basin Drought Contingency Plan, or LBDCP. The LBDCP is a plan 
negotiated by representatives of the states of Arizona, California and 
Nevada, water agencies within those states and the U.S. Bureau of 
Reclamation to address the ongoing drought in the Lower Colorado River 
Basin that began nearly two decades ago and that has no end in sight.
    The Upper Division states of Colorado, New Mexico, Utah, and 
Wyoming, along with the Bureau of Reclamation, have negotiated a 
drought contingency plan for the Upper Colorado River Basin. The two 
DCPs work together to benefit the Colorado River system. The state of 
Arizona (``State'') supports the implementation of both plans.
    The DCPs are the latest examples of the seven Basin states working 
together with the Bureau of Reclamation to achieve agreed-upon 
solutions to issues facing the states regarding the Colorado River. The 
Republic of Mexico, which has a right to receive water from the 
Colorado River under the Mexican Water Treaty of 1944 with the United 
States, is also a key participant in the management of the Colorado 
River. Mexico has agreed to a Binational Water Scarcity Contingency 
Plan pursuant to Minute 323 signed in September 2017. Working together, 
we have developed a sound plan for protecting the water supply in both 
reservoirs in the face of historic drought conditions and we have done 
so in a manner that continues to protect and respect the water rights 
of those millions of people who rely on the Colorado River.
    The seven Basin states have drafted a series of agreements to 
implement the DCPs. These agreements are attached to a letter sent by 
the seven Basin states to the Members of Congress on March 19, 2019. 
The letter also included proposed Federal legislation necessary for the 
plans to become effective. We request that Congress take action 
immediately to pass that legislation, which directs the Secretary of 
the Interior to execute the agreements and carry out their provisions 
after they have been executed by the non-Federal parties to the 
agreements. In addition to providing you with testimony on the DCPs, I 
am here today to request your support in passing that legislation as 
quickly as possible.
Importance of the River to the Lower Basin
    The Colorado River is a critical source of water for 40 million 
people and businesses that reside in the River's Upper and Lower 
Basins. In addition to providing water for these municipal uses, the 
River supplies water for the irrigation of nearly 5.5 million acres of 
land in the Upper and Lower Basins and produces power for millions of 
people. In the United States portion of the Lower Basin, the River 
supplies water to nearly 25 million people and generates electrical 
power for approximately 8 million people.
    Last year's runoff into the Colorado River was the second lowest 
since 2000 but it is just 1 year in nearly two decades of drought in 
the watershed. The Bureau of Reclamation is predicting that Lakes 
Powell and Mead, the two largest man-made reservoirs in the United 
States, could reach critically low levels as early as 2021 or 2022. 
Although this winter's snowpack is well above normal, one thing we have 
all learned is that one above-normal year will not erase over 19 years 
of drought on the system.
    In Arizona, the Colorado River supplies nearly 40 percent of the 
State's water use. An initial shortage on the Colorado River will be 
felt first by critical underground water storage and replenishment 
programs, then our agricultural communities within the service area of 
the Central Arizona Project (``CAP''), and finally by our 
municipalities and tribal water users within the CAP service area. The 
CAP serves 3 of the State's 15 counties, contributing to the water 
supplies of approximately 80 percent of the State's population, 
including the major metropolitan areas of Phoenix and Tucson. In 
addition, nine Native American communities have rights to water through 
the CAP, and CAP water is delivered to the agricultural communities in 
central and southern Arizona.
    For over a century, Arizonans have worked hard to provide secure 
water supplies in an arid state prone to drought. Initially, 
development of Arizona's Colorado River water supplies occurred along 
the River. The authorization and construction of the CAP constituted a 
significant additional step for Arizona to put its Colorado River 
entitlement to beneficial use.
    Since the initial deliveries of Colorado River water through the 
CAP in May 1985, the State's water users within the CAP service area 
have reduced their dependency on finite groundwater supplies. At the 
same time, they have increased reliance on the State's renewable 
surface water supplies including the Colorado River. Today, nearly 40 
percent of the State's annual water demand is met with Colorado River 
water supplies. It is difficult to overstate the importance of this 
water supply to the State's economy, environment, and its quality of 
life.
The DCPs
    In 2013, representatives of the seven Basin states informed the 
Secretary of the Interior that they would begin discussing ways to 
address the ongoing drought in the Colorado River Basin. The states' 
representatives also asked the Bureau of Reclamation to assist in those 
efforts. Initial discussions focused on a single basin-wide plan.
    In 2015, the three Lower Basin states began discussions focused on 
developing a plan for the Lower Basin. The goal was to develop a plan 
to reduce the threat of Lake Mead's elevation falling to critically low 
levels that would result in significant reductions in deliveries of 
Colorado River supplies to water users and potentially impact 
hydropower generation in the Lower Basin states.
    At the same time, the Upper Basin states embarked on their own 
drought contingency plan. It was anticipated that the two plans would 
ultimately converge. These plans were intended to overlay the 2007 
Guidelines and last for the duration of the Guidelines, which are in 
effect through 2026.
    The LBDCP is the product of these lengthy negotiations among the 
Lower Basin states. Under the terms of the LBDCP, the Lower Basin 
states will take reductions in water deliveries or make contributions 
to Lake Mead at various elevation levels through 2026. These reductions 
and contributions will create additional water in Lake Mead, which in 
turn, lowers the risk of the reservoir reaching critically low 
elevations. Key elements of the LBDCP create additional incentives, 
while at the same time lessening disincentives inherent in the 2007 
Guidelines, for the storage and delivery of Intentionally Created 
Surplus (ICS).
    The DCPs recognize that the 2007 Guidelines are covered by existing 
environmental compliance under the National Environmental Policy Act 
(NEPA) and the Endangered Species Act (ESA). The DCPs were expressly 
designed to fall within the parameters of that existing environmental 
compliance.
    The appropriate parties to the DCPs, including me on behalf of the 
state of Arizona, will sign the agreements attached to the March 19, 
2019 seven Basin states' letter to implement the DCPs. Upon execution 
of the LBDCP, the Republic of Mexico will also contribute additional 
water for storage in Lake Mead, in parity and alignment with the United 
States parties, pursuant to the Minute 323 Binational Water Scarcity 
Contingency Plan agreed to by Mexico and the United States.
    Understanding the significance of the Colorado River supplies and 
the impacts of the LBDCP to Arizona's communities and economy, the 
State's water community, including Central Arizona Project, Salt River 
Project, tribes, irrigation districts, municipalities, industrial water 
users, environmental organizations, and with direct participation of 
Arizona's legislative leaders, worked diligently to develop a series of 
intrastate agreements, known as the Arizona Implementation Plan. Those 
agreements are essential to achieving the reductions in Arizona's 
Colorado River demands required by the LBDCP.
    Following extensive debate in public meetings, irrigation district 
board rooms, the press and at the State Legislature, on January 31, 
2019, the Legislature enacted legislation in support of the intrastate 
agreements and a statutorily required resolution authorizing me to sign 
the LBDCP after the Federal legislation is passed. On the same day, 
Governor Doug Ducey signed the legislation and the resolution, making 
it effective immediately.
Moving Forward with the DCPs
    The agreements to implement the DCPs will be signed by the parties 
upon the passage of the Federal legislation and will remain in effect 
until December 31, 2026, which is when the 2007 Guidelines expire.
    The DCPs are a significant incremental step toward the 
sustainability of the Colorado River system. They build on prior 
actions that incrementally improve the management of the River.
    The seven Basin states recognize that the DCPs are not a permanent 
long-term solution. We recognize that more must be done by the states 
to prepare for a drier future. The state of Arizona is committed to 
begin working on the renegotiation of the 2007 Guidelines soon after 
the DCPs become effective, and I believe that the other six Basin 
states share that commitment.
Need for Prompt Passage of Federal Legislation
    With the adoption of the 2007 Guidelines, the seven Basin states 
first agreed to criteria enumerating shortages in the Lower Basin and 
coordinating the operations of Lakes Powell and Mead, to address the 
risk of these reservoirs falling to critically low elevations.
    The operating experience gained from the 2007 Guidelines, as well 
as emerging scientific information regarding a drier future in the 
Colorado River Basin, has caused the states and the Bureau of 
Reclamation to seek more flexible water management programs and greater 
required reductions in use from, or contributions of water to, Lake 
Mead through the DCPs.
    The immediate implementation of the DCPs provides immediate 
benefits to the Colorado River system. Delaying the implementation of 
the DCPs greatly reduces the sustainability of the Colorado River 
system. Federal legislation is needed to allow the immediate 
implementation of the DCPs, which will reduce the probability that 
Lakes Powell and Mead will decline to critically low elevations. The 
seven Basin states have provided language to Members of Congress that 
we believe is appropriate for the Federal legislation. It is our hope 
that Federal legislation can be finalized as soon as possible, allowing 
the DCP agreements to be executed as written and implemented in 2019.
    Given the urgent need for action, I am asking your support to adopt 
Federal legislation, so that the agreements can be executed and 
implemented.
Conclusion
    I urge the adoption of the Federal legislation that was submitted 
as an attachment to the March 19 Letter to Congress from the seven 
Basin states.

    Thank you for the opportunity to provide this testimony to the 
Subcommittee.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    The Chair now recognizes Mr. Entsminger for 5 minutes.

STATEMENT OF JOHN ENTSMINGER, GENERAL MANAGER, SOUTHERN NEVADA 
               WATER AUTHORITY, LAS VEGAS, NEVADA

    Mr. Entsminger. Chairman Huffman, Ranking Member 
McClintock, members of the Subcommittee, my name is John 
Entsminger. I am the General Manager of the Southern Nevada 
Water Authority and Governor Sisolak's representative for the 
state of Nevada. Thank you for the opportunity to testify today 
on the Colorado River Drought Contingency Plans, also known as 
the DCP.
    I am going to begin my comments by addressing two issues 
raised by the Imperial Irrigation District that may be on your 
minds. One, that IID was cut out of the DCP; and two, that less 
agricultural runoff will reach the Salton Sea as a result of 
the DCP.
    Addressing the first, IID was not in any way cut out of the 
DCP. From very early on in the process that has now spanned 
approximately 6 years, IID's principals, lawyers, staff, and 
sometimes directors, were actively engaged in the development 
of the DCP. While IID professes support of the DCP throughout 
the process, IID's board never acted on or even put on an 
agenda the intrastate agreements and operational rules that 
comprise the DCP.
    While each of the parties to the DCP would have preferred 
that IID participate from the outset as a signatory, the 
parties have now built an on-ramp for IID to participate fully 
in the event its position changes. Until it does so, however, 
IID's exclusion is self-imposed.
    The DCP will not result in less water reaching the Salton 
Sea, and, consequently, the assertion that the DCP will 
exacerbate the very real public health concerns affecting the 
sea and its surrounding communities is erroneous. The DCP 
package forwarded to Congress by the seven Basin states will 
neither impact the amount of water reaching the Sea, nor the 
Sea's environment.
    Furthermore, if at any time IID elects to participate based 
on previously approved intrastate agreements, IID's 250,000 
acre-feet of contributions will be comprised of water that is 
already conserved in Lake Mead or with the Metropolitan Water 
District.
    I want to be clear. The seven states want IID to rejoin the 
DCP. Our decision to move forward was made out of necessity, 
not out of animosity.
    Nevada has responded to the drought with an aggressive 
conservation campaign, large-scale infrastructure improvements, 
and contributions to basin-wide initiatives designed to help 
mitigate the impacts of drought. We have invested more than 
$250 million in conservation programs that have reduced our 
consumptive use of Colorado River water by 26 percent during 
the same time period our population increased by 43 percent. We 
have spent nearly $1.5 billion on new facilities designed to 
protect our communities' access to Colorado River supplies 
without any funding from the Federal Government.
    The seven states have chosen to take actions that comprise 
the DCP voluntarily, because not one of us can bear the burden 
alone. It is our responsibility to nurture this river that 
sustains our community. The future of the American Southwest 
depends upon it.
    Thank you for your time. I will be happy to answer any 
questions.

    [The prepared statement of Mr. Entsminger follows:]
  Prepared Statement of John J. Entsminger, General Manager, Southern 
   Nevada Water Authority; Governors' Representative, State of Nevada
    Chairman Huffman, Congressman McClintock, and members of the 
Subcommittee, my name is John Entsminger. I am the General Manager of 
the Southern Nevada Water Authority and Governor Sisolak's 
representative for the state of Nevada. Thank you for the opportunity 
to testify today on the Colorado River Drought Contingency Plans, also 
known as the DCP.
    The Southern Nevada Water Authority (SNWA) serves 2.2 million 
people in Southern Nevada--more than 70 percent of our state's total 
population. We are dependent on the Colorado River for 90 percent of 
our municipal water supply. As the only major metropolitan city located 
on banks of the river, our community is highly aware that bold action 
is required--both inside our community and beyond the borders of our 
state--to respond to severe and sustained drought conditions affecting 
much of the American Southwest.
    Today I urge congressional authorization be given to the Secretary 
of the Interior for implementation of the DCP, led by the seven basin 
states that share the Colorado River. This is a final step in a long 
and sometimes arduous process that has come about through collaboration 
and compromise among the river's many stakeholders. The authorization, 
which directs the Secretary to follow the Drought Contingency Plan that 
we have developed, is vital to protecting the populations and economies 
served by this river.
                         the role of the river
    The importance of the Colorado River cannot be overstated. This 
river is inarguably the most vital waterway in the West, sustaining the 
life and livelihood of seven western states and two countries located 
within some of the hottest and driest reaches of North America. The 
river supports the municipal water needs of approximately 40 million 
people in the United States and Mexico, including the states of 
Wyoming, Colorado, Utah, New Mexico, Arizona, Nevada and California, as 
well as 22 federally recognized tribes. The river irrigates 5.5 million 
acres of agricultural lands; supports the production of hydropower for 
much of the West; sustains 22 National Wildlife Refuges, Recreation 
areas and National Parks; and serves as an essential water supply for 
countless plant and animal species located within the Colorado River 
Basin, including at least seven that are threatened or endangered.
    Historical context is useful to understand and appreciate the 
scale, magnitude and importance of the DCP, as well as the achievement 
it represents for the seven states that share this critical resource. 
The Colorado River's history is like the river itself--long, often 
turbulent and full of many unpredictable turns. It is governed by a 
series of contracts, regulatory guidelines, Federal laws, compacts, 
court decisions, decrees and a treaty with Mexico--collectively known 
as the ``Law of the River.'' The 1922 Colorado River Compact divided 
the Colorado River Basin into two distinct divisions--the Upper Basin 
and the Lower Basin, allocating 7.5 million acre-feet per year (MAFY) 
to each. The 1928 Boulder Canyon Project Act and the 1948 Upper 
Colorado River Compact further divided the river among the Lower Basin 
states of Nevada, California and Arizona, and the Upper Basin states of 
Wyoming, Colorado, Utah and New Mexico, respectively. The Law of the 
River also recognizes Mexico's right to the river's flows and 1.5 MAFY 
was granted to Mexico through an international treaty between the 
United States and Mexico in 1944.
                 current conditions and future outlook
    Over the last century, the flows of the river have ranged from a 
high of 26 MAFY in 1909 to a low of 4 MAFY in 2002. As chance would 
have it, the Colorado River Compact was negotiated during the wettest 
period in the river's recorded history. At that time, the river's flow 
was estimated at 18 MAFY. More recent modeling indicates an average 
flow of 14.8 MAFY. Meanwhile, current allocations in the United States 
and Mexico total 16.5 MAFY, excluding evaporation losses in the Lower 
Basin. Consequently, the sum of the actual compact apportionments and 
evaporation exceed the flow of the river in most years.
    The challenges of this over-appropriation have been magnified by 
severe and sustained drought conditions in the Colorado River Basin. 
Between 2000 and 2018, overall snowfall and runoff into the basin were 
well below normal, representing the lowest 19-year average on record. 
These conditions quickly developed into the worst drought in the 
basin's recorded history and have resulted in significant water level 
declines in major system reservoirs.
    Lakes Mead and Powell, formed by the construction of Hoover Dam in 
the mid-1930s and Glen Canyon Dam in the early 1960s, were designed in 
part to protect the states from such conditions--storing water in wet 
years for use when its dry. When full, these two reservoirs can hold 
approximately 50 million acre-feet of water, the equivalent of more 
than 3 years of supply for the seven Colorado River Basin states 
combined. Wet years, however, have been few over the last 20 years and 
these critical reservoirs are now 60 percent below their combined 
storage capacity. As a result, our supply buffer has been reduced by 
more than 8.6 trillion gallons of water.
    Today's water planners can do something the river's early compact 
negotiators could not--we can glance back, beyond the historical 
record, and peer forward at possible future outcomes using complex 
modeling. Tree ring studies have provided insight to the paleorecord, a 
time before formal recordkeeping began. These studies indicate the 
river has endured much longer droughts than we are experiencing today. 
Likewise, modeling using probabilistic tools and climate change 
assumptions provide insight to our future and indicate the hydrology of 
the 21st century is markedly different than the hydrology of the past.
    Multiple forward-looking studies over the years--including the U.S. 
Bureau of Reclamation's 2012 Colorado River Basin Water Supply and 
Demand Study, and the 2018 National Climate Assessment--indicate that 
the challenges we face today are likely to follow us well into the 
future. These challenges include: rising temperatures; changes to 
precipitation patterns; reduced snowpack and runoff to rivers, lakes 
and streams; drastic decreases to critical storage reserves; dry soil 
conditions and increased occurrence of wildfires; and the encroachment 
of non-native species. Likewise, drought conditions are expected to 
become more frequent, intense and longer. Stakeholders on the river 
have continued to advance discussions on how to resolve long-term 
supply and demand challenges facing the system. However, the bulk of 
our efforts have focused on more immediate needs, both locally and 
regionally. We are working diligently to protect our critical water and 
power infrastructure, and water supply access in light of worsening 
drought conditions.
    The drought, our recent experience and information brought about by 
research, studies and probabilistic modeling tools have fundamentally 
changed our collective understanding of the river. They have also given 
us a valuable opportunity--the ability to plan for the best possible 
outcome amid an increasingly formidable forecast.
                 collaborative solutions over conflict
    It is well known that conflict is synonymous with this river, even 
in the best of times. But so too is collaboration, even in the worst. 
The challenges we have faced as a river community have been daunting, 
both in their magnitude and complexity. With so many stakeholders and 
so many needs to be met, the solutions are often complicated and slow 
to materialize. Developing new tools that respect and uphold the old 
rules that govern the river takes time, patience, persistence and a 
willingness to compromise.
    The pace of progress is often slow, but extraordinary and 
beneficial change has come about by our willingness to work together. 
This approach has proactively and incrementally addressed evolving 
issues, providing water users greater and timelier certainty than would 
be possible through litigation. The seven states of the Colorado River 
have come together time and again since before the drought began, and 
in the years since, embarking on negotiations for improved flexibility 
and management of the river.
    Our first major accomplishments in the late 1990s centered on ways 
to work across state lines to store unused supplies and divvy up 
surplus Colorado River flows. Despite our early challenges to agree and 
reluctance, at times, to give, we ushered in creative solutions that 
satisfied us all. By the turn of the 21st century, we had developed 
familiarity of the issues, concerns and perspectives of our Upper and 
Lower Basin partners, and formed new foundations that led to historic 
changes on the river, including implementation of new rules for 
interstate water banking and the 2001 Interim Surplus Guidelines.
    As drought took hold on the West, the prospect of surplus Colorado 
River flows began to diminish, and the Secretary of the Interior 
initiated a process in cooperation with the states to explore 
management of Lakes Mead and Powell under shortage conditions. 
Difficult and challenging negotiations ensued, and once again the 
states rose to the challenges with the Seven States Agreement, a 
unified decision for how shortages would be shared among Lower Basin 
water users. This work was the subject of an in-depth environmental 
review which included an analysis of the additional reductions in water 
use that are now reflected in the Lower Basin DCP. This comprehensive 
effort supported the Secretary of the Interior's 2007 Interim 
Guidelines for Lower Basin Shortages and Coordinated Operations for 
Lake Powell and Lake Mead (2007 Interim Guidelines).
    To date, a shortage has never been declared by the Secretary of the 
Interior, but future declarations are imminent and will be based on a 
projection of Lake Mead water levels as determined by the U.S. Bureau 
of Reclamation's Colorado River modeling efforts. The forecast is 
reviewed annually in August; if Lake Mead is forecasted to be at or 
below 1,075 feet on January 1 of the following year, a shortage 
declaration will be made. Under a shortage declaration, the amount of 
Colorado River water available for use by the states of Nevada and 
Arizona will be reduced as shown in Figure 1. California's share of 
shortage will be borne by Arizona in accordance with the Colorado River 
Basin Project Act.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                    .epsnevada's response to drought
    Nevada is entitled to 300,000 acre-feet of Colorado River water 
annually, just 1.8 percent of the river's allocated flow. SNWA, serving 
the greater Las Vegas Valley and Nevada's largest population center, 
has contracts with the Secretary of the Interior for nearly all of the 
state's allocation. For our community, the Colorado River is our 
largest and most critical water supply.

    Drought in the Colorado River Basin pose two challenges for SNWA 
and our community: possible reduction of Colorado River supplies 
associated with a federally imposed shortage declaration and challenges 
associated with continued operations of our intake and pumping 
facilities, which draw our Colorado River allocation from Lake Mead, 
during low lake level conditions. To offset risks, Southern Nevada 
responded with an aggressive conservation campaign, large-scale 
infrastructure improvements, water banking efforts, and contributions 
to basin-wide initiatives designed to help mitigate the impacts of 
drought. Key efforts are described below.

    <bullet> We took quick and coordinated actions in 2002 to implement 
            policies and programs designed to improve water efficiency 
            and reduce water use in Southern Nevada. Today, SNWA 
            operates one of the largest and most comprehensive water 
            conservation programs in the Nation. We have invested more 
            than $250 million in education and water conservation 
            incentive programs that have reduced our consumptive use of 
            Colorado River water by as much as 100,000 acre-feet 
            annually, despite the addition of more than 660,000 new 
            residents.

    <bullet> We constructed a new raw water intake and initiated 
            construction of new pumping facilities, representing a near 
            $1.5 billion investment, to ensure our continued access to 
            Colorado River resources. These efforts are based, in part, 
            on the recommendation of a citizen's advisory committee, 
            which recognized the significant risk that Lake Mead could 
            drop below and elevation of 1,000 feet, rendering our 
            intake and pumping facilities inoperable and severing our 
            access to Colorado River supplies. The new intake and 
            pumping facilities will preserve our existing capacity to a 
            Lake Mead elevation of 875 feet. The new intake is 
            operational, and the new low-lake level pumping station is 
            expected to become operational next year.

    <bullet> Through Intentionally Created Surplus (ICS) established in 
            the 2007 Interim Guidelines and interstate banking 
            agreements with the states of Arizona and California and 
            the U.S. Bureau of Reclamation, SNWA is able to store more 
            than 200,000 acre-feet of water annually through on- and 
            off-stream storage and recovery programs. Likewise, SNWA 
            can store or ``bank'' water locally through the Southern 
            Nevada Water Bank. To date, we have banked more than 1.8 
            million acre-feet of water through our water banking 
            initiatives, nearly eight times Southern Nevada's 2017 
            Colorado River consumptive use. With continued emphasis on 
            water conservation, we anticipate banking our conserved 
            Colorado River resources, either under existing agreements 
            or through new ICS accounting as proposed under the DCP. 
            The latter is preferred to help proactively manage 
            reservoir elevations by increasing water storage in Lake 
            Mead.

    Our community's sustained conservation response and adaptive 
management efforts have helped to avoid crisis in Southern Nevada. As a 
first responder, we are heartened to see similar efforts being 
undertaken by our partners along the river. Like Southern Nevada, many 
communities throughout the basin are developing and implementing 
aggressive water conservation programs, proving it's possible to 
decouple economic growth from water use.
                      basin-wide drought response
    Regionally, the seven states have worked with Federal partners and 
Mexico since 2007 to augment Colorado River water supplies, improve 
system efficiency, and protect power generation and access to water 
supplies. These efforts range from contributing funds to a cloud 
seeding program designed to increase the potential yield of snowfall in 
the Colorado River Basin, to system efficiency and conservation efforts 
that have mutual benefit to Colorado River Basin water users.
    SNWA has joined other stakeholders in numerous agreements designed 
to help mitigate the impact of ongoing drought and bolster reservoir 
elevations. These efforts are intended to protect against critical 
reservoir elevations that threaten hydropower generation at Glen Canyon 
and Hoover Dams, and preserve access to water supplies for millions of 
Lower Basin water users.
    These collaborative efforts among the states, Federal partners and 
other Colorado River stakeholders have reduced Lake Mead's water level 
decline by more than 30 feet.

    Key basin-wide drought response efforts include:

    <bullet> The 2007 Interim Guidelines, supported by the 2007 
            Colorado River Seven States Agreement, created a mechanism 
            for the storage and recovery of ICS to encourage efficient 
            use of Colorado River supplies, increase storage in major 
            system reservoirs, increase surface water elevations in 
            Lake Mead, and help to minimize or avoid the potential for 
            declared shortages. More than 1.26 million acre-feet of ICS 
            is stored in Lake Mead today.

    <bullet> The U.S. Department of the Interior worked with project 
            partners to fund budgeted costs of $172 million for 
            construction of the Warren H. Brock Reservoir, an ICS 
            project developed on the border between the United States 
            and Mexico to improve system efficiency by conserving water 
            ordered but not taken by Lower Basin contract holders.

    <bullet> Signed in 2012 and 2017, respectively, Minute 319 and 
            Minute 323 of the Mexican Water Treaty allows Mexico to 
            store water in Lake Mead to buffer against shortages and 
            provide environmental flows, access additional water when 
            reservoir conditions are favorable, and reduce its 
            entitlement during a shortage declaration. As part of 
            Minute 323, Mexico committed to a Water Scarcity Plan 
            (WSCP), which would add to the DCP storage contributions 
            made by the Lower Basin states to mitigate against 
            declining reservoir elevations in Lake Mead. Implementation 
            is effective through 2026 and contingent upon finalization 
            of the Lower Basin Drought Contingency Plan.

    <bullet> The U.S. Bureau of Reclamation, philanthropic 
            organizations and Colorado River water users committed to 
            fund up to $36 million between 2015 and 2019 as part of a 
            Pilot System Conservation Agreement for conservation 
            projects that benefit the Colorado River system. Project 
            partners evaluate and select projects, and compensate users 
            for voluntary water use reductions. Resources created 
            through reductions cannot be recovered by any individual 
            water user. To date 170,000 acre-feet of water has been 
            created and stored in Lake Mead.

    <bullet> As an early precursor to the DCP, the U.S. Department of 
            the Interior and Lower Basin water users and states set a 
            goal of developing 1.5 to 3.0 million acre-feet of water in 
            Lake Mead before 2020 to serve as a ``protection volume.'' 
            As part of the agreement, parties agreed to use their best 
            efforts to create a total of 740,000 acre-feet of 
            protection volume between 2014 and 2017. This goal was 
            achieved.

    Despite these efforts, the risk of reaching critical levels at Lake 
Mead have increased substantially since the 2007 Interim Guidelines 
were approved and implemented.
                 a grim forecast for future conditions
    Modeling by the U.S. Bureau of Reclamation suggests a 69-82 percent 
probability of shortage in the next 5 years, assuming the hydrologic 
conditions of the last 100 years prevail. Frankly, these assumptions 
are optimistic given the realities of climate change. ``Stress test'' 
modeling using the same hydrology we've most recently experienced 
indicates a 45 percent probability Lake Mead could drop below 1,020 
feet in less than a decade. At this elevation, we will hover just above 
the point at which the river can no longer deliver to downstream water 
users and power production is severely compromised. This is a worst-
case scenario.

    As shown in Figures 2 and 3, implementation of the DCP will 
substantially reduce the risk of Lake Mead reaching a critical 
elevation of 1,020 feet.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Precipitation and snowfall in the Colorado River Basin have 
improved for 2019, with heavy snows in the Rocky Mountains, which feed 
the river system. We could choose to be optimistic, but history, 
experience and recordkeeping cautions us to remember that even with 
normal inflow--which we have not seen regularly in decades--Lake Mead 
water levels will continue to decline. This current drought has seen 4 
years with above average inflow to Lake Powell. Yet only one of those 
years (2011) provided temporary relief to the declining trend in Lake 
Mead's elevation. The years following that temporary reprieve (2012 and 
2013) were two of the driest back to back years on record. It would 
likely take decades of above-average inflows into the system to recover 
the storage we have lost over the last 20 years. While I remain hopeful 
that conditions will cause us to once again open the spillways of 
Hoover Dam as we did in the late 1990s, it would be ignorant to plan 
for anything more than our current reality.
                            next steps--dcp
    The Basin states have worked for many years now to develop a plan 
that will provide greater surety for local and regional water supplies 
within the Colorado River Basin, and avoid catastrophic disruption to 
the people, economies and environments dependent upon the river. This 
has been a challenging exercise. There have been many bumps in the 
road, but we are proud of the agreements before you today.
    The DCP works with and builds upon current operational guidelines 
by slowing Lake Mead's water level decline as critical elevations 
approach and by incentivizing water storage in system reservoirs. It 
more than doubles delivery reductions of the 2007 Guidelines below the 
1,025-foot elevation threshold and brings more parties to the table to 
share in voluntary reductions (Figure 4). Further, the DCP underscores 
the interdependent nature of the river's users and the need to share 
impacts. Mexico, recognizing the aggressive actions being taken in the 
United States, has already committed to share in these voluntary 
reductions. Although California is not required to participate in 
federally imposed reductions under the 2007 Interim Guidelines, 
California will share in voluntary reductions under the DCP.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    As difficult as these agreements have been at times to 
navigate, they represent a historic achievement--individuals, states, 
tribes, and nations working together, respecting each state's legal 
interpretations, and crafting common-sense compromises to proactively 
solve challenges presented by an uncertain future.
    The Upper and Lower Basin plans are complementary and work together 
to achieve greater results in protecting system reservoirs. As the 
reservoirs decline, the additional water flowing to Lake Powell and the 
reduced demands from Lake Mead produce higher reservoir elevations than 
when implemented one basin at a time.
    The DCP does not solve the totality of issues facing the Colorado 
River, but it is a bold step and a solid foundation for our collective 
future. I would be remiss not to acknowledge that there are real and 
related issues facing our communities, including the challenges of the 
Salton Sea. This is an important and pressing matter. It is an issue 
that has lingered too long, and the states agree that it must be 
resolved. But this current drought and the DCP actions that the states 
have presented to secure the water supply of the Southwest are not the 
cause of the Salton Sea's plight, nor will they exacerbate the 
situation in any way when implemented. Like our cities, the Salton Sea 
cannot count upon water from the river if the river fails. As such, it 
is within our collective best interest to protect Lake Mead from 
continued water level declines with the mechanisms agreed to by the 
states under the DCP.
               voluntary contributions with broad support
    Despite our celebrations for a strong snowpack this winter, we have 
little reason to believe that the worst of this drought is behind us. 
In fact, all indicators point to the contrary.
    The shortage amounts prescribed by the 2007 Interim Guidelines are 
not enough to protect our communities against reservoir declines if dry 
conditions continue as we expect they will. Our fields, faucets, 
families and our strong economies are at grave risk if Lake Mead drops 
below critical elevations. The states that share the Colorado River 
recognize this; we recognize also our joint responsibility to protect 
this fragile system.
    Once again, we have worked within the laws that govern this river 
it to find flexible solutions. Once again, we have chosen collaboration 
over conflict. Once again, we have moved slowly and deliberately and 
delicately to ensure that every voice at the table is heard, 
considered, weighed and recognized. And, once again we have found 
compromise.
                            a call to action
    On March 19, 2019, the seven Colorado River Basin states finalized 
and formally submitted the DCP to Congress. Today we seek your support 
for immediate implementation of our carefully laid plans. Simply put, 
the DCP needs to be authorized and executed by all parties in time to 
coordinate with Mexico on its contributions and to ensure that its 
elements are incorporated into 2020 water operations. This is 
imperative to ensure that the full range of conservation actions are 
implemented as soon as possible, which significantly minimizes the risk 
of Lakes Mead and Powell falling to critically low levels.
    We have come to this table voluntarily and with broad support from 
the states, environmental community, and nearly all other Colorado 
River stakeholders. We believe implementation of the DCP will resolve 
future conflict and reduce the risks we face as individual states and 
as the river community. The future of the American Southwest is 
dependent upon sustainable water supplies that are used efficiently and 
conjunctively managed. Your actions will support these efforts and help 
to secure the future of more than the 40 million people. Taking less 
water today will give us greater surety that this river will continue 
to serve us tomorrow.

    I thank you for the opportunity to share my thoughts and look 
forwarding to answering any questions you may have.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    The Chair now recognizes Mr. Eklund for 5 minutes.

    STATEMENT OF JAMES EKLUND, COLORADO COMMISSIONER, UPPER 
          COLORADO RIVER COMMISSION, DENVER, COLORADO

    Mr. Eklund. Chairman Huffman, Ranking Member McClintock, 
and members of the Subcommittee, my name is James Eklund, and I 
am Colorado Governor Polis' Colorado River representative, and 
an attorney at the law firm of Squire Patton Boggs in Denver.
    I won't repeat what others have said. Colorado supports the 
Contingency Plans and the important accompanying legislation. I 
am here because water stress in the Colorado River Basin has 
been exacerbated by climate change, while our reliance on a 
healthy river system has only increased. We began to see these 
effects nearly two decades ago when we learned that the bottom 
can fall out from underneath this system over the course of 
only a few short years.
    So, don't be misled by the snowpack, the excellent snowpack 
we have received so far this year. It only demonstrates the 
wide swings we have to manage moving forward. You can put an 
ice cube, even an excellent ice cube, in a hot cup of coffee, 
but eventually it is going to disappear.
    But for the 40 million people who depend on this river, it 
is not an abstraction. This hardest working of American rivers 
is very real to us. And this is personal. I am a fifth-
generation Coloradan from the western slope of our state. My 
great, great grandparents homesteaded our family's cattle ranch 
on a Colorado River tributary in 1888 on Ute tribal lands. 
Today, my parents, Larry and Celia--hi, Mom--run our cow-calf 
operation and still educate me on water, the Colorado River, 
and, fortunately, about everything else. Meanwhile, my amazing 
wife Sara and three wonderful children drink Colorado River 
water clear across the Continental Divide in Denver.
    Water truly binds our state together. You will find the 
vast majority of our water on one side of the Continental 
Divide, and you will find the vast majority of our population 
on the other side of that divide.
    All of our major rivers run out of our state to 18 
downstream states and Mexico. The only other state with this 
dynamic that I know of is Hawaii. So, when it comes to water, 
working together is baked into Colorado's DNA. And I am happy 
to say collaboration is alive and well, as you can see from 
this panel, and the DNA of the Colorado River Basin as a whole.
    Working together across Basin divides from Upper to Lower 
Basin states, rural and urban interests, and across water 
sectors, we have developed sound tools for protecting the 
health of the Colorado River system in the face of historically 
dry conditions. And we have done all this without infringing on 
the water rights of those who rely on this river or on the 
environment. Quite the opposite. A healthy system is critical 
to environmental flows that are part of Colorado's brand and 
security for water users that power our economy.
    So, why now? Well, the urgency is real because our system 
is stressed by warming temperatures. When water resources are 
stressed in any river basin, our environments and people in 
poverty often bear a disproportionate amount of the pain. We 
know this to be true nationally and globally. You see red on 
some of the maps that are flipping through here, directly over 
our Basin.
    If you act now--I sound like an infomercial--but if you act 
now, we will be able to incent the storage of water in Lake 
Mead. So, you get water in Lake Mead, you get water in Lake 
Powell, you get the benefits to the environment, and you act on 
climate.
    Mr. Huffman. But no steak knives?
    Mr. Eklund. Well, that is coming. That is coming. And 
operators are standing by. But we really need you to act now in 
order for us to control our own destiny.
    The DCP provides Colorado and the Upper Basin with two 
tools we believe necessary to successfully avoid or mitigate a 
crisis at Lake Powell. One, we strategically manage releases 
from reservoirs that sit above Lake Powell; and two, we provide 
storage space in Lake Powell for water we conserve under demand 
management.
    If we don't act, there is currently no such incentive. So, 
to be clear, when I say demand management, that is just a five-
dollar phrase for using less water and storing it in Lake 
Powell.
    Importantly, these tools operate within the framework of 
and comply with existing environmental laws. It is business as 
usual, so to speak, for applicable Records of Decision and 
Biological Opinions under the National Environmental Policy Act 
and the Endangered Species Act.
    Nor are we asking you to enlarge or add to the Secretary of 
the Interior's authority. Quite the opposite there. Any Upper 
Basin demand management program will be at the direction and 
under the control of the respective states implemented under 
state law.
    While neither of these tools individually constitutes a 
panacea, modeling demonstrates that a combination of these 
actions can positively influence Colorado River operations and 
outcomes. The benefits are even greater when these Upper Basin 
efforts are coupled with the Lower Basin efforts.
    Failure is not an option. Were the Colorado River system to 
fail, our efforts to preserve and protect landscapes, critical 
species, water quality, and other environmental resources that 
each of the Colorado River Basin states and the Nation depend 
on and value would be significantly compromised. So, do it for 
your grandkids, do it for the environment, do it for 
yourselves, but let's get this done.
    Thank you very much.

    [The prepared statement of Mr. Eklund follows:]
 Prepared Statement of James Eklund, Governor's Representative for the 
                           State of Colorado
                              introduction
    My name is James Eklund and I am the Governor of Colorado's 
appointed Colorado River representative. I am honored to present 
testimony on behalf of the state of Colorado on the Colorado River 
Drought Contingency Plan, or DCP. The DCP is a plan negotiated by 
representatives of the seven Basin states of Colorado, Arizona, 
California, New Mexico, Nevada, Utah, and Wyoming and the Federal 
Bureau of Reclamation to address the ongoing effects of water stress on 
the Colorado River Basin that have been exacerbated by climate change 
while our reliance on a healthy river system has increased. We began to 
see these effects nearly two decades ago and they have no end in sight 
notwithstanding an excellent snowpack so far this year.
    The DCP is the latest example of the seven Basin states working 
together to achieve solutions to Colorado River challenges. Working 
together, we have developed a sound plan for protecting the storage in 
both Lake Powell and Lake Mead in the face of historic drought 
conditions and we have done so without infringing upon the water rights 
of those that rely on the Colorado River.
      water stress in the colorado river basin requires action now
    The urgency is real because our system is stressed. Last year's 
runoff into the Colorado River was the second lowest since 2000 but it 
is just one year in nearly two decades of reduced hydrology in the 
watershed. Lakes Powell and Mead, the two largest man-made reservoirs 
in the United States, could reach critically low levels as early as 
2021 or 2022. A warming climate, exemplified by nearly 20 years of hot 
and dry conditions, has translated into reduced streamflows, earlier 
peak runoff, and more arid conditions in our critical watersheds. 
Meanwhile, our demand for water has hardened as the population 
continues to grow and as our valuable crops become thirstier longer due 
to hotter, drier conditions. When precious water resources are stressed 
in this manner, our environments and people in poverty often experience 
disproportionate pain.
    The seven Basin states have drafted a series of agreements to 
implement the DCP. We purposefully structured the agreements to call 
for legislation directing the Secretary of the Interior to execute the 
agreements and to carry out their provisions after they have been 
executed by the non-Federal parties to the agreements. In addition to 
providing you with an explanation of the DCP, I am here today to 
request your support in passing this critical legislation as quickly as 
possible.
    The seven Basin states formally addressed the risk of shortage to 
the Colorado River in 2007 with the adoption of the 2007 Interim 
Shortage Guidelines. The operating experience gained from the adoption 
of the 2007 Guidelines and emerging scientific information regarding 
the increasing flow variability of the Colorado River have compelled 
the Basin states, the Bureau of Reclamation, and the Republic of Mexico 
to seek to adopt more stringent water management programs aimed at 
mitigating the impacts of shortages on our economies and the 
environment.
    Federal legislation is now needed to facilitate the implementation 
of the DCP, which will reduce the probability that Lakes Powell and 
Mead will decline to critically low elevations. The Basin states have 
provided language to Members of Congress that we believe is appropriate 
for the Federal legislation. It is our hope that Federal legislation 
can be finalized as soon as possible allowing the DCP agreements to be 
executed as written and implemented in 2019.
    Given the urgent need for action, we are seeking your support for 
the legislation, so that the agreements can be executed and implemented 
as soon as the respective authorized officials and governing bodies in 
the Basin states have acted. Our goal is to have authorizing 
legislation in place such that the Basin states can execute the drought 
contingency plan agreements this year.
                                the dcp
    The DCP provides Colorado and the Upper Basin with two tools we 
believe necessary to successfully address a crisis: the Drought 
Response Operations Agreement and the Demand Management Storage 
Agreement. While neither of these agreements individually constitutes a 
panacea, modeling demonstrates that a combination of actions can 
positively influence Colorado River operations and outcomes.
    When our environment, economies, and livelihoods are at risk, we 
can little afford delay. Were the Colorado River system to fail, our 
efforts to preserve and protect landscapes, critical species, water 
quality, and other environmental resources that each of the Colorado 
River Basin states depend on and value would be compromised. In short, 
failure is not an option.
Drought Response Operations Agreement
    The Drought Response Operations Agreement establishes a process to 
make operational adjustments or releases at the CRSPA Initial Units, 
within the framework of existing authorities, in order to help protect 
Lake Powell from reaching critical elevations. This tool allows us to 
move water stored to where it is needed.
    The Drought Response Operations Agreement applies to the CRSPA 
Initial Units. The CRSPA Initial Units are Glen Canyon (Lake Powell), 
Flaming Gorge, Aspinall, and Navajo. This Agreement relies on available 
water supplies as needed to reduce the risk of Lake Powell dropping 
below the critical elevation of 3,525'. This elevation is essential to 
the health of the Colorado River system, its environment, its 
infrastructure, and compact rights and obligations.
    This Agreement establishes a process to develop a drought response 
operations plan. That process begins when forecasts project Lake Powell 
elevations will reach elevation 3,525' or below. The process includes 
outreach to American Indian Nations, other stakeholders, as well as 
consultation with the Lower Division states (Arizona, California, and 
Nevada). The Agreement ensures all CRSPA Initial Units are considered 
given water availability, hydrology, resource conditions, and 
operational limitations. Any plan will contain sufficient flexibility 
to begin, end, or adjust operations as needed based on actual 
hydrologic conditions. The Agreement further provides for emergency 
actions if actual hydrology or actual operating experience demonstrate 
an imminent need to protect the target elevation at Lake Powell. Any 
final drought response operations plan will be submitted to the 
Secretary of the Interior for approval. Drought response operations 
will continue until the critical elevation is no longer at risk, and 
end only after each CRSPA Initial Unit has recovered any storage 
released under such operations.
    Importantly, our drought response operations process fits within 
the framework of and complies with existing authorities. Project-
specific criteria govern the operation of each CRSPA Initial Unit, 
including applicable records of decision and biological opinions to 
satisfy the requirements of the National Environmental Policy Act and 
the Endangered Species Act, the authorized purposes for each facility, 
as well as state water right systems and decrees. The Agreement 
explicitly commits to operating the CRSPA Initial Units with the 
maximum flexibility practicable consistent with those existing 
authorities in both the release of water and the later recovery of 
storage. Moreover, the Agreement expressly recognizes that it will 
operate within the framework set forth under existing records of 
decision and biological opinions for each facility.
Demand Management Storage Agreement
    The Demand Management Storage Agreement allows the Secretary to 
make unfilled storage capacity at the CRSPA Initial Units available for 
use by the Upper Division states, through the Upper Colorado River 
Commission (UCRC), at no charge. Such storage capacity is available 
provided that the UCRC requests use of the storage capacity for the 
purpose of storing water conserved as part of an Upper Basin demand 
management program. The storage authorization does not expire.
    By securing this storage authorization, the Upper Division states 
and the UCRC can effectively consider the feasibility of a demand 
management program. The storage authorization does not guarantee the 
development and implementation of a demand management program. Nor does 
it predetermine the type of any program that may be adopted in the 
future. However, implementing or even exploring such a demand 
management program would be pointless without this authorization to use 
unfilled storage capacity because any conserved water would otherwise 
be required to be released from Lake Powell under current operating 
rules.
    The purpose of an Upper Basin demand management program will be to 
temporarily reduce consumptive uses in the Upper Basin or augment 
supplies with imported water, if needed in times of drought, to help 
assure continued compliance with Article III of the 1922 Compact 
without impairing the right to exercise existing water rights in the 
future. Any demand management program will be at the discretion and 
under the control of the respective states, implemented under state 
law. Moreover, the storage, release, or delivery of water pursuant to 
such a program is not a discretionary action of the Secretary of the 
Interior.
    The Upper Basin has learned through investigating aspects of demand 
management that no demand management program is likely to conserve 
enough water in any single year to completely ensure continued 
compliance with the 1922 Compact during extended dry conditions. 
Therefore, an Upper Basin demand management program will require the 
ability to store conserved water over multiple years.
    We must navigate and answer many outstanding questions in order to 
establish an Upper Basin demand management program. These questions go 
to the core of how much water such a program could yield and store and 
at what cost.
    In addition to providing for storage, the Demand Management Storage 
Agreement sets forth the minimum framework under which the Upper 
Division states can access the authorized storage prior to 2026. If, 
after study and consultation, the UCRC determines that a demand 
management program is feasible, then it may develop and implement a 
program. A program can only be implemented if approved independently by 
each of the Upper Division states.
    If a program is developed prior to 2026, upon verification of the 
conserved water in storage, the water will not be subject to release 
from Lake Powell through 2057 except upon the request of the UCRC for 
compact compliance purposes. The stored water cannot cause a different 
release than would otherwise occur under current operational rules. Any 
water stored must be water that would have been otherwise consumptively 
used but for conservation as part of a demand management program. The 
Agreement requires further consultation with the Lower Division states 
if more than 500,000 acre-feet of water will be stored and subjects the 
stored water to its proportionate share of evaporation losses. The 
stored water will be reduced in the event of a physical spill from Glen 
Canyon Dam and will be subject to annual verification and reporting. 
After 2026, any demand management program will be informed by and 
considered as part of the renegotiation of the 2007 operating rules.
                            term of the dcp
    The DCP will be ready for signature by the parties upon the passage 
of the Federal legislation and would remain in effect until the 2007 
Guidelines are terminated or expire at the end of 2025. The seven Basin 
states recognize that the DCP is neither a ``silver bullet'' nor a 
long-term solution to the ongoing drought in the Colorado River Basin. 
But these agreements provide a bridge to the plan that must be 
developed by the states to take effect after the 2007 Guidelines end. 
The state of Colorado is committed to begin working on that plan soon 
after the DCP becomes effective. I can assure you that the other Basin 
states share this commitment, as do I and my colleagues who serve as 
the designated representatives for each of the seven Basin states.
              the state of colorado and the colorado river
    The state of Colorado and the Colorado River are inextricably 
linked. The Colorado River and approximately 70 percent of its flow 
originate in our state. While 80 percent of our precipitation falls in 
the Colorado River Basin, 90 percent of our population is located 
outside of the Basin. This has led to approximately 500,000 acre-feet 
of water moving from western Colorado to the eastern part of our state. 
As highlighted in Colorado's Water Plan, our environment is a critical 
aspect of Colorado's brand. It is difficult to overstate the importance 
of this water supply to the state's environment and economy as well as 
those of the Ute Mountain Ute and Southern Ute tribes. East or west of 
the Continental Divide, whether located within the physical basin or 
outside it, the Colorado River ties Coloradans together. And that is 
saying something in a state that produces water that reaches 18 
downstream states, two oceans, and the Republic of Mexico.
    The basins in the Colorado River system constitute more than one-
third the size of Colorado's total geographic area. Originating in our 
north central mountains, the main stem of the Colorado River flows 
southwesterly and is met at Grand Junction by the Gunnison River before 
flowing west into Utah. The Yampa River and the White River move 
westward across the northwest quadrant of the state to the Utah border 
where they join the Green River, another tributary of the Colorado. The 
San Miguel River and the Dolores River begin near the southwestern 
corner of Colorado and travel north along the western border into Utah. 
The San Juan River and its tributaries collect the water in the 
southernmost regions west of the Continental Divide and flow into New 
Mexico and Utah. Importantly, the Upper San Juan River and its 
tributaries flow through two American Indian reservations in the 
southern portion of the basin--the Ute Mountain Ute Reservation and the 
Southern Ute Indian Reservation--both of which require a healthy 
Colorado River system.
                               conclusion
    The DCP agreements are the product of a collaborative effort by the 
seven Colorado River Basin states to address the ongoing drought in the 
Colorado River Basin. In the Upper Basin, the drought has created a 
very real risk of Lake Powell dropping to critical elevations that 
would result in significant negative consequences. The DCP will help 
reduce this risk through the two tools of reservoir operations and 
demand management.
    We structured the DCP to require the passage of Federal legislation 
in order to be effective. We request your support in adopting the 
legislation as soon as possible so that the DCP can be implemented this 
year for the health of the Colorado River system, its environment, and 
its people.

    Thank you. I stand ready for any questions, comments, or 
observations you might have.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    Mr. D'Antonio, you are recognized for 5 minutes.

    STATEMENT OF JOHN D'ANTONIO, NEW MEXICO STATE ENGINEER, 
                    ALBUQUERQUE, NEW MEXICO

    Mr. D'Antonio. Good morning, Chairman Huffman, Ranking 
Member McClintock, and members of the Committee. My name is 
John D'Antonio. I am the New Mexico State Engineer and 
Governor's representative for the state of New Mexico on the 
Colorado River. Thank you for inviting me to testify before the 
Subcommittee today.
    I am here with my fellow governors' representatives to urge 
you to support the seven states' request to pass Federal 
legislation allowing the Secretary of the Interior to sign and 
implement the seven states' Drought Contingency Plans, or DCPs, 
for the Colorado River.
    Immediate action is necessary on the DCPs to more 
effectively combat the drought we have experienced the past 19 
years. The DCPs are needed and appropriate tools developed by 
consensus between seven states to reduce the negative impacts 
of this continuing drought on cities, farmers, tribes, and the 
environment. The DCPs will be exercised within the constraints 
of existing environmental laws and regulations.
    The DCPs are the culmination of the multi-year efforts of a 
large group of parties. The seven Basin states, the United 
States, and the Republic of Mexico have come together to ensure 
continued water supplies for over 40 million people. Each state 
and country is doing its part to keep water levels in Lake 
Powell and Lake Mead from dropping to dangerously low levels 
and would result in significant water shortages to the Lower 
Basin and the reduction, loss of hydropower, electrical 
generation for millions of people in the southwestern United 
States.
    Specifically for New Mexico, the Upper Basin Drought 
Response Operations Agreement will help maintain the elevation 
of Lake Powell for hydropower generation, and the Demand 
Management Storage Agreement will help maintain river flows at 
Lee's Ferry for compliance with the 1922 Compact. By doing so, 
we will reduce the risk of power shortage for our citizens who 
get electricity from the Western Area Power Administration and 
the risk of water shortages for our users.
    In the San Juan Basin, Navajo Reservoir is operated to 
provide water for two of our Indian tribes, a number of other 
water users, and to maintain endangered species flow in the 
river through New Mexico and Utah to Lake Powell. Its 
operations have reduced or eliminated the impacts of drought on 
the main stem of the San Juan River. Navajo Reservoir 
operations provide endangered species compliance through the 
San Juan River Implementation Program for numerous water users, 
including the Navajo Nation and Jicarilla Apache Nation, also 
the San Juan-Chama Project, which is a transmountain diversion 
to the Rio Grande Basin.
    Diversions of Colorado River Basin water to the Rio Grande 
Basin have significantly reduced the impacts of extended 
drought on portions of the Rio Grande. San Juan-Chama Project 
water is also a major component of both the Aamodt and Abeyta 
Indian water rights settlements.
    And, finally, San Juan-Chama Project water is used by 
cities, farmers, and to the benefit of endangered species on 
the Rio Grande Basin. In 2018, the drought was so severe that 
without San Juan-Chama water flowing to the Rio Grande, the 
river would have been dry for several hundred miles.
    When the 2007 Interim Guidelines were negotiated, the 
Department of the Interior performed an analysis pursuant to 
the National Environmental Policy Act and published Record of 
Decision. The DCP agreements are written to operate within the 
constraints of these Records of Decision, Biological Opinions, 
and endangered species flow recommendations.
    Navajo Reservoir, which is in New Mexico, is managed in 
part to maintain sufficient flow in the San Juan River to help 
endangered fish all the way to Lake Powell on the Utah-Arizona 
border. Those efforts have been going on for several decades 
and will continue as the DCPs are implemented. More 
specifically, if Navajo Reservoir water is determined to be 
available for release under either of the two Upper Basin DCP 
agreements, releases of the water will be coordinated with the 
San Juan Recovery Implementation Program, in compliance with 
the applicable Record of Decision and flow recommendations.
    Between 2015 and 2018, the Upper Division states, through 
the Upper Colorado River Commission, ran a system conservation 
pilot program to determine the feasibility of voluntary 
compensated conservation in the Upper Basin. That program was a 
precursor to the Demand Management Storage Program that is 
proposed as part of the Upper Basin DCP.
    The Navajo Nation, through the Navajo Agricultural Products 
Industry, participated in the Upper Basin System Conservation 
Pilot Program in 2017 and 2018, and was the single largest 
contributor to water savings in the Upper Basin during these 2 
years.
    New Mexico has also engaged with the Jicarilla Apache 
Nation and the DCPs and several San Juan-Chama contractors, the 
San Juan Water Commission, power generation companies, The 
Nature Conservancy, and all participants of the San Juan 
Recovery Implementation Program as part of our outreach DCP 
efforts.
    New Mexico is confident that these and others will continue 
to be important partners as the DCP moves forward. The state is 
urging Congress to have legislation in place by April 22 of 
this year.
    I want to thank you for the opportunity to testify before 
you today, and I urge you to introduce and pass legislation to 
authorize the Secretary to sign and implement the DCPs without 
delay. Thank you.

    [The prepared statement of Mr. D'Antonio follows:]
    Prepared Statement of John R. D'Antonio, Jr., New Mexico State 
           Engineer; Governor's Representative for New Mexico
    Good morning Chairman Huffman, Ranking Member McClintock and 
members of the Committee. My name is John R. D'Antonio, Jr. I am the 
New Mexico State Engineer and the Governor's representative for the 
state of New Mexico on the Colorado River. Thank you for inviting me to 
testify before your Subcommittee today. I am here today with my fellow 
governors' representatives to urge you to support the seven states' 
request to pass Federal legislation allowing the Secretary of the 
Interior to sign and implement the Seven States' Drought Contingency 
Plans or DCPs for the Colorado River.
    Immediate action is necessary on the DCPs to more effectively 
combat the drought that has been upon us for the past 19 years. The 
DCPs are needed and appropriate tools, developed by consensus between 
seven states, to reduce the negative impacts of this continuing drought 
on cities, farmers, tribes, and the environment. It is justified 
because the DCPs will be exercised within the constraints of existing 
environmental laws and regulations.
    The DCPs are the culmination of the multi-year efforts of a large 
group of parties. Arizona, California, Colorado, Nevada, New Mexico, 
Utah and Wyoming, the United States, and the Republic of Mexico have 
come together to ensure continued water supplies for over 40 million 
people. Each of those states, each of those countries is doing its part 
to keep water levels in Lake Powell and Lake Mead from dropping to 
dangerously low levels that would result in significant water shortages 
in the Lower Basin and the reduction/loss of hydropower electrical 
generation for millions of people in the southwestern United States.
    In 2017, representatives of the two countries completed negotiation 
of Minute 323 to the 1944 Mexican Water Treaty. Minute 323, in part, 
anticipated Mexico's participation in these drought efforts by holding 
water in Lake Mead, but Mexico's participation is entirely contingent 
upon the authorization of the Lower Basin DCP by U.S. Federal law. If 
the Federal legislation is enacted before April 22, 2019, Mexico could 
contribute water to Lake Mead storage in 2020. Should Federal 
Legislation be enacted after April 22, 2019, Mexico would not 
contribute to Lake Mead storage until 2021. On the domestic side, 
representatives of the seven states have been meeting for several years 
to negotiate and finalize the implementation documents that are 
attached to the seven Basin states' letter. Everyone compromised during 
the negotiations, but in the end, we feel those agreements are the best 
tools we can implement right now to help us all better manage the 
Colorado River system.
    Specifically for New Mexico, the Upper Basin Drought Response 
Operations Agreement will help maintain the elevation of Lake Powell 
for hydropower generation and the Demand Management Storage Agreement 
will help maintain river flows at Lee's Ferry for compliance with the 
1922 Compact. By doing so, we will reduce the risk of power shortage 
for our citizens who get electricity from the Western Area Power 
Administration and the risk of water shortages for our water users. New 
Mexico has been at the center of moderate to extreme drought for much 
of the last 19 years and our surface water supplies, which, even when 
normal, are still the lowest of the seven Basin states, have been 
stretched to the limit. We have learned the consequences of NOT being 
prepared for continued drought. The state and many of its water users 
have planned and implemented activities to temper the severity of the 
extended drought on our citizens, farms, and environment. Water from 
the San Juan Basin is a big part of those plans and the DCPs will 
reduce the likelihood of that water not being available in the future.
    In the San Juan Basin, Navajo Reservoir is operated to provide 
water for two of our Indian tribes, and a number of other water users, 
and to maintain endangered species flows in the river through New 
Mexico and Utah to Lake Powell. Its operations have reduced or 
eliminated the impacts of drought on the mainstem of the San Juan 
River. Navajo Reservoir operations provide endangered species 
compliance, through the San Juan Recovery Implementation Program, for 
numerous water users including the Navajo Nation and the Jicarilla 
Apache Nation in the San Juan Basin, and the San Juan-Chama Project, a 
transmountain diversion to the Rio Grande Basin. Diversions of Colorado 
River Basin water to the Rio Grande Basin through the San Juan-Chama 
Project have significantly reduced the impacts of the extended drought 
on a portion of the Rio Grande. San Juan-Chama Project water is also a 
major component of both the Aamodt and Abeyta Indian Water Rights 
settlements. Finally, San Juan-Chama Project water is used by cities, 
farmers, and to benefit endangered species in the Rio Grande Basin. In 
2018, the drought was so severe that, without San Juan-Chama water 
flowing in the Rio Grande, the river would have been dry for several 
hundred miles. There was just no natural surface water flowing.
    The Upper Basin elements of the DCP will reduce the likelihood that 
those New Mexico ``planned'' uses will be reduced or even stopped. Tree 
ring reconstructions tell us that historic extended droughts on the 
Colorado have lasted significantly longer than 20 years. That was even 
without global warming. Given the dire situation the seven states could 
face in the very near future, it is imperative you authorize the 
Federal legislation that will allow the Department of the Interior to 
implement the DCPs.
    Those tools are necessary because, as climate change affects our 
planet more and more, the American Southwest is becoming hotter and 
drier. Twenty years ago, the Colorado Basin states negotiated 
guidelines for sharing surplus Colorado River water. Soon after, nature 
made it clear that they needed to worry about shortages. So, in the 
early 2000s, the states began negotiating a set of guidelines (2007 
Interim Guidelines) to deal with drought on the system. Those 
guidelines were implemented in December 2007 and have guided operations 
of the Colorado River since that time. They have helped reduce the 
impacts of drought. But the dry conditions persisted and it became 
clear more was needed. So President Obama's Interior Secretary, Sally 
Jewell, asked the seven states to come up with a refined plan. The DCPs 
are that plan. They are the next step in adapting to this drier 
reality.
    When the 2007 Interim Guidelines were negotiated, the Department of 
the Interior performed an analysis pursuant to the National 
Environmental Policy Act (NEPA) and published a Record of Decision. 
This analysis and Record of Decision included specific review of each 
of the Initial Units created pursuant to the Colorado River Storage 
Project Act of 1956 (CRSP) (Powell, Navajo, the Aspinall Unit and 
Flaming Gorge). Individual Biological Opinions were prepared for each 
of those reservoirs. A number of scenarios were considered during the 
NEPA evaluation regarding water levels and releases for each of those 
reservoirs and potential environmental effects of those operations. The 
DCP agreements are written to operate within the constraints of these 
Records of Decision, Biological Opinions, and endangered species flow 
recommendations, where applicable. There are no unforeseen impacts of 
the DCPs because various reservoir levels and their environmental 
consequences have already been analyzed.
    In addition, as you may know, until last year the environmental 
programs on the Colorado River were financed in part by revenues from 
hydropower out of Lake Powell. In fact, representatives from the four 
Upper Division states, water users, tribes, and NGOs were in Washington 
DC 2 weeks ago to meet with your individual staffers and Department of 
the Interior personnel to discuss program successes and the new need 
for funding through the appropriations process. Efforts to protect four 
endangered fish species in the Colorado River system have resulted in 
two of those species becoming candidates for downlisting from 
endangered to threatened: The Fish & Wildlife Service plans to publish 
a proposed downlisting for the humpback chub in May and one for the 
razorback sucker in late 2019. Navajo Reservoir, which is in New 
Mexico, is managed, in part, to maintain sufficient flow in the San 
Juan River to help the fish all the way to Lake Powell, on the Utah-
Arizona border. Those efforts have been going on for several decades 
and will continue as the DCPs are implemented. More specifically, if 
Navajo Reservoir water is determined to be available for release under 
either of the two Upper Basin DCP agreements, releases of the water 
will be coordinated with the San Juan Recovery Implementation Program 
(San Juan RIP) in compliance with the applicable ROD and flow 
recommendations.
    Between 2015 and 2018, the Upper Division states, through the Upper 
Colorado River Commission, ran a System Conservation Pilot Program to 
determine the feasibility of voluntary compensated conversation in the 
Upper Basin. That program was a precursor to the Demand Management 
Storage Program that is proposed as part of the Upper Basin DCP. The 
Navajo Nation, through the Navajo Agricultural Products Industry (NAPI) 
participated in the Upper Basin's System Conservation Pilot Program in 
2017 and 2018 and was the single largest contributor to water savings 
in the Upper Basin during those 2 years.
    New Mexico has also engaged with the Jicarilla Apache Nation 
regarding the DCPs and Jicarilla Apache Nation staff has expressed 
interest in talking more about opportunities. In addition, state 
representatives engaged with several San Juan Chama contractors, the 
San Juan Water Commission, power generation companies, The Nature 
Conservancy (TNC), and all participants of the San Juan RIP as part of 
our outreach DCP efforts. TNC was a partner to the Upper Division 
states in the System Conservation Pilot Program. New Mexico is 
confident that the Jicarilla Apache Nation, the Navajo Nation, TNC and 
others will continue to be important partners as the DCPs move forward.
    The 2007 Interim Guidelines expire at the end of 2025 (after 
preparation of Reclamation's Annual Operations Plan for 2026). The 
seven Basin states are set to begin renegotiation of those Guidelines 
by the end of 2020. Implementing the DCPs now will allow us to begin 
testing the new tools we have crafted as we begin renegotiation of the 
Guidelines. Thus, we can learn what works on the ground and what needs 
to be adjusted. Armed with this experience, we will be in a better 
position to improve the system going forward, while continuing to 
protect water rights owners, Native American tribes, endangered 
species, power generation and recreation.
    The states are urging Congress to have legislation in place by 
April 22, 2019. Time is of the essence because, on August 1 of each 
year, the Bureau of Reclamation publishes its 24-month study for the 
Colorado River Basin, which includes projected elevations of Lake 
Powell and Lake Mead on January 1 of the following calendar year. River 
operations are based on that study. Under the Interim Guidelines, these 
projections determine the water release amounts from Lake Powell and 
Lake Mead in the coming year. Pursuant to existing laws and 
regulations, the Bureau has no flexibility in terms of when its study 
and determination occur and are published. While those projections can 
be amended later based on revisions to the hydrology, operations on a 
river system as complex as the Colorado cannot be turned around on a 
dime. Some will object that the hydrology for 2019 appears to be 
positive, with snowpack exceeding 100 percent of basin average in the 
Upper Basin. However, we have been in this situation before. 2011 was a 
remarkably wet year, and many thought that the drought on the Colorado 
might have subsided. It was followed by two exceptionally dry years in 
2012 and 2013. One good year of hydrology does not reverse the 
dangerous course we are on. Now more than ever, it is vital that we 
give ourselves the tools to face the drier future.
    I thank you for the opportunity to testify before you today and I 
urge you to introduce and pass legislation to authorize the Secretary 
to sign and implement the DCPs without delay.

                                 ______
                                 

    Mr. Huffman. Thank you very much.
    The Chair now recognizes Mr. Millis for 5 minutes.

  STATEMENT OF ERIC MILLIS, DIRECTOR, UTAH DIVISION OF WATER 
                RESOURCES, SALT LAKE CITY, UTAH

    Mr. Millis. Thank you, and good morning, Chairman Huffman, 
Ranking Member McClintock, and members of the Subcommittee. 
Thank you again for allowing me to speak. I am Eric Millis. I 
am the Division Director for the Utah Division of Water 
Resources. I am also Utah's Commissioner for the Colorado 
River.
    The Colorado River provides a significant amount of water 
to Utah, comprising 22 percent of the state's total water 
supply. This water is largely used by agriculture in the 
eastern part of the state, but it is also the principal supply 
for the Central Utah Project, which is a trans-basin diversion 
which conveys water to the Wasatch Front. That Wasatch Front 
area extends from roughly 70 miles north of Salt Lake City, to 
roughly 70 miles south, and this is where most of the state's 
population resides.
    Central Utah Project water is used for municipal and 
industrial purposes in this rapidly growing population center. 
In the future, Utahns will rely on the Colorado River even more 
heavily as reserved water rights settlements with Native 
American tribes are implemented, industry and agriculture 
expand, and the state's rapid population growth likely 
continues.
    For 19 years, the Colorado River Basin and the state of 
Utah have been in a severe drought, one of the worst in the 
past 1,200 years. Although Lakes Powell and Mead appear to be 
operating as designed through this dry period, both are at 
uncomfortably low levels. The unknown is whether this drought 
will continue in the long term and thereby impact the river as 
a reliable source of water supply.
    So, given the needs, which will only increase over time, 
protection of this water supply for Utah water users, as well 
as for all water users in the Basin, is essential. The Drought 
Contingency Plans that have recently been agreed to by the 
seven Colorado River Basin states will offer protection to us 
all. The protection afforded to Utah and to the other Upper 
Division states by the Drought Contingency Plans will enable 
these states to maintain compact compliance. This, then, 
protects the Upper Division states against involuntary 
curtailment of uses of Colorado River water.
    Involuntary curtailment is undesirable because it would 
require farmers, businesses, municipalities, tribes, and other 
water users to cut back or cut off use of their Colorado River 
water. This would be financially devastating to these groups 
and to the communities in which they are located due to cuts in 
production or having to purchase expensive replacement water.
    The Upper Basin Drought Contingency Plan also is aimed at 
protecting hydroelectric power generation at Glen Canyon Dam. 
Millions of customers throughout the West would be impacted by 
a reduction in hydropower generation. Additionally, such a 
reduction would cause a loss of power revenues. These revenues 
are critically important for the operation, repair, and 
replacement of Colorado River Storage Project facilities. The 
revenues also fund a number of critical environmental programs, 
such as the Endangered Fish Recovery Program and the Colorado 
River Salinity Control Program.
    This year, we are looking forward to a closer to normal 
inflow into Lake Powell due to the excellent snowpack that we 
have received. This will help make up for some of the effects 
of the really bad last year that we had and make for a more 
somewhat comfortable situation with the reservoirs. It is hard 
to know, however, if this year will be just one more good year 
among so many bad ones. It is, therefore, wise to have a plan 
and implementable actions to help ensure that we can keep the 
system operating in a way that complies with the Law of the 
River and protects water users and the environment.
    Utah wholeheartedly supports the Drought Contingency Plans, 
the benefits they will bring, and the straightforward 
legislation needed to implement those plans. Given the critical 
need, the benefits that will occur and the hardship that will 
be avoided, Utah asks Congress to pass the legislation required 
to make these Drought Contingency Plans a reality. Thank you.

    [The prepared statement of Mr. Millis follows:]
 Prepared Statement of Eric L. Millis, PE, Colorado River Commissioner 
                                for Utah
    Thank you, on behalf of the state of Utah, for allowing me to 
submit testimony regarding the Colorado River Drought Contingency Plan. 
Utah is one of the seven Colorado River Basin states. More specifically 
it is one of the four Upper Division states, along with Colorado, New 
Mexico and Wyoming.
    The Colorado River provides a significant amount of water to Utah, 
comprising approximately 22 percent of the state's total water supply. 
This water is used largely by agriculture in the eastern part of the 
state but is also the supply for the Central Utah Project, a trans-
basin diversion which conveys water to the Wasatch Front--a 30-mile-
wide strip of land extending from 70 miles north of Salt Lake City to 
70 miles south where most of the state's population resides. Central 
Utah Project water is used for municipal and industrial purposes in 
this rapidly growing population center. In the future, Utahns will rely 
on the Colorado River even more heavily as reserved water rights 
settlements with Native American tribes are implemented, industry and 
agriculture expand, and the state's rapid population growth likely 
continues.
    For 19 years, the Colorado River Basin and the state of Utah have 
been in a severe drought situation--one of the worst in the last 1,200 
years. Although Lakes Powell and Mead appear to be operating as 
designed through this dry period, both are at uncomfortably low levels. 
The unknown is whether this drought will continue or if it is a result 
of climate change that may make a permanent impact on the river as a 
source of water supply.
    Given needs, which will only increase over time, protection of this 
water supply for Utah water users is essential. The Drought Contingency 
Plans that have recently been agreed to by the seven Colorado River 
Basin states will offer protection not only to Utah but to the other 
states as well. The protection afforded Utah and the other Upper 
Division states by the drought contingency plans will enable these 
states to maintain Compact compliance. This then protects the Upper 
Division states against a Compact call, which would require involuntary 
curtailment of uses of Colorado River water in each Upper Division 
state.
    Involuntary curtailment is undesirable because it would require 
farmers and other water users cut back or cut off use of their Colorado 
River water. This would be financially devastating to businesses, 
individuals and the communities in which they are located due to cuts 
in production or having to purchase expensive replacement water. 
Included in this would be potential reductions of supply to the Central 
Utah Project, which could also be required to purchase expensive 
replacement water or cutback on delivery.
    The Upper Basin Drought Contingency Plan is aimed at protecting 
Upper Basin water supplies by keeping Lake Powell from falling below a 
specified critical elevation. If Lake Powell were to fall below this 
elevation (el 3525), hydroelectric power generation at Glen Canyon Dam 
would be reduced or could eventually be shut off altogether. Millions 
of customers throughout the West would be impacted by a reduction in 
hydropower generation. Additionally, such a reduction would cause a 
loss of power revenues. These revenues are critically important for the 
operation, repair and replacement of Colorado River Storage Project 
facilities. The revenues also fund a number of critical environmental 
programs such as the Upper Colorado River Endangered Fish Recovery 
Program and the Colorado River Salinity Control Program.
    We are grateful for the excellent snowpack we have received this 
year in the mountains that feed the Colorado River. It is a marked 
change from last year when April 1 snow totals in Utah and in the 
Colorado River Basin were much lower than normal. In fact, the total 
rise in Lake Powell due to the runoff last year hardly made a bump on 
the graph (below--between Jan-18 and Jan-19) showing the water levels 
of the Lake. With the required releases from the Glen Canyon Dam, Lake 
Powell has dropped to within 10 feet of the lowest elevation it has 
seen since filling in the 1960s and 1970s. This graph shows the effects 
of the drought on the elevations of Lake Powell since 2000, when it was 
effectively full. There have been some good years such as 2005, 2008, 
2011 and 2017, but most have been below average.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    This year we are looking forward to near normal inflow into 
Lake Powell due to the excellent snowpack. This will help make up for 
the effects of the bad last year and bring us back to somewhat more 
comfortable lake elevations. It is hard to know, however, if this year 
will just be one more good year among so many bad ones. It is therefore 
wise to have a plan and implementable actions to help ensure we can 
keep the system operating in a way that complies with the Law of the 
River and protects water users.
    Utah wholeheartedly supports the drought contingency plans, the 
benefits they will bring and the straightforward legislation needed to 
implement those plans. We have worked with the other Upper Division 
states on the Upper Basin Plan. We have reviewed the Lower Basin Plan 
and worked with the Lower Basin states as they have developed it. We 
also note that Mexico will implement measures similar to those of the 
Lower Basin states when the Lower Basin Plan is ready for 
implementation. While all three of these plans individually provide 
great benefit, working together there will be synergism which will 
create an overall result that is larger than the sum of its parts.
    Given the critical need, the benefits that will occur and the 
hardship that will be avoided, Utah asks Congress to pass the 
legislation required to make these drought contingency plans a reality.

                                 ______
                                 

    Mr. Huffman. Thank you.
    Last but not least, Mr. Tyrrell, you are recognized for 5 
minutes.

  STATEMENT OF PAT TYRRELL, WYOMING STATE ENGINEER, CHEYENNE, 
                            WYOMING

    Mr. Tyrrell. Thank you. Chairman Huffman, Ranking Member 
McClintock, and members of the Committee, I get to be the first 
person today to wish you a good afternoon. And I would like to 
thank Representative Cheney for the very kind introduction and 
get that thank you into the record.
    My name is Pat Tyrrell, and I am the Wyoming State Engineer 
and the Wyoming Governor's representative on the Colorado 
River. I wish to express our state's support for the Drought 
Contingency Plans.
    As you have heard, the Colorado River Basin has been 
experiencing severe drought since 2000, more severe than was 
considered during the development of our 2007 Guidelines. We 
now know that those operating rules cannot sufficiently address 
one of the worst drought cycles ever seen.
    The DCPs will provide the opportunity, a bridge, for the 
Basin states, Federal Government, and other key stakeholders to 
collaborate on a longer term set of sustainable solutions for 
managing the Colorado River until 2026, when those earlier 
guidelines are replaced.
    The DCPs reduce the probability that both Lakes Powell and 
Mead will decline to critically low elevations, which could 
occur as early as 2021.
    We see two paths to respond to severe drought in the short 
term. One is to watch it happen and risk unilateral secretarial 
action in the Lower Basin and dispassionate mandatory 
regulation of uses in the Upper Basin. The other way is to 
authorize the DCPs, which lay lighter on our water users and 
are a product of collaboration and consensus.
    In either case, if drought continues, some water uses will 
be reduced. They must be. As a water manager, I feel compelled 
to offer my water users the second alternative, a drought plan 
developed which avoids heavy government intervention and 
mandatory curtailment. That is what the DCP presents. The Upper 
Basin cannot fail to satisfy the 1922 Compact's non-depletion 
obligation below Lake Powell.
    Additionally, we have never had to implement the difficult 
curtailment provisions of the 1948 Upper Colorado River Basin 
Compact, but we know it would be difficult. The risk of under- 
or over-regulating is significant.
    The first tool in our DCP in the Upper Basin is the Drought 
Response Operations about which you have heard. This agreement 
establishes a process where we can move stored water above Lake 
Powell, down to it, to protect critical elevations. If Lake 
Powell reaches critical elevations, the ability to release 
water is jeopardized. If we cannot get sufficient water out of 
that reservoir, we violate the 1922 Compact. If we cannot 
generate hydropower, many other needs and programs will be 
impacted.
    Even without the agreement, the Bureau of Reclamation will 
move uncommitted storage from its upstream CRSP initial unit 
reservoirs to prevent that from happening.
    The agreement provides a process for outreach to our 
stakeholders, and it requires recovery of those reservoirs.
    Finally, as you have heard, we have committed that those 
operations and activities will occur under existing NEPA 
analyses, Records of Decisions, and other authorities.
    Our second tool is the Demand Management Storage Agreement. 
Demand management would allow, as you have heard, the Upper 
Basin to store conserved water for later use, much as is done 
in the Lower Basin's ICS program. If a demand management 
program proves feasible, the temporary, voluntary reduction of 
existing use in the Upper Basin would provide us with an 
important tool to ensure compact compliance. With storage at no 
cost to the states, our program could be crafted with 
involvement of stakeholders.
    The Colorado River Basin needs the DCPs implemented now. 
And I would ask the Committee to notice who is on the panel. We 
have seven states here, and this Basin does its best when all 
of us sing from the same book. We need to get something done, 
which is why we are here today.
    These plans were developed through years of collaboration 
with this group, compromise and consensus, and function with 
rigorous environmental analyses, review, and the permitting 
processes that have already been completed. The plans require 
the passage of Federal legislation to become effective. We 
request your support in adopting the legislation as soon as 
possible so that the plans can be implemented this year.
    Thank you.

    [The prepared statement of Mr. Tyrrell follows:]
  Prepared Statement of Patrick Tyrrell, P.E., Wyoming State Engineer
                              introduction
    Chairman Huffman, Ranking Member McClintock, and members of the 
Subcommittee, my name is Patrick Tyrrell. I am the Wyoming State 
Engineer and the Wyoming Governor's representative regarding the 
Colorado River. Thank you for providing me the opportunity to present 
testimony on behalf of the state of Wyoming regarding the Colorado 
River Drought Contingency Plans (DCPs).
    The Colorado River Basin needs the DCPs implemented now. The Basin 
has experienced 19 years of drought. Our current operating rules cannot 
sufficiently address one of the worst drought cycles over the past 
1,200 plus years. The entire system faces a crisis that cannot be 
remedied by 1 or 2 good water years. Two countries, seven states, 40 
million people, 5.5 million acres of irrigated agriculture, an economy 
of $1.4 trillion dollars per year, and all that rely on the Colorado 
River need a plan. They all need a plan now.
    We have developed a plan. The seven Colorado River Basin states, 
working with the Department of the Interior, have carefully developed a 
plan over the last 6 years. Our plan was built through collaboration 
and consensus and represents a complex compromise which considers all 
of the potential impacts. Only through such collaboration and 
compromise are we able to fully achieve the flexibility and innovation 
found within the DCPs, while at the same time effectively respecting 
each state's rights under the Law of the River. Plans in the Lower 
Basin states of Arizona, California and Nevada have been drafted 
separately, but parallel to, plans drafted in the Upper Basin states of 
Colorado, New Mexico, Utah and Wyoming. These plans help protect 
critical reservoir elevations at Lakes Powell and Mead and provide a 
synergistic benefit to the entire River Basin when operating in tandem. 
They are now in front of you for consideration and authorization. Our 
plans are needed now.
    The DCPs must be implemented without delay. The new operational 
flexibility created by the Lower Basin DCP will enable Lower Basin 
water contractors to put Intentionally Created Surplus into storage 
this year, rather than needing to draw it down, helping preserve the 
level of Lake Mead. Determinations regarding reservoir operations for 
water year 2020 will be made in August 2019. Timely implementation is 
important with regards to contributions by the Republic of Mexico. 
Those contributions are conditioned upon the effectiveness of the Lower 
Basin DCP and will require several months to effectuate, potentially 
precluding Mexico's participation in water year 2020 if the DCPs are 
not implemented by April 22, 2019. Moreover, implementation cannot 
begin until the agreements have been executed by all parties, which is 
predicated upon securing congressional legislation.
    The DCPs will enhance existing water management tools and will 
address the looming water crisis in the near term, but they are only 
temporary. They will provide the opportunity--a bridge--for the Basin 
states, Federal Government and other key stakeholders to collaborate on 
a longer-term set of sustainable solutions for managing the Colorado 
River. We need that opportunity. Only by immediately enacting the 
proposed Federal legislation and implementing the DCPs will the plan 
work. The DCPs will reduce the probability that Lakes Powell and Mead 
will decline to critically low elevations--which could occur as early 
as 2021--and are the only plans which can adequately address the crisis 
in the short term.
    My colleagues from the Lower Basin will describe the Lower Basin 
plan, and my testimony will focus on the Upper Basin plan. The Upper 
Basin DCP is designed to assure continued compliance with the 1922 
Colorado River Compact (1922 Compact) and help protect critical 
elevations at Lake Powell. The states of Colorado, New Mexico, Utah and 
Wyoming developed the Upper Basin DCP along with the Department of the 
Interior and water users and other stakeholders in each state.
Upper Basin Drought Contingency Plan
Background
    Water management and operations in the Upper Basin differ from 
those in the Lower Basin. These differences necessarily result in 
different kinds of drought planning tools than those proposed to be 
employed in the Lower Basin.
    Unlike the Lower Basin, the Upper Basin entered into a Compact to 
divide its allocation made under the 1922 Compact. The 1948 Upper 
Colorado River Basin Compact (1948 Compact) not only divides the water 
between the states, it also establishes the Upper Colorado River 
Commission (UCRC). The UCRC is composed of commissioners representing 
each Upper Division state of Colorado, New Mexico, Utah and Wyoming, 
and a commissioner representing the United States. The 1948 Compact 
contains provisions regarding the mandatory curtailment of Upper Basin 
water uses if necessary to comply with obligations under the 1922 
Compact. Most specifically, it contains provisions regarding 
curtailment to satisfy the Upper Basin's obligation not to deplete the 
flow of the Colorado River at Lee Ferry below 75 million acre-feet over 
a 10-year running average. The UCRC has the authority to make findings 
regarding the necessity for, the extent of, and the timing of 
curtailment. But the individual states determine how curtailment will 
be implemented within each state. While curtailment has never been 
necessary, diminishing Colorado River supplies have increased the risk 
the Upper Basin may need to curtail its uses in the future to satisfy 
its Compact obligation. And the risk of under- or over-curtailing is 
high.
    There is no water master in the Upper Basin. Water right holders in 
the Upper Basin, including the Bureau of Reclamation, obtain the right 
to store and use water in accordance with state law in each state. 
There are thousands of individual Colorado River system water right 
holders in the Upper Basin, as compared to the relatively few water 
contractors and entitlement holders of mainstream Colorado River water 
in the Lower Basin. As such, any reductions in use require the 
involvement of a large number of users. This makes curtailment, or 
implementing any other method of reducing demands in the Upper Basin, a 
complicated endeavor.
    The location of large reservoirs in relation to most Upper Basin 
water users is also different than in the Lower Basin. Reservoirs like 
Lake Powell lie downstream of water users. Therefore, any water 
conserved and stored in those large reservoirs cannot be called on 
later for use within the Upper Basin. Instead, that water becomes 
subject to the rules governing the coordinated operations of Lakes 
Powell and Mead and is ultimately released to the Lower Basin. If water 
conserved in the Upper Basin does not provide a benefit to the Upper 
Basin, there is little incentive to voluntarily conserve that water.
    Even though it lies below Upper Basin water users, Lake Powell is 
critical to developing and utilizing the Upper Basin's Colorado River 
apportionment. It acts as the Upper Basin's savings account by storing 
water in wet years to assure the Upper Basin can meet its compact 
obligations in dry years. With the continuing dry conditions, that 
savings account has become more depleted thereby increasing the risk 
that Upper Basin uses will need to be curtailed for compact compliance.
Intended Goals of the Upper Basin DCP
    The principle goal of the Upper Basin DCP is to help assure 
continued compliance with the 1922 Compact. It does so by protecting 
the critical elevations at Lake Powell. Protecting those elevations 
reduces the risk that the Upper Basin will fail to meet its compact 
obligations. Protecting Lake Powell elevations also reduces the risk 
that Upper Basin water users will see mandatory curtailment.
    The Upper Basin DCP is also intended to maintain the ability to 
generate hydropower at Glen Canyon Dam. If Lake Powell reaches critical 
elevations, it could lose the ability to generate hydropower or even 
release sufficient water to comply with the 1922 Compact. Losing the 
ability to generate hydropower could interrupt electrical service to 
power customers, including municipalities, cooperatives, irrigation 
districts, Federal and state agencies and Native American tribes, and 
the continued functioning of the western Interconnected Bulk Electric 
System that extends from Mexico to Canada and from California to Kansas 
and Nebraska. In addition to losing a large clean power supply and soft 
start capability for western grid that allows power to be safely 
restored after blackouts, revenues from hydropower fund many important 
purposes, including:

    <bullet> Repaying construction costs of Federal projects;

    <bullet> Continued operation and maintenance of the Initial Units 
            and participating projects authorized under the 1956 
            Colorado River Storage Project Act, as amended (``CRSPA'');

    <bullet> Continued funding and implementation of environmental and 
            other programs for compliance with the Endangered Species 
            Act, the National Environmental Policy Act, and Grand 
            Canyon protection legislation;

    <bullet> Mitigating salinity in the Colorado River and its impacts; 
            and

    <bullet> Funding water projects within each Upper Division state.

    Funding provided by hydropower generation not only provides these 
direct benefits, but also provides the Upper Basin the ability to 
develop and use it 1922 Compact apportionment. Without the benefits 
provided by hydropower funding, the ability for the Upper Basin to 
develop and use its compact apportionment faces increased risk.
    To achieve these goals, the Upper Basin DCP as presented to you for 
authorization consists of two agreements: The Drought Response 
Operations Agreement \1\ and the Demand Management Storage 
Agreement.\2\
---------------------------------------------------------------------------
    \1\ Entitled ``Agreement for Drought Response Operations at the 
Initial Units of the Colorado River Storage Project Act,'' and attached 
as Attachment A1 to the Agreement Concerning Colorado River Drought 
Contingency Management and Operations.
    \2\ Entitled ``Agreement Regarding Storage at Colorado River 
Storage Project Act Reservoirs Under an Upper Basin Demand Management 
Program,'' and attached as Attachment A2 to the Agreement Concerning 
Colorado River Drought Contingency Management and Operations.
---------------------------------------------------------------------------
Drought Response Operations Agreement
    The Drought Response Operations Agreement establishes a process to 
make operational adjustments or releases at the CRSPA Initial Units, 
within existing authorities, in order to help protect Lake Powell from 
reaching critical elevations. Essentially, it's a plan to move existing 
water supplies from where it is already stored to where it is needed.
    The Drought Response Operations Agreement applies to the CRSPA 
Initial Units. The CRSPA Initial Units are Glen Canyon Dam, Flaming 
Gorge Dam, Curecanti (the ``Aspinall Unit''), and Navajo Dam. The 
Agreement relies on available water supplies as needed to reduce the 
risk of Lake Powell dropping below the target elevation 3,525'. This 
target elevation appropriately balances the need to protect 
infrastructure, compact obligations, and operations at Glen Canyon Dam 
as storage approaches minimum power pool, with the Upper Division 
states' rights to put Colorado River System water to beneficial use.
    The Agreement establishes a process to develop a drought response 
operations plan. That process begins when forecasts project Lake Powell 
elevations will reach elevation 3,525' or below. The process includes 
outreach with stakeholders, as well as consultation with the Lower 
Division states. The Agreement ensures all CRSPA Initial Units are 
considered given water availability, hydrology, resource conditions, 
and operational limitations. Any plan will contain sufficient 
flexibility to begin, end, or adjust operations as needed based on 
actual hydrologic conditions. The Agreement further provides for 
emergency actions if actual hydrology or actual operating experience 
demonstrate an imminent need to protect the target elevation at Lake 
Powell. Any final drought response operations plan will be submitted to 
the Secretary for approval. Drought response operations will continue 
until the target elevation is no longer at risk, and end only after 
each CRSPA Initial Unit has recovered any storage released under a 
plan.
    Importantly, a drought response operations plan developed pursuant 
to the Agreement will comply with existing authorities. Project-
specific criteria govern the operation of each CRSPA Initial Unit, 
including applicable Records of Decision and Biological Opinions to 
satisfy the requirements of the National Environmental Policy Act and 
the Endangered Species Act, the authorized purposes for each facility, 
as well as state water right systems and decrees. The Agreement 
explicitly commits to operating the CRSPA Initial Units with the 
maximum flexibility practicable consistent with those existing 
authorities in both the release of water and the later recovery of 
storage.
    Drought response operations relying upon existing storage is a 
first line of defense to protect critical elevations at Lake Powell. 
But that existing storage is not infinite. If dry conditions persist or 
worsen, existing storage will diminish and the Upper Basin may need to 
reduce its uses to comply with the 1922 Compact and protect critical 
reservoir elevations. To avoid mandatory, dispassionate curtailment of 
existing uses, the Upper Basin is exploring the feasibility of a demand 
management program.
Demand Management Storage Agreement
    Upon congressional approval, the Demand Management Storage 
Agreement authorizes the Secretary to make unfilled storage capacity at 
the CRSPA Initial Units available for use by the Upper Division states, 
through the UCRC, at no charge. Such storage capacity is available 
provided that the UCRC requests use of the storage capacity for the 
purpose of storing water conserved as part of an Upper Basin demand 
management program. The storage authorization does not expire.
    By securing this storage authorization, the Upper Division states 
and the UCRC can effectively consider the feasibility of a demand 
management program. The storage authorization does not guarantee the 
development and implementation of a demand management program. Nor does 
it predetermine the type of any program that may be adopted in the 
future. However, without securing the authorization for storage 
capacity, investigation regarding the feasibility of such a program is 
likely unwarranted because any conserved water would be released to the 
Lower Basin under current operating rules.
    The purpose of an Upper Basin demand management program will be to 
temporarily reduce consumptive uses in the Upper Basin or augment 
supplies with imported water, if needed in times of drought, to help 
assure continued compliance with Article III of the 1922 Compact and 
without impairing the right to exercise existing Upper Basin water 
rights in the future. Like mandatory curtailment, any demand management 
program will be a state-based effort implemented under state law. The 
Upper Basin has learned through investigating aspects of demand 
management that no demand management program is likely to conserve 
enough water in any single year to help assure continued compliance 
with the 1922 Compact during extended drought conditions. Therefore, an 
Upper Basin demand management program will require the ability to store 
conserved water over multiple years.
    There are many outstanding issues that must be investigated before 
an Upper Basin demand management program can be established. Those 
issues include, among other things, determining transit losses that 
will occur by moving conserved water downstream to Lake Powell, 
securing sufficient demand management water volumes, measuring 
conserved consumptive use volumes, evaluating local impacts from non-
use, ensuring delivery of conserved consumptive use volumes to the 
CRSPA Initial Units without diminishment by downstream diverters, and 
developing the expertise and resources necessary to administer such a 
program. These issues, as well as others, are complicated by the fact 
that a demand management program must work in all four Upper Division 
states where differing water laws apply. Funding is another significant 
issue. Considerable funding will be necessary to compensate water users 
for their voluntary participation in the program for conserving 
consumptive uses. Securing Federal storage space is crucial because if 
additional funding is necessary to pay for the storage of any conserved 
water, the program is likely infeasible.
    In addition to authorizing storage, the Demand Management Storage 
Agreement sets forth the minimum framework under which the Upper 
Division states can access the authorized storage prior to 2026. If, 
after study, the UCRC determines that a demand management program is 
feasible, then it may develop and implement a program. A program can 
only be implemented if approved independently by each of the Upper 
Division states. The Upper Division states, through the UCRC, and the 
Secretary must enter into agreements on the methodology, process and 
documentation for verification and accounting for the creation, 
conveyance, and storage of conserved water. During the study and 
development of a program, and prior to entering any agreement, the UCRC 
and the Secretary must also consult with the Lower Division states.
    If a program is developed prior to 2026, upon verification of the 
conserved water in storage, the water will not be subject to release 
from Lake Powell through 2057 except upon the request of the UCRC for 
compact compliance purposes. The stored water cannot cause a different 
release than would otherwise occur under current operational rules. Any 
water stored must be water that would have been otherwise consumptively 
used but for conservation as part of a demand management program. The 
Agreement provides a maximum combined storage limitation of 500,000 
acre feet and subjects the stored water to its proportionate share of 
evaporation losses. The stored water will be reduced by a physical 
spill from Glen Canyon Dam and will be subject to annual verification 
and reporting. After 2026, any demand management program will be 
informed by and considered as part of the renegotiation of the current 
operating rules.
                               conclusion
    The Colorado River Basin needs the DCPs implemented now. The plans 
were developed through years of collaboration, compromise and 
consensus, and function within rigorous environmental analysis, review 
and permitting processes that have already been completed. They will 
enhance existing water management tools and will address the looming 
water crisis in the near term. The plans require the passage of Federal 
legislation to become effective. We request your support in adopting 
the legislation as soon as possible so that the plans can be 
implemented this year.

    Thank you for the opportunity to testify here today. I am happy to 
answer any questions you may have.

                                 ______
                                 

    Mr. Huffman. All right. I want to thank the witnesses. I 
will now begin questions from Members.
    Mr. Stanton, you are recognized for 5 minutes.
    Mr. Stanton. Thank you very much. Mr. Chair, it is going to 
take a lot of great leadership to get this over the finish 
line. The Director from Arizona--or the Director of Water 
Resources, Tom Buschatzke--has done an incredible job bringing 
greatly diverse interests within the state of Arizona to get to 
this point. A great accomplishment.
    Our leader, our dean of our delegation, the Chair of the 
Natural Resources Committee, Chairman Grijalva, who is going to 
get it over the finish line here within this body, within 
Congress, and he has brought together, obviously in a 
bipartisan way, all of Arizona leaders in this body are here in 
support, and then tribal leadership. Tribal leadership has been 
critically important to get the DCP to the point where it has. 
Governor Stephen Roe Lewis is here representing the Gila River 
Indian Community, and other tribal leaders are here in this 
room.
    And, Director Buschatzke, I want to first ask you that 
question about tribal leadership. How are the tribes in Arizona 
impacted by the DCP? And maybe describe the role that our 
tribal leadership has played in developing the Arizona DCP 
implementation plan.
    Mr. Buschatzke. Thank you, Representative Stanton. First, 
the tribes in Arizona are impacted differently, depending on 
what tribe they are. The Gila River Indian Community has a 
priority of water that will be largely impacted by the Drought 
Contingency Plan, that tribe and nine cities within the state 
of Arizona. But the community will take 50 percent of the hits 
in that pool of water when those cuts reach that level, 
pursuant to the interstate DCP.
    So, to help mitigate some of those impacts, we did create a 
steering committee in the state of Arizona with 35 or so 
members. The Tohono O'odham Nation, the Gila River Indian 
Community, and the Colorado Indian Tribes were directly 
represented on that steering committee that put together the 
inter-Arizona plan. Again, that plan involved lots of sacrifice 
for folks, but it also involved some amount of mitigation for 
those who were being impacted.
    In terms of the other tribes in Arizona, when we put the 
steering committee together, the Bureau of Reclamation was one 
of the members, along with--I already mentioned in my 
statement--many of the members of the Committee as well. But 
the Bureau of Reclamation worked with us to make sure they did 
outreach to the other tribes in Arizona and held regular 
meetings in and around the steering committee meetings to get 
their feedback, to bring that feedback forth to the steering 
committee. So, we had a very robust process. All of our 
steering committee meetings were open to the public. They were 
very well attended, and I think we came up with a really good 
plan in Arizona to deal with the impacts of the Drought 
Contingency Plan.
    Mr. Stanton. I appreciate that very much. And I think all 
of us in Arizona owe another debt of gratitude to our tribal 
communities, our tribal leaders for willing to be such leaders 
in this effort and to be team players in the sacrifice for the 
greater good of the people of Arizona.
    This is a short-term plan. It is a good plan, it is a solid 
plan, and it deserves our support, but it is not intended to be 
a long-term plan. And we in Congress should be thinking long 
term. So, Director Buschatzke, the second question I have is, 
what is next? What do you see as the next challenge or set of 
challenges on the river, and how can we in Congress be helpful 
to tackling it together?
    Mr. Buschatzke. Representative Stanton, we do recognize 
that this is a bridge, a bridge that will give us a safe haven 
as we move forward to renegotiate the 2007 Guidelines which 
expire at the end of 2026, as does the Drought Contingency 
Plan.
    In our inter-Arizona discussions, we recognize that bridge, 
and in our plan, within Arizona, in the last 3 years of the 
plan, the mitigation reduces from 75 percent to 50 percent to 
zero percent in 2026. We did that to send a strong message that 
this is indeed a temporary plan, that we face a drier future, 
and that we need to address longer term issues, and I think the 
venue to do that will be through the renegotiation of the 2007 
Guidelines. And it remains to be seen what legislative package 
we might need out of Congress as a result of those 
negotiations.
    Mr. Stanton. All right. Thank you very much, Director.
    I should note, he may have kept it off his resume when he 
applied for the job with the Governor's Office--or the Director 
for the State, but he was the Water Planning Director for the 
city of Phoenix before. We trained him well.
    It is great to see you have gone on to bigger things. Thank 
you for your leadership.
    I yield back.
    Mr. Huffman. The Phoenix Water Director has risen, is what 
you are saying? Sorry for that.
    Mr. Biggs, you are recognized for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman, and I thank the Ranking 
Member for letting me be here. And it is good to see that the 
Arizona contingency is here. I mean, you could get a feel for 
how important this is by having so many Arizona congressional 
officials here today.
    I thank the Arizona Department of Water Resources Director, 
Tom Buschatzke. Thank you for being here, and all the leaders 
from the seven Colorado River Basin states for your leadership 
in this. This really is a states-driven issue to resolve, and 
we are grateful for your leadership and your participation.
    And I give a special welcome to Governor Lewis and Council 
Member Enos from the Gila River Indian Tribe in Arizona, who 
have also showed tremendous leadership on this issue. And just 
to say, it looks like Director Buschatzke was able to overcome 
having to work with the leadership in Phoenix to get here 
today.
    Mr. Stanton. Tough crowd.
    Mr. Biggs. A tough crowd, yes. Love to former Phoenix 
mayor, Greg Stanton, over there.
    Arizona is in the 21st year of a long-term drought. 
However, Arizona has been able to sustain itself through this 
drought through implementation of successful conservation 
programs and robust collaboration between tribal, community, 
industry, and government leaders.
    My district is home to cities like Mesa, Chandler, Gilbert, 
and Queen Creek, who receive much of its water supply from the 
Central Arizona Project, which receives its water, of course, 
from the Colorado River. In Arizona, we understand water 
conservation and have been leaders on this internationally as 
well as in this country. We have been able to build a powerful 
state economy in the desert because our state and its 
municipalities, its tribes, its counties, have successfully 
planned for drought and water contingencies.
    Sustainability in the Colorado River is critical to 
maintaining Arizona's rapid growth and its strong agricultural 
economy. This DCP will provide certainty to Arizonans as to 
what their water security will look like for future generations 
and, indeed, for the entire Colorado River Basin states. And I 
am grateful, again, for your leadership.
    Director Buschatzke, what are other outstanding regulatory 
issues or concerns that are pending regarding the Drought 
Contingency Plan?
    Mr. Buschatzke. Representative Biggs, in our internal 
Arizona plan, we are heavily reliant upon the ability to more 
intentionally create surplus in Lake Mead. The Gila River 
Indian Community will put 215,000 acre-feet of their water into 
the Intentionally Created Surplus Program. We need this 
legislation passed to incentivize them to do that so their 
water might not be stranded.
    In the agricultural sector, within the Central Arizona 
Project service area, they will be losing all of their Colorado 
River water probably after the third year of the plan. They 
will go back to pumping groundwater, a right they received 
under the 1980 Groundwater Management Act, and a right they 
maintained.
    We are working with them, as others are working with them, 
through the Department of Agriculture, to look for potential 
opportunities to get some funding from that organization, 
matching local funding from the state, the Central Arizona 
Project, and the farmers themselves, to help facilitate that 
transition to groundwater. Those are a couple of the items that 
we see are very important.
    Mr. Biggs. Can you also walk us through how the DCP fits 
within the multi-species conservation program and EIS for the 
2007 Guidelines?
    Mr. Buschatzke. Representative Biggs, again, as we 
negotiated the Drought Contingency Plan between the states, we 
looked for flexibility with existing compliance under the 
Environmental Impact Statement. One of the areas that that 
flexibility arose was the ability for each of the three states 
in the Lower Basin to increase their cumulative capacity to 
intentionally create surplus in the lake. So, Arizona is going 
from 300,000 acre-feet of capacity to 600,000 acre-feet, 
helping to facilitate a tribal Intentionally Created Surplus 
Program within our state. We knew that had been analyzed, that 
volume. The total volume had been analyzed in the EIS, and so 
we were comfortable that we were covered in that regard.
    On the Endangered Species Act side, we knew that in the 
Multi-Species Conservation 50-Year Plan there were adaptive 
management components that would allow us to cover any of the 
impacts that might occur from the Drought Contingency Plan. And 
while they are still working through the details of what that 
might mean, I am aware that perhaps about 12 acres of backwater 
habitat and about 15 acres of marsh habitat, additionally, 
might need to be created at a cost of about $1 million, all 
coming within the confines of the existing and the MSCP plan 
that is put together through all three states, not just 
Arizona.
    Mr. Biggs. Thank you, Director.
    And thank you for letting an encroacher take a few minutes. 
Thank you, Mr. Chairman.
    Mr. Huffman. Come and see us any time, Mr. Biggs.
    We will now go to the Chairman of the Natural Resources 
Committee, the gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Chairman. And I think my 
colleague, Mr. Biggs, is correct, this is a rare moment, this 
bipartisanship that has broken out in the state of Arizona, 
here in Congress, and it is a welcome sight, and we hope we can 
see more of that in the future.
    I just want to briefly say, and I think the Director said 
this very well yesterday when we met and he repeated again, 
that this plan provides a safe haven for the Basin states and 
for the stakeholders, that it is, indeed, an interim step 
toward something that is going to require the continued work of 
all the participants, the continued work of Congress, for 
deeper and more meaningful assurances going forward.
    And business as usual is not going to be business as usual, 
and the empirical analysis that went into this plan is very, 
very important. And the climate analysis and the projections 
that must be part of the future planning are going to be very, 
very critical. So, I think it is important--2026 is not that 
far away, so the work, we finish this and then suddenly we find 
ourselves back. And assured water just can't be a little box we 
check off. It has to be, indeed, by definition assured. I think 
that is what makes development in our respective states so 
important.
    Also, I think that there is a public health aspect to it as 
well, there is a jobs aspect to it as well, and there is an 
environmental aspect to it as well. And all of us, all these 
states that are part of this plan are blessed with having 
growing economies in many cases, but also blessed with some 
environmental jewels that are rare and only found in this area. 
And I think that that can be balanced, but the work ahead--and 
I do want to congratulate everyone, Mr. Huffman, for the work 
put in, and the urgency that you brought to the discussion. And 
certainly, in all the meetings that I have had with respective 
stakeholders that have come in, that urgency has been there.
    And the concept of a safe haven for now, relieve pressure, 
and plan for the future, I think is well put, Director, and I 
think that should be, at least for myself, the working phrase 
that I am going to use. We bought some time. And what we do 
with the time we have till 2026 is going to be very, very 
critical.
    Thank you, Mr. Huffman, as I said before, for expediting 
this hearing, and I look forward to working with you on how we 
can move it through Committee and Floor in the very near 
future. Thank you, sir.
    Mr. Huffman. Thank you, Mr. Chairman.
    The Chair now recognizes the Ranking Member for 5 minutes.
    Mr. McClintock. Thank you, Mr. Chairman.
    I do have to marvel at a remarkable achievement. In all my 
years, I have not found a more controversial issue than water, 
and certainly, there is no more politically diverse group of 
states than represented before the Committee today. I don't 
know how you came to agreement on this, but I can only stand in 
awe of the fact that you did.
    My question is, what happens if Congress starts tinkering 
with your work, how fast does it begin to unravel? Mr. Tyrrell, 
maybe as a departing or soon-to-retire member, you can give us 
some insight into that.
    Mr. Tyrrell. Thank you. Mr. Chairman, Representative 
McClintock, we would hope that that wouldn't happen, obviously, 
because those words were pretty carefully crafted, but we 
understand it can. I think what would happen is we would take 
the words home and look and see--we still need to execute the 
DCP documents after legislation is completed. We would go home 
with that as our next task, look at that language, and then 
make the decision, go or no go, at that point, or come back. 
But I would hope we would be moving down the road.
    Mr. McClintock. It appears to me at the moment you have 
seven states all in agreement on this plan.
    Mr. Tyrrell. Yes.
    Mr. McClintock. And it would appear to me that any changes 
that Congress made in this plan would then basically complicate 
matters enormously as you go back to your various states and 
digest those changes?
    Mr. Tyrrell. Absolutely.
    Mr. McClintock. And is time of the essence on this? I guess 
we don't know. It could be?
    Mr. Tyrrell. Mr. McClintock, Mr. Ranking Member, yes, it 
is. I believe time is of the essence. I think certainly, in our 
view, we know that the water year this year looks good, but as 
Commissioner Burman showed, one good year does not solve a 19-
year drought. If we want to avail ourselves of the commitments 
and contributions of Mexico by the time the August 24-month 
study comes out, we need action by the end of April, is what we 
are looking at.
    Mr. McClintock. Mr. Nelson, I need to ask a politically 
incorrect question that has been nagging at me. We keep hearing 
about the Imperial Irrigation District and the importance of 
the Salton Sea. My recollection is the Salton Sea was a 
terrible accident that occurred in 1905. In millennialese, WTF? 
Why are we obsessing on it?
    Mr. Nelson. You are absolutely correct, Mr. McClintock, 
that the Salton Sea was created in 1905, when the California 
Development Company was working on a diversion of the Colorado 
River for irrigation purposes in the Southwest. That dam, their 
berm broke, and the water, for 2 years, poured into the Salton 
Sink, which is the basin that the agricultural drain water and 
floodwaters of the Coachella and Imperial Valleys go to.
    Mr. McClintock. Does it hold any significant economic or 
environmental importance, other than the fact it is just there 
by accident?
    Mr. Nelson. Yes, when you look at the long-term history, in 
other words, longer than a hundred years, you find that the 
Colorado River actually drained into the Sea of Cortez, or when 
it was silted up by the Arizonans sending over their sand to 
California, that it would berm up and the water would slow 
down. And the water would actually change course and move into 
the ancient Lake Cahuilla. And you can see those marks on the 
mountain sides in the Coachella Valley and just how high those 
lake levels were.
    So, in other words, in ancient history, the Coachella 
Valley was a part of the delta. This water feature is vitally 
important to the Pacific Flyway. It is important to the 
community in terms of the agricultural community has used it--
--
    Mr. McClintock. Well, it was important in ancient times, 
and it has become important because we accidentally re-created 
it in modern times. But in the grand scheme of things, I still 
don't understand its importance, but we can probably do another 
whole hearing on that.
    Mr. Nelson. OK. Yes, sir.
    Mr. McClintock. Mr. Millis, one more quick question. Pulse 
flows out of Glen Canyon. There was a great deal of fuss about 
that a few years ago, doing those pulse flows, bypassing the 
turbines, losing the hydroelectricity. Are we still doing that?
    Mr. Millis. I believe you are talking about the high-flow 
experiments that are occurring about annually, and there is 
benefit, there is interest in the science involved with that, 
and so those continue.
    Mr. Huffman. All right. The Chair now recognizes the 
gentleman from Colorado, Mr. Neguse. Mr. Neguse, before you got 
here, we had every member from the Arizona delegation, and they 
actually made a motion and changed the name of the river to the 
Arizona River.
    Mr. Neguse. I suspected that might happen.
    Mr. Huffman. But you get the last word on this.
    Mr. Neguse. I appreciate that, Mr. Chairman. And thank you 
for hosting this important hearing.
    The Colorado River Drought Contingency Plan is obviously an 
important proposal that needs to be discussed, not only for my 
home state of Colorado, the other six Basin states, but also 
for the country. I also want to thank the witnesses for 
appearing today and for their testimony, in particular, of my 
friend and former colleague, Mr. Eklund, whom we served 
together in the Governor's cabinet many years ago. It is good 
to see you.
    Drought is a problem that impacts every state and every 
district in the country, but it is especially magnified in the 
western United States. That is why it is critical that Congress 
discuss this plan and ensure that the health and long-term 
sustainability of the river is preserved.
    Water is, of course, the lifeblood of Colorado. To the 
Chairman's point, we are the head water state, because water 
that starts as snow in our mountains finds its way to 18 
downstream states, as well as numerous American Indian tribes, 
two oceans, and the Republic of Mexico. So, I am certainly 
excited to be speaking with folks on this panel about an issue 
that impacts so many communities in the West, and in my home 
state in particular.
    I want to thank, as I said, the witnesses with respect to 
their service. Obviously, there are a lot of vested interests, 
a lot of stakeholders, not just the state governmental entities 
and authorities, but also numerous conservationists, 
environmental organizations, and so forth. One organization in 
my district, Save the Colorado, led by Dr. Gary Wockner, has 
raised some questions regarding the Drought Contingency Plan, 
so I want to focus on a few that I think are worth meriting 
discussion here.
    The first is, Mr. Eklund, or for any of the witnesses who 
care to comment, in trying to understand with respect to the 
Drought Contingency Plan what prior acts of Congress and 
potentially other permitting processes--so Environmental Impact 
Statements, Records of Decision--does the Drought Contingency 
Plan or would the Drought Contingency Plan supersede to the 
extent it were approved by the Congress? In particular, I think 
folks are interested to know whether or not it would impact the 
Record of Decision with respect to the Glen Canyon Dam long-
term experimental and management plan EIS.
    Mr. Eklund. Thank you, Congressman. I can answer that 
bluntly, it doesn't impact us. And importantly, the tools we 
are talking about in the DCP operate within the framework of 
and comply with existing environmental laws, including the 
Records of Decision and Biological Opinions that were formed 
under NEPA and the ESA.
    Mr. Neguse. Thank you, Mr. Eklund, for that clarification. 
And the second question, as I understand it, the Bureau of 
Reclamation's 2012 Colorado River Basin study indicates that 
climate change could lead to a decrease of up to 7.4 million 
acre-feet of water per year flowing in the Colorado River. The 
Drought Contingency Plan obviously attempts to offer some 
solutions with respect to this issue. But as I understand it, 
the plan estimates about 1 million acre-feet in the Lower 
Basin, that that is sort of what it would deliver, in addition 
to water that is essentially purchased from farms and 
agricultural interests in the Upper Basin.
    I am curious if you can perhaps share more around the 
conversations and negotiations that happened between the 
respective states around whether there are potentially other 
comprehensive solutions that could address that delta. Because 
it is a large delta, and I know it is something that we all, I 
suspect, collectively want to address and would just welcome 
your answer, Mr. Eklund, as well as anyone else on the panel.
    Mr. Eklund. I will field the first and then yield to the 
colleagues up here at the dais. I believe we started out on 
this journey to address the situation on the river as a result 
of the really catastrophic situation we saw in the period from 
2002 to 2004. We asked the Bureau of Reclamation to model the 
two reservoirs, Powell and Mead, and tell us what would happen 
if the next 10-year period of record looked like the last 10-
year period, and tell us what the results were. And what they 
told us was that there was a significant downturn, that we 
would have to deal with shortages in the Lower Basin, and, of 
course, in the Upper Basin, the compromising of our bucket, if 
you will, the Lake Powell.
    Those were the two issues that were very apparent to us. 
So, we went ahead and started the discussions in the Lower 
Basin. They talk about what they can do at Lake Mead to make 
sure that the system is stable and hopefully more resilient. In 
the Upper Basin, we are doing the same thing with the elevation 
of Lake Powell. It is less about trying to control something we 
know we can't and more about trying to maintain those 
reservoirs and operate them in a manner that gets the most out 
of them.
    Mr. Neguse. I see my time has expired. If the Chair would 
indulge me, I would say, thank you, Mr. Eklund for that answer. 
And as we move forward, again, I appreciate this hearing giving 
us, the Committee, an opportunity to engage on this issue 
before the legislation comes before us for our consideration, 
and would just encourage you all, as you continue to have a 
multitude of conversations and negotiations in the years to 
come, to continue to engage conservationists and different 
stakeholders in the broader sense, because that delta is very 
large, just according to the Bureau of Reclamation's own data, 
and it is something that is incredibly important, obviously, to 
the future of the western United States and of my home state of 
Colorado. So, engaging groups like Save the Colorado and many 
others I think would be an important part of your work.
    With that, I would yield back.
    Mr. Huffman. All right. Thank you, Mr. Neguse.
    I want to thank all of the witnesses and everyone else who 
has joined us here today. This has been a very helpful hearing 
to spotlight the importance of the DCP for the American 
Southwest. I think you have heard from Members of both sides of 
the aisle that we appreciate the great hard work you have done 
to get us this far, and now the work moves to Members of 
Congress to do our part in moving this forward. So, thank you 
for your testimony.
    Members of the Committee may have additional questions for 
the witnesses. Under Committee Rule 3(o), we will ask that you 
respond to those in writing. Members of the Committee must 
submit witness questions within 3 business days following the 
hearing and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, this Committee stands 
adjourned. Thank you.

    [Whereupon, at 12:33 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submissions for the Record by Rep. Huffman

                                                      April 1, 2019

    Dear Members of Congress:

    We write today in strong support of the seven Colorado River Basin 
States Drought Contingency Plans (DCP). We support the ongoing work of 
the states as well as the federal ``Colorado River Drought Contingency 
Plan Authorization Act'' required to execute and implement those plans, 
which we understand will be introduced soon.

    The DCPs are intended to incentivize water conservation while 
protecting existing water rights, recognizing the values of the Basin's 
agricultural communities and respecting the need to protect its 
environmental resources. We appreciate that the DCPs establish 
processes that build on existing federal NEPA and ESA decisions.

    From the headwaters to the Salton Sea and the delta, our groups 
have worked over the past two decades with the U.S. Bureau of 
Reclamation, the seven Colorado River Basin states, and water providers 
and users throughout the Basin to find solutions that work for both 
people and nature. We believe the states are close to a final agreement 
and we steadfastly support their actions. Once the states finalize the 
DCPs, we will continue our efforts during DCP implementation, as we 
also work with all parties to improve conditions at the Salton Sea and 
across the basin.

    The Colorado River provides water to approximately 40 million 
people and 5.5 million acres of irrigated agriculture in the Upper 
Basin (Colorado, New Mexico, Utah and Wyoming) and the Lower Basin 
(Arizona, California and Nevada), as well as in Mexico. Since 2000, the 
Basin has experienced historically dry conditions and combined storage 
in Lakes Powell and Mead has reached its lowest level since Lake Powell 
initially began filling in the 1960s. Lakes Powell and Mead could reach 
critically low levels as early as 2021 if conditions do not 
significantly improve. Declining reservoirs threaten water supplies 
that are essential to the economy, environment, and health of the 
Southwestern United States.

    Now is the time we all must work together for the sake of the 
future of the Basin. Therefore, it is critical that we support the 
goals of the DCP agreements in both basins and urge your support for 
these agreements through the ``Colorado River Drought Contingency Plan 
Authorization Act.'' We look forward to working with the states, the 
administration and the Congress on implementation of these historic 
agreements.

            Sincerely,

        Matt Rice,                    Kevin Moran,
        American Rivers               Environmental Defense Fund

        Julie Hill-Gabriel,           Taylor Hawes,
        National Audubon Society      The Nature Conservancy

        Melinda Kassen,               Steve Moyer,
        Theodore Roosevelt 
        Conservation Partnership      Trout Unlimited

        Bart Miller,
        Western Resource Advocates
                        Statement for the Record
         Supporting the Colorado River Drought Contingency Plan
    The undersigned organizations work for the protection and 
restoration of the Colorado River Basin. Over the past two decades, we 
have devoted considerable effort to working with the U.S. Bureau of 
Reclamation, the seven Colorado River Basin states, Mexico, and water 
providers and users throughout the Basin to find solutions that work 
for both people and nature. To advance the conservation of Colorado 
River water, we support the Drought Contingency Plan agreements that 
have been reached between the seven Colorado River Basin states.
    The Colorado River provides water to approximately 40 million 
people and 5.5 million acres of irrigated agriculture in the Upper 
Basin (Colorado, New Mexico, Utah and Wyoming) and the Lower Basin 
(Arizona, California and Nevada), along with Mexico. Since 2000, the 
Basin has experienced historically dry conditions and combined storage 
in Lakes Powell and Mead has reached its lowest level since Lake Powell 
initially began filling in the 1960s. Lakes Powell and Mead could reach 
critically low levels as early as 2021 if conditions do not 
significantly improve and one good snow year does not reverse the 
trend. We are concerned that if the DCPs are not adopted and 
implemented, the entire region risks a crisis that will impact 
communities, farms, industries, wildlife, recreational economies and 
the health of our rivers.

    We support the goals of the Drought Contingency Plan (``DCP'') 
agreements in both basins:

    <bullet> The Upper Basin DCP is designed to: a) protect critical 
            elevations at Lake Powell and help assure continued 
            compliance with the 1922 Colorado River Compact, and b) 
            authorize storage of conserved water in the Upper Basin 
            that could help establish the foundation for a Demand 
            Management Program that may be developed in the future.

    <bullet> The Lower Basin DCP is designed to: a) require Arizona, 
            California and Nevada to contribute additional water to 
            Lake Mead storage at predetermined elevations, and b) 
            create additional flexibility to incentivize additional 
            voluntary conservation of water to be stored in Lake Mead.

    The DCPs provide additional water supply security to all Colorado 
River water users, including in Mexico, through 2026. They run in 
parallel with the 2007 Interim Guidelines for the Coordinated 
Operations of Lake Mead and Lake Powell and for Lower Basin Shortages 
and will serve as a crucial bridge to achieving new operational 
guidelines for the future. The DCPs have been coordinated with Mexico 
and tie into the binational water scarcity provisions in Minute 323. 
The binational provisions provide certainty with respect to how 
shortages will be allocated to Mexico and ensure that Minute 323, 
including its important environmental components, can continue without 
conflict associated with competing interpretations of the 1944 Treaty.
    We appreciate the many years of work that the Basin States have put 
into the development of their DCP agreements and proposed federal 
legislation. Their effort demonstrates the true value of bi-partisan, 
multi-interest collaboration. The result should benefit users and 
rivers across Basin.
    The DCP agreements and supporting legislation supplement the 
underlying provisions of the ``Law of the River'', and should not grant 
the Secretary of Interior any additional authority or avoid 
environmental compliance related to future implementation of the DCPs. 
The agreements will allow the states and the Department of the Interior 
to continue the tradition over the past 20 years of developing 
innovative water management solutions to address the changing climate. 
As conservation and sportsmen's organizations, we appreciate and 
understand the DCP agreements keep existing federal and state 
environmental laws and policies intact. The existing water storage and 
conservation agreements in the Lower Basin have been successful in 
preserving over 20 feet of elevation in Lake Mead and have prevented a 
Lower Basin shortage so far, but the DCPs demonstrate the collective 
judgment of the Basin States and the Department of the Interior that 
more needs to be done now to ensure benefits can be achieved starting 
in 2020 and beyond.

        Federal Legislation is an Important Element of the DCPs

    As noted in the Basin States March 19, 2019 letter to Congress, 
Federal legislation is necessary to secure full implementation of the 
DCP agreements and to ensure that all the participating states and the 
Department of the Interior will comply with the terms of the 
agreements.
    Given the urgent need for action, we concur with the Basin States' 
request that Congress adopt federal legislation as soon as possible, so 
that the parties can begin to implement their drought contingency 
planning.

                          Upper Basin Benefits

    The Upper Basin DCP agreements have the potential to provide 
significant benefits and protections for the environment while also 
reducing water security risk, and we look forward to continuing to work 
cooperatively with the Upper Division States, the Upper Colorado River 
Commission, and Bureau of Reclamation to develop tools to implement the 
provisions of the Upper Basin plans. One goal of the Upper Basin 
Drought Response Operations Agreement, part of the Upper Basin DCP, is: 
``Continued funding and implementation of environmental and other 
programs that are beneficial to the Colorado River system.'' The 
Agreement establishes a Framework ``developed in recognition of, and 
consistent with, the law and practice relevant to the Upper Basin.'' It 
provides explicitly that drought operations involving release of water 
from CRSPA reservoirs to maintain levels in Lake Powell will continue 
according to their Records of Decision, Biological Opinions and other 
provisions already reviewed under the National Environmental Policy Act 
and the Endangered Species Act, as well as provisions of state water 
right systems.\1\ It also provides that nothing in the Agreement 
affects state's rights and powers to regulate, appropriate, use and 
control Colorado River allocations.\2\ The agreement requires that 
Drought Operations plans consider the ``timing, duration and magnitude 
of releases to help minimize, the extent possible, impacts to natural 
resource conditions.'' \3\ Finally, it provides that nothing in the 
Agreement ``alters rights, obligations and authorities of the parties 
[states and the Secretary of Interior]'' and that nothing in the 
Agreement ``affects or shall be interpreted to affect the obligations 
that each Party may have related to natural resources around the CRSPA 
Initial Units under applicable law.''
---------------------------------------------------------------------------
    \1\ Upper Basin Drought Response Operations Agreement, Sections 
I(c)(2); and II(A)(3)(b); II(A)(4)(b)(ii).
    \2\ Id., Section I (c)(4).
    \3\ Id., Section II(A)(3)(f).
---------------------------------------------------------------------------
    The Upper Basin DCP enables storage in Lake Powell to help avoid 
involuntary compact curtailment. Involuntary curtailment would almost 
certainly trigger extensive litigation and could also mean drastic 
water use reductions in places and at times that could have an adverse 
effect on stream flows. Dry-up of farmland and ranchland caused by 
involuntary curtailment may also have significant adverse effects in 
many locations in the Upper Basin. More generally, involuntary 
curtailment would divert federal and state limited resources away from 
projects and policies that meet the needs of both water users and the 
environment.
    Maintaining levels in Lake Powell sufficient for hydropower 
generation helps ensure the continuation of a critical revenue stream 
that has traditionally supported efforts to reduce salinity and 
selenium levels in the Colorado River system, repayment of federal 
water projects for farmers and communities, and irrigation 
infrastructure improvements that, properly designed, can benefit both 
irrigators and stream flows.

                          Lower Basin Benefits

    In the Lower Basin, the DCP agreements are designed to supplement 
the 2007 Interim Guidelines to protect Lake Mead from falling to 
elevations that would jeopardize water deliveries by requiring 
additional proactive water conservation measures and incentivizing 
storage of additional water in Lake Mead through the Intentionally 
Created Surplus program, which has already facilitated over 2 million 
acre-feet of storage. The LB DCPs will ensure that the Lower Basin 
States, water agencies, NGOs and Tribes can continue to successfully 
implement the Lower Basin Multi-Species Conservation Program along with 
other important programs in the Lower Basin. Like the Upper Basin 
agreements, the Lower Basin agreements will be interpreted, governed 
by, and construed under applicable federal law.\4\
---------------------------------------------------------------------------
    \4\ Lower Basin Drought Contingency Plan Agreement, Section 5.g.; 
Upper Basin Demand Management Storage Agreement, Section III.D.6; Upper 
Basin Drought Response Operations Agreement, Section II.B.10.
---------------------------------------------------------------------------
Arizona:
    We commend the progress achieved within Arizona to obtain the 
necessary support from the Arizona Legislature to authorize the 
Director of the Department of Water Resources to execute the DCPs. Our 
groups appreciated the ability to have participated in the State of 
Arizona's DCP Steering Committee process through the Water for Arizona 
Coalition and to have been an integral part of the DCP solutions. 
Arizona's DCP Implementation Plan will have a net positive benefit to 
the system and we stand ready to continue to ensure the DCP measures 
will be a success through the following examples:

    <bullet> The DCP avoids drastic shortages which would put increased 
            stress on aquifers in Central Arizona. Groundwater pumping 
            within Arizona's Active Management Areas, even with the DCP 
            in place, will continue to be regulated under Arizona law 
            and in accordance with any necessary environmental 
            requirements.

    <bullet> Arizona's DCP implementation plan allocates water 
            reductions within Arizona to ensure more water is being 
            left in Lake Mead and that groundwater resources are not 
            unreasonably utilized.

    <bullet> The DCP provides system conservation program incentives 
            for additional water conservation, which will be needed to 
            resolve system imbalance. System conservation agreements 
            will be an important component of ensuring Lake Mead 
            elevations will be protected.

    <bullet> The DCP establishes an ongoing and collaborative process 
            to ensure Lake Mead elevations are always protected.
California:
    The LB DCP allows California's Colorado River contractors to 
maintain their existing stored water in Lake Mead and establishes rules 
for an orderly withdrawal of water from Lake Mead, with a net benefit 
to Lake Mead. Flexibility and access to water within the Colorado River 
Basin decreases reliance on water for southern California from northern 
California.
    According to the agencies within California, the Lower Basin DCP 
can be implemented within California without any adverse impacts to the 
Salton Sea, or the environment in general. Through a letter dated March 
9, 2019 the State of California Natural Resources Department committed 
to ensuring that progress can move forward with projects at the Salton 
Sea, and urged completion of the DCPs. We commend the March 8, 2019 
commitment of the Department of the Interior to continue to work with 
the State of California, California's Colorado River contractors and US 
Department of Agriculture on measures to address habitat and dust 
control concerns at the Salton Sea. We will continue to advocate for 
swift action to complete more habitat and dust control projects and 
obtain compliance with the State Water Resources Control Board's 
November 7, 2017 Stipulated Order on Long Term Management of the Salton 
Sea.

                               Conclusion

    We appreciate the Congressional support necessary to advance the 
proposed DCP federal legislation and request your prompt action in this 
critical effort. Although additional agreements to build upon the DCPs 
and the 2007 Interim Guidelines will be necessary to ensure continued 
stability and resilience in the Basin beyond 2026, implementation of 
the DCPs this spring will ensure there will be an opportunity to 
develop those additional agreements with a reduced level of conflict 
and growing level of operational knowledge.
    Please accept this statement for the record for your hearings later 
this week. Thank you in advance for your work on this important issue.

        American Rivers               Environmental Defense Fund

        National Audubon Society      The Nature Conservancy

        Theodore Roosevelt 
        Conservation Partnership      Trout Unlimited

        Western Resource Advocates
     ACWA--Association of California Water Agencies
                                     Sacramento, California

                                                     March 27, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
Natural Resources Committee,
U.S. House of Representatives

Hon. Martha McSally, Chair,
Hon. Catherine Cortez Masto, Ranking Member,
Subcommittee on Water & Power,
Energy & Natural Resources Committee,
U.S. Senate

    Dear Chairs and Ranking Members:

    The Association of California Water Agencies (ACWA) would like to 
associate itself with the March 19th letter of the seven States of the 
Colorado River Basin (Basin States) regarding the importance of 
Congress quickly passing legislation directing the Secretary of the 
Interior (Secretary) to implement the drought contingency plans (DCPs) 
as agreed to by the Basin States.
    ACWA is the largest statewide coalition of public water agencies in 
the country. ACWA's mission is to assist its 450 members in promoting 
the development, management and reasonable beneficial use of good 
quality water at the lowest practical cost in an environmentally 
balanced manner.
    During the past eighteen years, western drought conditions have 
worsened and new measures are needed to protect water supplies for the 
40 million people throughout the Colorado River Basin who rely on this 
vital source of water. With swift congressional action to help 
implement the DCPs this year, the DCPs will:

    <bullet> Provide operational certainty regarding Intentionally 
            Created Surplus (ICS) conserved water supplies if Lake Mead 
            declines below elevation 1,075 feet;

    <bullet> Reduce the risk of Lake Mead dropping below the critical 
            elevation of 1,020 feet from over forty percent without the 
            DCP to about five percent with implementation of the DCP; 
            and

    <bullet> Incentivize the conservation and storage of water in Lake 
            Mead this year with the assurance of greater flexibility in 
            storage and recovery of ICS supplies.

    ACWA recognizes as of this date, the DCPs will be implemented 
without the Imperial Irrigation District's (IID) participation. ACWA is 
pleased the state of California has recently acknowledged concerns 
expressed regarding Salton Sea management and restoration related 
issues and encourages all interested parties to move forward with plans 
and funding to address these concerns. ACWA strongly supports efforts 
to restore the Salton Sea.
    Thank you for your leadership on the DCPs which ACWA views as a 
critically important western water issue. Sincerely,

            Sincerely,

                                             Dave Eggerton,
                                                Executive Director.

                                 ______
                                 

                     BUSINESS FOR WATER STEWARDSHIP

                                                     March 26, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
House Committee on Natural Resources

Hon. Martha McSally, Chair,
Hon. Catherine Cortez Masto, Ranking Member,
Subcommittee on Water & Power,
Senate Committee on Energy & Natural Resources

Re: Drought Contingency Plans in the Colorado River Basin

Dear Chairs McSally and Huffman, Ranking Members Cortez Masto and 
McClintock:

    Representing a network of nearly 1,300 businesses working on 
Colorado River basin issues, Business for Water Stewardship urges you 
to support the seven basin states' request for federal legislation 
supporting implementation of approved Drought Contingency Plans (DCPs). 
This request from the states comes after years of negotiations, with 
states pledging proactive conservation measures to safeguard Colorado 
River water supplies and protect water levels in Lake Mead.
    Many dozens of businesses across the Colorado River basin--
including Intel, Cox, the Arizona Chamber of Commerce and Industry, 
Swire-Coca-Cola and many others--signed on to letters of support and/or 
met with state leaders to emphasize the critical need for drought 
planning and the DCP. Now is the time for Congress to pass companion 
federal legislation authorizing implementation of the DCPs through the 
Secretary of the Interior.
    Across economic sectors, business operators increasingly recognize 
the challenges drought has brought to the Southwest and all the 
Colorado River basin states. Uncertainty around water availability and 
pricing, combined with pressures from population growth, threaten 
business operations, economic prosperity, business innovation, 
investment, and financing.
    Our broad-based network of companies and business organizations has 
already stepped up to urge state leaders to prioritize drought 
planning, and many in our group are already taking voluntary steps to 
reduce water footprints, conserve water, and contribute to a secure 
water future. The myriad business partners that operate in Colorado 
River basin states understand first-hand the risks that come with water 
uncertainty and see the DCPs as a key step in addressing that risk.
    The leadership and agreements at the state level show that this is 
a bi-partisan issue. Democratic and Republican governors and non-
partisan water agencies negotiated the DCPs. Decisive, federal passage 
of DCP implementation legislation is essential to provide a secure 
water future for agriculture, industry, cities and communities 
throughout the Southwest.
    We look forward to working with you on implementation of federal 
legislation on the DCPs. You can learn more about our organization at 
www.businessforwater.org.

            Sincerely,

                                                Todd Reeve,
                                                          Director.
               California Natural Resources Agency,
                                             Sacramento, CA

                                                     March 27, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Huffman and Ranking Member McClintock:

    The California Natural Resources Agency supports implementation of 
the Seven Colorado River Basin States Drought Contingency Plans (DCPs).
    Our agency is charged with managing water resources in California 
and recognizes this landmark agreement as critical to our efforts. It 
will enable states to manage ongoing dry conditions in the basin by 
enhancing conservation of Colorado River water and providing new water 
management tools to address shortages. Specifically, these plans 
provide important flexibility for California water users to store 
supplies in Lake Mead and to broaden conservation activities that 
result in further banked water supplies.
    More broadly, this agreement represents the type of shared, 
collaborative approach that is needed to manage the Colorado River and 
other shared water resources amidst increasingly uncertain hydrology. 
It will enable our states to work together to build more resilient 
water supplies that protect our communities and natural environment in 
coming decades.
    At the same time, we are committed to addressing pressing 
environmental conditions in the Salton Sea and implementing our State's 
10-Year Salton Sea Management Plan. This includes working intensely to 
implement near-term projects at the Sea to suppress dust emissions and 
create critical habitat. Working closely with our federal partners, we 
are focused on bringing important federal funding to enable these 
projects, which will augment the state's current investment of $280 
million in these efforts.
    We are grateful for your consideration of legislation that will 
enact this historic seven state agreement. We are further thankful for 
your attention and leadership as you consider any final changes to this 
legislative proposal that address outstanding issues and enable this 
legislation to pass as soon as possible during the 116th Congress.

            Sincerely,

                                             Wade Crowfoot,
                                                         Secretary.
       Prepared Statement of Alexandra M. Arboleda, Board Member
              Central Arizona Water Conservation District
    Chairman Huffman, Ranking Member McClintock and members of the 
Subcommittee, I am Alexandra M. Arboleda, a board member of the Central 
Arizona Water Conservation District (CAWCD), which manages the Central 
Arizona Project (CAP). Thank you for the opportunity to submit this 
statement for the record. As a member of the CAWCD Board of Directors, 
elected by the people of Maricopa County, and as an attorney involved 
in southwestern water policy for two decades, I urge you to approve the 
legislation authorizing the Colorado River drought plan. The Drought 
Contingency Plan (DCP) will provide three important things for the 
Colorado River Basin and the 40 million people who call it home: 
Certainty, Reliability, and Sustainability. It does so in a system 
marked by over-allocation and high variability of flows.
    For the last two and a half years, I participated in Arizona's 
drought contingency planning and can tell you that DCP is the result of 
the `painstaking work of building consensus.' DCP is an example of 
individual interests negotiating for the greater good, with a belief 
that principled compromise toward a common goal results in the best 
outcomes. DCP is the result of bipartisan cooperation and a recognition 
of the legitimate policy concerns of those with whom one might 
disagree. DCP implements creative, innovative solutions that resulted 
from listening to others' viewpoints with an eye toward problem 
solving. Water users, the seven basin states, the federal government, 
and Mexico have voluntarily agreed to curtail Colorado River diversions 
with an understanding that we all share in the benefits that the River 
provides; so, we must also work together to conserve and to use our 
water responsibly.
    In Arizona, DCP reduces Colorado River use by creating incentives 
for conservation and storage of water and through agreements to 
voluntarily reduce water use. Further, CAWCD and the State of Arizona 
are providing mitigation resources to soften some of the immediate 
impacts to Arizona water users. It should be noted that Arizona, and 
specifically CAP water users, bear the brunt of the DCP voluntary 
reductions. For example, CAP diverts about 1.6 million acre feet of 
water per year of Arizona's entitlement to 2.8 million acre feet. Under 
the DCP, if Lake Mead elevations were to fall to elevation 1,025', CAP 
and its water users have agreed to reduce their use by 720 thousand 
acre feet per year. That is a reduction of almost half of CAP's 
allocation from the Colorado River. Furthermore, water users in other 
basin states, the federal government and Mexico have all agreed to 
reduce their water use from the River, so that jointly and voluntarily 
the collective reduction at elevation 1,025' is 1.475 million acre feet 
per year. These collective actions reduce the risk of Lake Mead 
reaching critical levels from 43% to 8%.
    Much work remains ahead to bring about sustainable water management 
in the Colorado River Basin, but DCP will stabilize a threatened system 
and may serve as an example of how to achieve voluntary and mutually 
beneficial water management agreements in the future. Thanks to the 
leadership of Ted Cooke, General Manager of CAP, Tom Buschatzke, 
Director of the Arizona Department of Water Resources, and Hunter 
Moore, Governor Ducey's Policy Advisor for Natural Resources, Arizona 
has chosen a path toward certainty, reliability and sustainability for 
its Colorado River water. The collaborative solutions the parties to 
DCP have reached exemplify the old adage: `It's better to bend a little 
than to break.'
    Please vote in favor of the legislation authorizing implementation 
of the Colorado River drought plan.
        Prepared Statement of Theodore C. Cooke, General Manager
              Central Arizona Water Conservation District
    Chairman Huffman, Ranking Member McClintock and members of the 
Subcommittee, I am Theodore Cooke, General Manager of the Central 
Arizona Water Conservation District (CAWCD). Thank you for the 
opportunity to provide the views of the CAWCD on the Colorado River 
Drought Contingency Plan (DCP) through this statement for the record. 
For the reasons I will discuss below, CAWCD supports the DCP and urges 
swift action by Congress to authorize the Secretary of the Interior to 
implement it. The agreements that make up the DCP will mitigate the 
risks posed by drought for the people who depend upon the waters of the 
Colorado River, including those served by CAWCD. We are eager to assist 
this Subcommittee in the effort to enact federal authorizing 
legislation for this critical multistate initiative to improve water 
security for the 40 million people that rely on the Colorado River 
system.
Role of CAWCD in Arizona
    CAWCD manages the Central Arizona Project (CAP), a 336-mile canal 
system that delivers Colorado River water into central and southern 
Arizona. CAWCD's service area includes more than 80 percent of 
Arizona's population. The largest supplier of renewable water in 
Arizona, CAWCD diverts an average of over 1.5 million acre-feet of 
Arizona's 2.8 million acre-foot Colorado River entitlement each year 
through the CAP to municipal and industrial users, agricultural 
irrigation districts, and Indian communities. Our goal at CAWCD is to 
provide our customers with an affordable, reliable, and sustainable 
supply of Colorado River water.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of numerous Native American communities within the 
state. Nearly 90% of economic activity in the State of Arizona occurs 
within the CAP service area. The canal provides an economic benefit of 
$100 billion annually, accounting for one-third of the entire Arizona 
gross state product. CAP also helps the State of Arizona meet its water 
management and regulatory objectives of reducing groundwater use and 
ensuring availability of groundwater as a supplemental water supply 
during future droughts. The long-term sustainability of a state as arid 
as Arizona depends on achieving and maintaining these water management 
objectives.
Explanation of the DCP
    The DCP is designed to protect the Colorado River system through 
reductions in use and increased incentives for storage in Lake Mead, 
the Lower Basin's principal reservoir. The DCP agreements were 
developed through a collaborative process amongst the federal 
government, states, water users and Mexico. The Arizona Department of 
Water Resources (ADWR) and CAWCD were the participants from Arizona.
    There is an Upper Basin DCP involving Colorado, New Mexico, Utah, 
Wyoming and the United States; a Lower Basin DCP involving Arizona, 
California, Nevada and the United States; and a companion agreement 
which connects these two programs and links them to Mexico through a 
United States-Mexico agreement. Within the State of Arizona itself, 
there is also a package of agreements called the Arizona DCP 
Implementation Plan. In 2018 and early 2019, ADWR and CAWCD jointly led 
nearly 40 stakeholders through months of public and small group 
meetings that led to agreement on this plan, which ensures that the 
burden of impacts from Colorado River delivery reductions and the 
benefits of increased reliability will be shared among Arizona water 
users. The plan, in the words of Lisa Atkins, CAWCD board president, 
``essentially `shares the pain' amongst those who must bear the brunt 
of shortage'' and ``reflects how Arizonans typically work together to 
address water challenges and opportunities.'' On January 31, 2019, the 
Arizona Legislature adopted legislation in support of the Arizona DCP 
Implementation Plan, and authorized the State of Arizona to sign the 
Lower Basin DCP after federal legislation is passed.
    If federal legislation implementing the DCP is enacted in 2019, 
reductions to Arizona's Colorado River supply under DCP begin 
immediately. The DCP agreements run through 2026, the expiration of the 
existing Colorado River shortage guidelines (2007 Guidelines). It is 
anticipated that new rules will be negotiated and put into effect after 
2026.
Why the DCP is important to the future of Arizona
    The risks of Lake Mead falling below critically low elevations have 
tripled in the past decade, increasing the risks of large-scale 
reductions to Arizona's Colorado River supply and threatening the 
health of the river for all users. The 2007 Guidelines, designed to 
protect the Lower Basin against extended drought, are not sufficient to 
address the current risks to the system. The DCP is designed to be an 
overlay on the 2007 Guidelines and provide greater protection for Lake 
Mead until those guidelines are replaced after 2026.
    Because of its junior priority on the Colorado River, CAP faces the 
greatest risk from shortage on the Colorado River. Indeed, under the 
DCP, CAP water users will be taking the largest cuts in supply. 
However, in recognition of the heightened risk that all water users in 
the Colorado River basin face, California has joined Arizona and Nevada 
in taking reductions under the DCP. Mexico has also agreed to take 
reductions if Lake Mead falls beneath defined thresholds, and provided 
that the United States implements to the DCP.
    As mentioned, DCP protects the elevation of Lake Mead through 
reductions in use of Colorado River water, as well as enhanced 
incentives for water users to store Colorado River water in Lake Mead. 
While the DCP will not prevent a Colorado River shortage, projections 
by the United States Bureau of Reclamation show that implementation of 
these tools under DCP would reduce the risks of Lake Mead falling below 
critical elevations. We estimate that without the DCP, there is about a 
43% chance of Lake Mead falling below the critically low elevation of 
1,025 feet. With the DCP, that risk is reduced to 8%. The reduction in 
risk provides assurance to Arizona residents that their future water 
supplies are more reliable and secure.
Conclusion
    In closing, I would like to express my gratitude to many other 
leaders in Arizona and the other Colorado River Basin States, as well 
as at the U.S. Bureau of Reclamation, for helping to develop the 
proposals and solutions that became part of the DCP. A collaborative 
effort brought us to this day. Development of the DCP required 
willingness by all parties to face the risks posed by drought and to 
accept the need for both flexibility and complexity in the solutions 
identified. It took vision and courage from many different parties and 
interest groups to make these agreements possible. Arizona has faced 
water challenges throughout its history. We lead the nation with 
rigorous water conservation and sustainability laws that protect 
Arizona water users. The DCP is poised to become an important part of 
our state's efforts, with the support of our sister states in the 
Colorado River basin, to promote the water security that is necessary 
for thriving communities and economies. At CAWCD, we are proud to have 
participated in developing DCP, and we look forward to continuing to 
work with our many partners both within and outside our state to 
address the Basin's challenges in the future.
    CAWCD enthusiastically supports the enactment of legislation to 
authorize the implementation of DCP at the federal level. I would be 
pleased to answer any questions that the members of the Subcommittee 
may have.
       CURE--Citizens United for Resources and the 
                                        Environment
                                      Riverside, California

                                                     March 27, 2019

Hon. Jared Huffman,
U.S. Congress,
1527 Longworth House Office Building,
Washington, DC.

Re: Oversight Hearing on Drought Contingency Plan

    Dear Chairman Huffman:

    Citizens United for Resources and the Environment, Inc. (CURE) is a 
public non-profit headquartered in Riverside, California. 
(www.curegroup.org) For nearly 20 years, CURE has devoted considerable 
time and resources to the Imperial Valley in an effort to ensure that 
environmental and economic impacts from water transfers are addressed. 
The Imperial Valley is one of the poorest areas in the California, and 
the Salton Sea is fast becoming one of the worst environmental 
catastrophes in the western United States. CURE underwrote litigation 
challenging the Quantification Settlement Agreement (QSA) in 2003, 
seeking earmarked monies for Salton Sea Restoration, and CURE was a 
named plaintiff opposing the concrete lining of the All American Canal, 
given the failure of the project to address environmental and economic 
consequences in both the United States and Mexico. I personally have 
spent thousands of hours in Imperial and am a recognized expert on 
Salton Sea and western water rights.

    CURE has never received contributions from any of the DCP parties.

    CURE understands that the Imperial Irrigation District (``IID'') 
has objected to the proposed legislation on the Drought Contingency 
Plan (``DCP''), because the Metropolitan Water District agreed to 
contribute California's share of water without IID's involvement or 
without allocation of monies for the Salton Sea. IID also claims that 
the ``notwithstanding any other law'' language in the proposed DCP Bill 
is unlawful. As discussed below, IID has squandered virtually all 
Salton Sea resources with nothing to show, and IID has long admitted 
(including in the Ninth Circuit Court of Appeal) that the very same 
``notwithstanding any other laws'' language is constitutional--a 
position with which the Ninth Circuit agreed.
    Simply put, IID's cries of foul should be ignored and the DCP 
should proceed as it is critical to addressing the prolonged drought on 
the Colorado. Further delay threatens both the ecosystem and economies 
of the Southwest and is unwarranted since the DCP was crafted 
specifically to avoid further impacts to the Salton Sea.
    Briefly, IID presents the Valley as a victim by citing its high 
poverty rate and mostly minority population as a way to leverage 
appropriations. What happens to those monies once received is 
questionable. In 2017-2018, the Desert Sun published detailed articles 
highlighting alleged corruption between IID board members and local 
farmers in connection with contracts to relatives and friends. 
Similarly, the big winners in the QSA are wealthy, predominantly anglo 
land owners and not the Hispanic general public. IID cannot point to a 
single major economic development effort undertaken to alleviate 
poverty or attract jobs, unlike other irrigation districts such as the 
Tennessee Valley Authority, IID has no economic development department 
or program to promote job creation. IID only talks about poverty when 
convenient for appropriations without any concomitant accountability.
    IID's record on the Salton Sea is equally lacking. After spending 
millions of dollars on lawyers and lobbyists, IID has not created even 
a single acre of wetlands. Just last week at a State Water Resources 
Control Board workshop, several witnesses testified about how IID even 
thwarts restoration by refusing to grant necessary easements. Along 
these same lines, IID's claim that geothermal development along the Sea 
will somehow solve air quality problems is simply false.
    It is with deep regret that CURE writes this letter as we have long 
advocated on behalf Imperial Valley and on behalf of Salton Sea 
restoration. Unfortunately, history is prologue and the history of 
IID's squandering of its natural resource assets is shameful. If this 
Committee elects to assist the Salton Sea with restoration as part of 
the DCP, it should first hold hearings on where those funds can be best 
utilized.
    I would be happy to provide more details and backup documentation 
with regard to the above. Thank you for your time.

            Very truly yours,

                                  Malissa Hathaway McKeith,
                                                         President.

References

IID Corruption:

Desert Sun Series Investigation by Sammy Roth
    https://www.desertsun.com/story/tech/science/energy/2017/08/09/
imperial-power-players/501403001/

Z Global Corruption
    http://www.innotap.com/2017/10/district-attorney-investigating-
imperial_irrigation _district-response-desert-sun-reporting/

2009 Grand Jury report:

    http://cgja.blogspot.com/2009/07/imperial-county-grand-jury-report-
raps.html

    IID also unanimously board-approved in March 2018 a property 
transfer of two small lots in Desert Shores for a berm and wetland 
project that has been designed by residents and volunteers to be so 
far, the only restoration project in proximity to where residents 
actually live along the shoreline. Paperwork was drafted and the 
property ready to transfer. That transfer has been stalled by IID and 
development has not been able to take place there by the supporting 
NGOs or the State. Project details: www.CaliforniasSaltonSea.com

March 27, 2018 Minutes, scroll down to Item No. 12 Sale to EcoMedia, 
motion carried 4-0, https://www.iid.com/Home/ShowDocument?id=16927

State Water Board:
California State Water Resources Control Board Meeting Agenda
    March 19, 2019--North Shore Yacht Club, Salton Sea

March Water Board Meeting 3/20/19 at North Shore Yacht Club, Salton 
        Sea:
    https://www.desertsun.com/story/news/2019/03/20/residents-see-zero-
progress-salton-sea-but-new-officials-say-its-time-turn-page/
3223485002/
                   Coachella Valley Water District,
                                      Coachella, California

                                                     March 26, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
Committee on Natural Resources,
Subcommittee on Water, Oceans and Wildlife,
U.S. House of Representatives
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Huffman and Ranking Member McClintock:

    The Coachella Valley Water District (CVWD), together with other 
California water agencies, has been a strong supporter of the Colorado 
River Basin Drought Contingency Plan (DCP). The process took a 
significant step forward with the recent signing ceremony held on March 
18, 2019 between the seven Colorado River Basin states and the Bureau 
of Reclamation to advance the package of negotiated agreements in 
consideration for federal legislation.
    However, the work is not yet complete, and CVWD respectfully 
requests your consideration and favorable vote on the required 
legislation in order to authorize the Secretary of the Interior to 
execute four DCP agreements and to carry out their provisions regarding 
the operations of Colorado River System reservoirs.
    The seven Basin states have had a long history of managing the 
Colorado River in a collaborative fashion to ensure reliable water 
supplies for over 40 million people throughout the basin. The DCP's 
strength lies in its foundation as a consensus-based document, achieved 
over years-long negotiations among the Basin states and Reclamation. 
Under the DCP, water curtailment actions to users may be avoided 
through additional conserved water stored in Lake Mead, electrical 
power will continue to be generated in Lake Powell as a result of the 
preservation of water elevation levels, and states are able to mitigate 
the effects of the poor hydrology within their borders through the 
additional water management actions.
    The legislation is purposefully narrow and specifically tailored to 
give the Secretary the authority to implement the DCP without altering 
or disregarding the water rights of any user along the river. The 
legislation also recognizes that the proposed actions do not override 
the environmental review process. In fact, the proposed modified 
operations under the Lower Basin DCP are among the environmental 
alternatives that were analyzed (through the NEPA process) for the 2007 
Record of Decision on ``Colorado River Interim Guidelines for Lower 
Basin Shortages and the Coordinated Operations for Lake Powell and Lake 
Mead.''
    While California is officially out of drought for the first time in 
seven long years thanks to the abundant rains and snow the state has 
received over the winter months, weather patterns are no longer 
predictable and a return to drought is a very real possibility. The 
additional operational rules created under the Lower Basin DCP will 
incentivize Lower Basin water contractors to store additional conserved 
water in Lake Mead, which will buffer against the possibility of 
delivery curtailment in another dry year.
    The water users in the seven Basin states have entrusted their 
representatives to craft a framework that was good for the entire 
Colorado River Basin. The DCP is exactly that, and we ask for your 
consideration and favorable vote for the required legislation. If you 
have any questions regarding the agreements or Coachella Valley Water 
District's support of the agreements, please do not hesitate to reach 
out to me directly at (XXX) XXX-XXXX or at XXXXXXXXXXX. CVWD looks 
forward to working with you and the other members of our delegation to 
secure passage of this important legislation.

            Sincerely,

                                              J.M. Barrett,
                                                   General Manager.
              Prepared Statement of Dennis Patch, Chairman
             Colorado River Indian Tribes, Parker, Arizona
    Honorable Chairman Huffman, Ranking Member McClintock, Members of 
the Committee: thank you for the opportunity to submit testimony for 
the record in support of the Drought Contingency Plan (DCP).
    The Colorado River Indian Tribes (CRIT) have been an active 
participant in the DCP deliberations in the State of Arizona. We 
support enactment of legislation authorizing the Secretary of the 
Interior to sign and implement the DCP Agreements. We urge this 
Committee to provide the Department with this authority without delay.
The Colorado River Indian Tribes
    The Colorado River Indian Reservation was created by an Executive 
Order in 1865 issued by President Abraham Lincoln. We are located on 
300,000 acres of land between the city of Blythe, California and town 
of Parker, Arizona. Our reservation stretches along roughly 40 miles of 
the Colorado River and includes land in both Arizona and California. 
Our water rights are Present Perfected Rights to divert 719,000 acre-
feet in both Arizona and California. Ours will be the last rights to be 
cut during shortages on the River.
    The cultural heritage of our tribe is unique. Our membership 
contains individuals from the indigenous Mohave and Chemehuevi Peoples, 
as well as individuals of Navajo and Hopi descent.
    The main economic driver on the Reservation is agriculture. Today, 
CRIT Farms, our tribal enterprise, farms approximately 15,000 acres 
with current crops of alfalfa, wheat, cotton and produce. CRIT tribal 
members and non-Indian tenants farm another 55,000 to 60,000 acres each 
year, for a total of more than 73,000 acres in production on our 
reservation at any given time.
    We are concerned about the impact of nearly two decades of drought 
on the life of the River. The River has always sustained the Mohave and 
Chemehuevi People and we are doing all that we can to help preserve the 
River. We have participated in multiple contracts with Reclamation to 
store water in Lake Mead under the Pilot System Conservation Agreement. 
This water is ``created'' for the Lake by paying us to fallow farm 
lands. The money for this program is provided by Reclamation, Central 
Arizona Water Conservation District (CAWCD), Metropolitan Water 
District (MWD), Southern Nevada Water Authority (SNWA), and Denver 
Water.
    In 1995, we created the Ahakav Preserve along the River. We 
replanted more than 1,400 acres with native trees, restored the 
riparian habitat, and developed approximately 250 acres of backwaters 
for endangered fish and other native aquatic plants and animals. We 
also maintain a large mesquite bosque at the southern end of the 
Reservation that is vital for the preservation of Mohave culture.
    In addition, we restored the 12 Mile Lake, and No Name Preserves on 
the River shoreline, doubling the amount of land in conservation on the 
Reservation.
CRIT and the DCP
    As the drought in the West grows more severe, and Lake Mead levels 
fall dangerously close to the first level of cuts, it was clear that we 
needed to do more. The River, which has protected our people for so 
many generations, now needs all of us.
    At CRIT, discussions started more than four years ago. We met with 
major stakeholders, participated in the water meetings organized by 
Governor Ducey in 2017, and the Stakeholder Group lead jointly by the 
Arizona Department of Water Resources and the CAP. It was this group 
that eventually reached the agreement this committee is currently 
considering.
    The DCP calls for reducing water deliveries to CAWCD water users by 
512,000 acre-feet at a Tier 1 shortage. This was never going to be 
easy. But thanks to the strong leadership of Arizona's water leaders, 
we forged a plan that everyone can live with.
    I am proud to say that the Colorado River Indian Tribes played a 
vital role in this process. We will leave 150,000 acre-feet of our 
consumptive use in Lake Mead for System Conservation over the next 
three years. This will be available by fallowing at least 10,000 acres 
of farm land each year for three years. Additionally, we will create 
20,000 acre-feet of Intentionally Created Surplus (ICS) to provide the 
State of Arizona and CAP assurances that water deliveries to the Lake 
will match our commitments.
    Unlike other tribes in the State of Arizona, who's water rights are 
confirmed in congressionally enacted water settlements, CRIT does not 
have the authority to lease water. This flexibility would be a 
significant asset to CRIT and the entire State of Arizona. I expect 
that we will be working with this Committee to craft legislation 
addressing this added benefit for the basin in the near future.
Conclusion
    I am proud to have been part of the work accomplished by the DCP 
Stakeholders in Arizona. In the coming weeks, this Committee has the 
opportunity to approve the years of collaborative work that went into 
this agreement, and it is my hope that you will do so as quickly as 
possible. The River depends on this and we as the River People depend 
on your actions.
    Thank you for your consideration, and I appreciate the opportunity 
to share the views of the Colorado River Indian Tribes on this 
important matter.

                                 ______
                                 

                                       DENVER WATER
                                           Denver, Colorado

                                                     March 25, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
Natural Resources Committee,
U.S. House of Representatives
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Colorado River Basin Drought Contingency Plans (DCP)

    Dear Chairman Huffman and Ranking Member McClintock:

    I am writing to join many others in support of the Colorado River 
Basin States Colorado River Basin Drought Contingency Plans. Denver 
Water urges immediate action by Congress to authorize the 
implementation of the DCP.
    Denver Water proudly serves high-quality water and promotes its 
efficient use to 1.4 million people in the city of Denver and many 
surrounding suburbs. Established in 1918, the utility is a public 
agency funded by water rates and new tap fees, not taxes. It is 
Colorado's oldest and largest water utility.
    Over the last 19 years, sustained drought conditions have caused 
vital Colorado River system reservoirs to approach critically low 
elevations, threatening severe shortages to significant urban and 
agricultural economies as well as the environment. Approximately half 
the water supply of the Denver metropolitan area is derived from the 
Colorado River basin. This water supply is at risk unless the seven 
Colorado River basin states take immediate steps to ensure system 
reservoirs are maintained above critically low elevations.
    The basin states have taken these steps. Through intense public 
processes and discussion, the basin states developed the DCP, which is 
broadly supported throughout the basin as absolutely and immediately 
necessary to protect the economies and the environment dependent on the 
Colorado River and its tributaries. And now Congress must act.
    It is particularly important the DCP goes into effect immediately, 
without delay. The DCP must be in place before August, when the 
Department of Interior begins its reservoir operations planning for 
2020. The legislative language proposed by the basin states will ensure 
this happens.
    Thank you for your leadership in moving this important legislation 
forward.

            Sincerely,

                                         James S. Lochhead,
                                                       CEO/Manager.

                                 ______
                                 

       The Metropolitan Water District of Southern 
                                        California,
                                    Los Angeles, California

                                                     March 25, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
Committee on Natural Resources,
Subcommittee on Water, Oceans and Wildlife,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Huffman and Ranking Member McClintock:

    The Metropolitan Water District of Southern California 
(Metropolitan) owns and operates the Colorado River Aqueduct and serves 
Colorado River water, as one of two sources of imported supplies, to a 
service area of 19 million residents throughout Southern Coastal 
California. Given the importance of Colorado River water in our service 
area, Metropolitan strongly supports Congress taking action to enact 
legislation memorializing the terms of the Seven Colorado River Basin 
State Drought Contingency Plan Agreements (DCPs) in a manner that 
facilitates implementation of the DCPs this year. Metropolitan actively 
participated in development of the Lower Basin DCP and believes that 
the DCPs represent exactly the sort of cooperative efforts of all seven 
Colorado River Basin states working collaboratively to manage this 
important shared resource that we strive for as a Basin.
    The seven Basin states and contractors, like Metropolitan, 
developed the DCPs with input from stakeholders throughout the basin, 
including tribal and environmental leaders, to significantly reduce the 
risk of Lake Powell and Mead falling below critical elevations by 
incentivizing conservation and increased water storage in Lake Powell 
and Lake Mead. Metropolitan's 38-member board voted unanimously to 
authorize Metropolitan to step in and be responsible for meeting 
California's DCP Contributions, even if other California contractors 
decide not to participate in the Lower Basin DCP. Taking this step 
enabled Metropolitan to meet the important goals of safeguarding the 
district's Colorado River supplies and meeting the deadline for DCP 
completion established by the Commissioner of the Bureau of 
Reclamation.
    Implementation of the DCPs will build on existing environmental 
compliance to protect water supplies, while preserving existing water 
rights and respecting environmental resources. Metropolitan stands by 
the testimony of the Colorado River Board of California, as submitted 
for the record in connection with the need to advance congressional 
authorizing legislation on this critical issue.
    It is our recommendation that under your leadership, Congress will 
move forward with the steps necessary to introduce and expedite the 
terms of the Seven Colorado River Basin States Drought Contingency 
Plans by enacting legislation to address this urgent matter as soon as 
possible during the 116th Congress.

            Sincerely,

                                       Jeffrey Kightlinger,
                                                   General Manager.
              National Water Resources Association,
                                             Washington, DC

                                                     March 26, 2019

Hon. Raul Grijalva, Chairman,
Hon. Rob Bishop, Ranking Member,
House Natural Resources Committee

Hon. Lisa Murkowski, Chairman,
Hon. Joe Manchin, Ranking Member,
Senate Energy & Natural Resources Committee

    Chairmen Grijalva and Murkowski, Ranking Members Bishop and 
Manchin:

    On behalf of the National Water Resources Association (NWRA) I 
write today to echo the March 19th request of the seven States of the 
Colorado River Basin (Basin States) to support legislation directing 
the Secretary of the Interior (Secretary) to implement the drought 
contingency plans (DCPs) agreed to by the Basin States. NWRA also 
agrees with the Basin States that this legislation should implement the 
DCPs without granting any additional authority to the Secretary. We 
respectfully request that this legislation be passed with haste so that 
the DCPs can be implemented by April 22, 2019. The language agreed to 
by the Seven Basin States is attached for reference.
    The NWRA is a nonprofit federation made up of agricultural and 
municipal water providers, state associations, hydropower producers, 
and individuals dedicated to the conservation, enhancement and 
efficient management of our nation's most important natural resource, 
water. Our members provide water to more than 50 million Americans, 
millions of acres of irrigated agricultural. This water is critical to 
the health of our communities and our economy. NWRA has members in each 
of the seven basin states, and we recognize the critical importance of 
the Colorado River and the water it provides to almost 40 million 
people. The Colorado River continues to weather a long-term drought 
that is projected to continue even with above average precipitation in 
some basin states this year. If recent conditions persist, as 
projected, Lake Powell and Lake Mead could see critically low levels as 
early as 2021.
    Recognizing the challenges of managing the Colorado River, the 
Basin States have worked collaboratively to develop the DCPs in a 
manner that will benefit water users and the environment. The DCP's are 
consistent with existing environmental laws including the National 
Environmental Policy Act (NEPA) and the Endangered Species Act (ESA).
    Reliable water supply is essential to the health and well being of 
all Americans. We thank you for your efforts to ensure the DCP 
authorization moves forward in a timely manner. NWRA stands ready to 
assist you in this work.

            Sincerely,

                                                  Ian Lyle,
                                          Executive Vice President.

                                 *****

                               ATTACHMENT

                          PROPOSED LEGISLATION

SEC. ___    COLORADO RIVER BASIN DROUGHT CONTINGENCY PLANS

(a) Notwithstanding any other provision of law directly related to 
operation of the applicable Colorado River System reservoirs, upon 
execution of the March 19, 2019 versions of the Agreement Concerning 
Colorado River Drought Contingency Management and Operations and the 
agreements attached thereto as Attachments A1, A2 and B, by all of the 
non-federal parties thereto, the Secretory of the Interior shall, 
without delay, execute such agreements, and is directed and authorized 
to carry out the provisions of such agreements and operate applicable 
Colorado River System reservoirs accordingly; provided, that nothing in 
this section shall be construed or interpreted as precedent for the 
litigation of, or as altering, affecting, or being deemed as a 
congressional determination regarding, the water rights of the United 
States, any Indian tribe, band, or community, any state or political 
subdivision or district thereof, or any person.
      Northern Colorado Water Conservancy District,
                                         Berthoud, Colorado

                                                     March 26, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans and Wildlife,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Colorado River Basin Drought Contingency Plans (DCP)

    Dear Chairman Huffman and Ranking Member McClintock:

    I am writing on behalf of the Northern Colorado Water Conservancy 
District and its Municipal Subdistrict to join many others in support 
of the Colorado River Basin States Drought Contingency Plan (DCP). 
Northern Water urges immediate action by Congress to authorize the 
implementation of the DCP.
    Northern Water, a public agency created in 1937, and its Municipal 
Subdistrict, an independent conservancy district formed in 1970, 
provide water for agricultural, municipal, domestic and industrial uses 
to an eight-county service area in Northeastern Colorado. Northern 
Water and the U.S. Bureau of Reclamation jointly operate and maintain 
the Colorado-Big Thompson Project. The Municipal Subdistrict operates 
the Windy Gap Project. Both projects collect water at the headwaters of 
the Colorado River and deliver it to Northeastern Colorado through a 
13-mile tunnel beneath Rocky Mountain National Park. Northern Water and 
the Municipal Subdistrict deliver water to more than 120 ditch, 
reservoir and irrigation companies serving more than 640,000 acres of 
irrigated agriculture and to municipal and domestic water providers 
that serve a population of about 980,000 in Northeastern Colorado.
    Drought conditions in the Colorado River basin have caused vital 
Colorado River system reservoirs to approach critically low levels. 
Declining reservoir levels threaten the water supplies for 40 million 
people and their significant urban, agricultural and recreational 
economies and the environment. This water supply is at risk unless the 
seven Colorado River basin states take immediate steps to ensure system 
reservoirs are maintained above critically low elevations.
    The Colorado River basin states' stewardship of water resources is 
fundamental to a sustainable water future for all. The DCP was 
developed through a collaborative and cooperative effort among the 
states and stakeholders that transcends political and geographic 
boundaries. The proposed federal legislation and implementation of the 
plans will enable actions to conserve Colorado River water and provide 
the states with water management tools to address declining levels in 
Colorado River system reservoirs.
    Northern Water and its Municipal Subdistrict request your support 
of the DCP and legislation currently proposed by the seven states of 
the Colorado River basin. It is particularly important the DCP goes 
into effect immediately, without delay.

    Thank you for your leadership on this critically important issue.

            Sincerely,

                                     Bradley D. Wind, P.E.,
                                                   General Manager.
                    Palo Verde Irrigation District,
                                         Blythe, California

                                                     March 26, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
House Committee on Natural Resources
Subcommittee on Water, Oceans and Wildlife,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Huffman and Ranking Member McClintock:

    The Palo Verde Irrigation District (PVID) is writing this letter to 
offer our strong support for the Seven Colorado River Basin States 
(Basin States) Drought Contingency Plan (DCP). PVID has the most senior 
entitlement to water of the Colorado River, by virtue of having the 
first priority to Colorado River water in California, that itself holds 
the most senior rights to Colorado River water.
    Given the importance of the Colorado River water to the agriculture 
and the residents of the Palo Verde Valley, we support the DCP. PVID 
actively participated in development of the Lower Basin DCP and 
believes that the DCP represent the appropriate efforts of all seven 
Basin States working collaboratively to manage this important shared 
resource during the extended drought conditions that we presently face.
    The Seven Basin States and contractors, including PVID, developed 
the DCP with input from stakeholders throughout the basin, including 
tribal and environmental leaders, to significantly reduce the risk of 
Lake Powell and Mead falling below critical elevations by incentivizing 
conservation and increased water storage in Lake Powell and Lake Mead. 
Implementation of the DCP will build on existing environmental 
compliance to protect water supplies, while preserving existing water 
rights and respecting environmental resources.
    It is our recommendation that Congress should move forward to 
embrace the terms of the Drought Contingency Plans by working with the 
Basin States to further refine the ``Law of the River'' by enacting the 
legislation as offered by the seven Colorado River Basin States.

            Sincerely,

                                                Ned Hyduke,
                                                   General Manager.

                                 ______
                                 

           Board of Water Works of Pueblo, Colorado
                                           Pueblo, Colorado

                                                     March 26, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
House Committee on Natural Resources

Hon. Martha McSally, Chairman,
Hon. Catherine Cortez Masto, Ranking Member,
Water and Power Subcommittee,
U.S. Senate Committee on Energy & Natural Resources

Re: Federal Legislation for Colorado River Drought Contingency Planning

    Dear Chairs and Ranking Members:

    I am writing to urge immediate action by Congress to authorize 
Colorado River Basin Drought Contingency Plans.
    The continuing 19-year drought across the entire Colorado River 
Basin has resulted in a state of crisis for water supplies on this 
river that provides drinking water to over 40 million people and 
sustains 5.5 million acres of irrigated agriculture in the seven basin 
states. All these uses of Colorado River water are at immediate risk as 
a result of the drought.
    The municipal water utility I currently lead, Pueblo Water, is not 
physically located within the Colorado River Basin. However, roughly 
half the water we treat and supply to our 120,000-plus residents, 
businesses and industries originates in the Colorado basin and comes to 
Pueblo via transmountain diversion. Hence, any supply shortage on the 
Colorado River due to this drought emergency will have a direct impact 
on our system and our customers.
    The basin states of Colorado, New Mexico, Utah, Wyoming, Arizona, 
California and Nevada have addressed this critical situation by 
developing the Drought Contingency Plans (DCPs) that will prevent basin 
reservoirs from falling below critical operational levels. The plans 
were developed with broad support across all basins and need to be 
implemented without delay in order to prevent severe water shortages to 
both urban and agricultural economies, as well as long-term harm to the 
environment.
    The federal legislation proposed by the seven basin states will 
enable the states to take immediate action in accordance with the DCPs 
to address this crisis for the benefit of all. It is essential for this 
legislation to be enacted by Congress and implemented by the states 
without delay.

    Thank you for your action on this critically important issue.

            Sincerely,

                                              Seth Clayton,
                                                Executive Director.

                                 ______
                                 

                          Salt River Project (SRP),
                                           Phoenix, Arizona

                                                     March 25, 2019

Hon. Raul Grijalva, Chairman,
Hon. Rob Bishop, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Grijalva and Ranking Member Bishop:

    I write to express the Salt River Project's (SRP) support of the 
Colorado River Drought Contingency Plan (DCP) implementing legislation 
submitted to Congress by the seven Colorado Basin States on March 19th.
    SRP was formed to contract with the federal government for the 
building of Theodore Roosevelt Dam, and other components of the Salt 
River Federal Reclamation Project. Today SRP operates seven dams and 
reservoirs throughout Arizona, 1,300 miles of canals, laterals, 
ditches, and pipelines to deliver water from the Salt and Verde Rivers 
to approximately 250,000 acres of land in the greater Phoenix area. We 
also operate and have interests in a variety of electrical generation 
facilities within Arizona. Although SRP does not rely on the Colorado 
River for our water supply, Colorado River water plays such a central 
role in Arizona's economy that all of us are impacted by uncertainty, 
and will benefit from this important agreement and implementing 
legislation.
    Successful implementation of the DCP within Arizona could have only 
been achieved through a broad stakeholder-driven process. SRP was an 
invited and active participant in that process through the Arizona DCP 
Steering Committee. Our continued commitment to the plan can be 
demonstrated by SRP's commitment of mitigation water through a DCP 
exchange with the Central Arizona Project. SRP appreciates your 
leadership to address Colorado River drought, and urges the prompt 
passage of the legislation necessary to implement the DCPs.

            Sincerely,

                                          David C. Roberts,
                         Associate General Manager-Water Resources.

                                 ______
                                 

      Prepared Statement of Dan Denham, Assistant General Manager
                    San Diego County Water Authority
    Chairman Huffman, Ranking Member McClintock and members of the 
Subcommittee, I am Dan Denham, assistant general manager of the San 
Diego County Water Authority (the ``Water Authority''). Thank you for 
the opportunity to provide the views of the Water Authority in support 
of the Drought Contingency Plan (DCP) for the Colorado River. The Water 
Authority urges this Subcommittee to pass federal legislation 
authorizing the DCP as soon as possible.
Role of the Water Authority
    As a public agency created in 1944, the Water Authority is one of 
the nation's largest water agencies, delivering wholesale water 
supplies to 24 retail water providers, including cities, special 
districts and Marine Corps Base Camp Pendleton. Today, most of the 
region's water is imported from its long-term water conservation and 
transfer agreement with the Imperial Irrigation District, conserved 
water from projects that lined portions of the All-American and 
Coachella canals in Imperial Valley, and water purchased from the 
Metropolitan Water District of Southern California. The remaining water 
comes from local sources, including groundwater, local surface water, 
recycled water, and seawater desalination. Hence, Colorado River water 
is an important source of the water we deliver to sustain a $231 
billion regional economy and the quality of life for 3.3 million 
people. The clear majority of the region's residents realize that they 
live in a semiarid climate and view water-use efficiency as a civic 
duty. In support of this ethic, the Water Authority promotes ongoing 
efforts to improve water-use efficiency in homes, businesses and public 
places across the region and statewide through landmark conservation 
legislation. Since 1990, per capita water use in the San Diego region 
has declined by more than 40 percent. As a result, we now use far less 
water than we did three decades ago even though the population has 
grown by 900,000.
What the DCP will accomplish
    The DCP is an effort by the seven Colorado River Basin States to 
prevent Lake Powell and Lake Mead from reaching critically low levels 
by agreeing to voluntary reductions in water delivery. People, farms, 
and businesses would be harmed if these reservoirs reached such low 
levels as to trigger severe delivery cuts. The DCP is a set of 
interlocking agreements: an Upper Basin DCP negotiated by Colorado, New 
Mexico, Utah, Wyoming and the U.S.; a Lower Basin DCP negotiated by 
Arizona, California, Nevada and the U.S.; and a complementary agreement 
which connects these two programs and links them to Mexico through a 
US-Mexico agreement. By negotiating and approving the DCP, the Basin 
States are agreeing to voluntarily reduce Colorado River water 
deliveries if reservoir levels decline to certain predetermined levels.
    The DCP builds on the operating experience and scientific 
information developed through the 2007 Interim Shortage Guidelines 
(``2007 Guidelines''). The 2007 Guidelines were the first mechanism the 
Basin States adopted to formally address the risk of shortage on the 
Colorado River. They introduced the concept of Intentionally Created 
Surplus (ICS), which is a pool of water in Lake Mead created by Lower 
Basin Contractors through water conservation. Water stored as ICS is 
available for later delivery to the Contractor that created the ICS. 
Storage of ICS water in Lake Mead can significantly reduce the risk of 
shortage to the Colorado River Basin by maintaining water levels above 
reservoir elevations that trigger mandatory cutbacks. Furthermore, the 
ICS program promotes efficient use of water resources because it 
provides a low-cost storage option that incentivizes leaving water in 
the river for later use.
    The Water Authority believes the ICS mechanism has great potential 
to build elevation in Lake Mead and simultaneously to improve the 
reliability of regional water supplies. Due to several significant 
conservation measures funded by the Water Authority, we currently have 
333,700 acre-feet (AF) of ICS eligible supplies, however, we do not yet 
have an ICS account. This eligible volume is anticipated to eclipse 
400,000 AF in the near future as additional supplies come on line. We 
look forward to working with Section 5 Contractors and Reclamation to 
store some portion of San Diego County's supplies in Lake Mead under 
the ICS program and provide a benefit for the entire Southwest.
    In December 2018, Bureau of Reclamation Commissioner Brenda Burman 
addressed the Colorado River Water Users Association and noted that 
Lake Powell's and Mead's combined storage was only 46% of capacity, the 
lowest level since 1966. The persistence and intensity of the current 
drought have driven home the risk of reaching critically low levels of 
storage in this system. It has become imperative that the Basin States 
find more ways to promote conservation and stabilize the river. The 
DCP's agreed-upon reductions in deliveries will help achieve these 
goals.
Conclusion
    The Water Authority applauds the tireless efforts by each of the 
seven Colorado River Basin States and the Bureau of Reclamation that 
culminated in the DCP. The DCP agreements are vital to managing risk on 
the Colorado River. Agreed-upon drought operations allow water agencies 
to predict future deliveries with greater confidence, helping us to 
improve efficiency and to plan with greater accuracy. The DCP will 
mitigate the impacts of shortages on our economies and the environment. 
The Water Authority is pleased to support the enactment of federal 
legislation that is needed for the DCP to come into effect. Please do 
not hesitate to contact me if you have any questions or the Water 
Authority can assist in any way with the Subcommittee's consideration 
of authorizing legislation for the DCP.

                                 ______
                                 

   Prepared Statement of Thomas Tortez, Jr., Tribal Council Chairman
                Torres Martinez Desert Cahuilla Indians
    Chairman Huffman, Ranking Member Lamborn, and Members of the 
Subcommittee, thank you for holding today's hearing on the Colorado 
River Drought Contingency Plan. I am Thomas Tortez, Chairman of the 
Tribal Council for the Torres Martinez Desert Cahuilla.
    While I support local, state, and Federal cooperation to resolve 
water allocation and management challenges in the Colorado River Basin, 
I oppose a problematic provision in the current drought contingency 
plan legislation that the Bureau of Reclamation has been advocating. It 
would require water management and operations decisions for the 
Colorado River Basin to be made and executed ``[n]otwithstanding any 
other provision of law,'' ``without delay.'' If Congress passes the 
legislation as drafted, this provision would set a harmful precedent by 
granting the Administration a powerful blank check to waive all 
environmental laws that relate to its decisions on water in the 
Colorado River Basin. And sadly, it could be used to write yet another 
chapter in the U.S. Government's long history of disregarding its trust 
responsibility to protect tribal treaty rights, lands, assets, and 
resources.
    The Torres Martinez Tribe respectfully reminds this committee that 
for nearly a century before the current attempt to avoid public 
responsibility, the federal government has continued to ignore its 
promises to address tribal land ownership inequities created by the 
federal government at the Salton Sea.
    On a positive note, I understand that your Committee may be working 
to address these concerns and improve the DCP legislation, and I stand 
ready to assist you in that effort.
    The Torres Martinez Desert Cahuilla Indians are the largest private 
landowner of property in and around the Salton Sea. This is our 
aboriginal homeland and it must be protected now and for future 
generations. Because the health of the Salton Sea is vital to those 
future generations' health and welfare, the Tribe has steadfastly led 
efforts to protect and restore the Sea. Although I am submitting 
today's testimony in my capacity as Chairman of the Tribal Council for 
the Torres Martinez Desert Cahuilla, I also serve as President of the 
Salton Sea Authority Board of Directors. The Salton Sea Authority is a 
joint authority of local and tribal governments engaging in successful 
state and Federal partnerships to restore the Sea and prevent serious 
threats to human health, the environment, and regional economy.
    The Salton Sea is the largest lake in the California. It is the 
modern incarnation of Lake Cahuilla, a prehistoric, intermittent 
freshwater sea that filled and evaporated multiple times over thousands 
of years as the Colorado River meandered on its delta between emptying 
into the Gulf of California or diverting northwest into the Salton 
basin. Its latest incarnation was created in 1905 by a breach in an 
irrigation canal from the Colorado River, and since then it was 
maintained by agricultural runoff from the Imperial and Coachella 
valleys. It is a vital stop for migratory birds on the Pacific Flyway 
and was the top tourist destination in California in previous decades.
    Following a 2003 agreement to transfer water to San Diego, 
agricultural irrigation and runoff in the Imperial Valley and Coachella 
Valley were reduced in 2017, and the Sea has been receding rapidly. 
Lowering water elevations and rising salt concentrations at the sea 
pose harm to human health, ecosystem habitat, and economic 
opportunities for communities around the Sea. Without action, 
contaminated dust from the exposed lakebed threatens to create an air 
pollution and health disaster for the Tribe and the entire region. 
Local residents at the Sea, including members of the Torres Martinez 
Desert Cahuilla, are regularly hospitalized for asthma conditions at 
twice the national average.
    Through cooperation and consultation among private landowners and 
Tribal, local, and state governments, we have begun to make progress 
addressing the Sea's challenges and restoring it as a vital resource. 
In partnership with the Salton Sea Authority and the California 
Department of Water Resources, the Torres-Martinez Tribe has developed 
and completed an 85-acre wetland pilot project at the mouth of the 
Whitewater River, where it enters the Sea. We are working with our 
partners to expand on this example of successful restoration along the 
Sea's perimeter. Recent advances include:

    <bullet> In June 2018, California voters approved Proposition 68, 
            which provides $200 million toward projects that will 
            accelerate progress at the Salton Sea, including $30 
            million for the Salton Sea Authority, and $170 million to 
            the California Natural Resources Agency for a 10-year plan 
            to deploy habitat and dust suppression projects.

    <bullet> In December 2018, Imperial County and Riverside County 
            signed an historic agreement to work more closely together 
            on complementary infrastructure investments that will 
            accelerate the pace of progress restoring lake and wetlands 
            habitat along the perimeter of the Salton Sea.

    If the Federal government matched these state and local 
commitments, it would place the Salton Sea and surrounding communities 
firmly on a path toward a healthy and successful future.

    The Federal government owns nearly half of the land in and around 
the Salton Sea, and Federal partnerships are critical to improving 
conditions at the Sea. The Federal government also has trust 
responsibilities to protect the Tribe's treaty rights, lands, and 
resources. In 2016, the U.S. Department of the Interior entered into a 
Memorandum of Understanding with the State of California that included 
commitments to strengthen cooperation and complement state, local, and 
tribal efforts to restore the Salton Sea.
    Unfortunately, the Federal government has been inconsistent in 
following through on its obligations and responsibilities to the Salton 
Sea and the region. The U.S. Department of Agriculture has supported 
collaborative work with agricultural producers to benefit the Sea 
through its Regional Conservation Partnership Program, which we hope to 
expand under the 2018 Farm Bill. On the other hand, we have seen little 
follow-through by the Interior Department on its 2016 agreement to step 
up as an important partner. And now, problematic language in the 
proposed legislation could be used to repudiate many Federal 
responsibilities to the Sea altogether. We encourage Congress to reject 
the current provision that would waive all laws that protect the 
environment and Federal responsibilities to tribal nations. Instead, 
Congress should demand and require that the Federal government work 
with state, local, and tribal partners to resolve challenges in 
managing the Colorado River while also fulfilling its responsibility to 
protect the Salton Sea and honor its trust responsibilities to tribal 
nations.
                 Truckee-Carson Irrigation District
                                             Fallon, Nevada

                                                     March 27, 2019

Hon. Raul Grijalva, Chairman,
Hon. Rob Bishop, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Hon. Lisa Murkowski, Chairman,
Hon. Joe Manchin, Ranking Member,
Senate Committee on Energy and Natural Resources,
304 Dirksen Senate Office Building,
Washington, DC 20510.

    Chairman Murkowski, Chairman Grijalva, Ranking Member Manchin, and 
Ranking Member Bishop:

    On behalf of the Truckee-Carson Irrigation District (District), in 
Fallon, Nevada, I here express support for the request made by the 
seven States of the Colorado River Basin (Basin States) for legislation 
directing the Secretary of the Interior (Secretary) to implement the 
Drought Contingency Plans (DCPs) agreed to by the Basin States. We 
believe, as has been expressed by the Basin States, that this 
legislation should implement the DCPs without granting additional 
authority to the Secretary. We urge timely passage of this legislation 
so that the DCPs may be implemented by April 22, 2019. The language 
agreed to by the Seven Basin States is attached hereto for your 
reference.
    The District is a political subdivision of the State of Nevada and 
is a member of the National Water Resource Association (NWRA). We 
actively work with the NWRA and its members in support of measures that 
will result in better management and use of our most valuable resource: 
Water! The NWRA has members in each of the seven basin states--
including Nevada. The importance of the Colorado River to our state 
cannot be understated! In total, the River provides water to as many as 
40 Million people--including residents of Las Vegas.
    Of extreme importance to us now is the fact that the entire river 
system continues in a long-term state of drought; and, in view of 
continuing conditions of such drought, Lake Powell and Lake Mead may be 
subject to critical low levels as early as 2021.
    We believe that the Basin States have achieved DCPs that address 
multiple concerns including compliance with the National Environmental 
Policy Act (NEPA) and the Endangered Species Act (ESA).

    Thank you for your consideration in this matter.

            Best Regards,

                                    Rusty D. Jardine, Esq.,
                                          District General Manager.

                                 *****

                               ATTACHMENT

                          PROPOSED LEGISLATION

SEC. ___    COLORADO RIVER BASIN DROUGHT CONTINGENCY PLANS

(a) Notwithstanding any other provision of law directly related to 
operation of the applicable Colorado River System reservoirs, upon 
execution of the March 19, 2019 versions of the Agreement Concerning 
Colorado River Drought Contingency Management and Operations and the 
agreements attached thereto as Attachments A1, A2 and B, by all of the 
non-federal parties thereto, the Secretory of the Interior shall, 
without delay, execute such agreements, and is directed and authorized 
to carry out the provisions of such agreements and operate applicable 
Colorado River System reservoirs accordingly; provided, that nothing in 
this section shall be construed or interpreted as precedent for the 
litigation of, or as altering, affecting, or being deemed as a 
congressional determination regarding, the water rights of the United 
States, any Indian tribe, band, or community, any state or political 
subdivision or district thereof, or any person.

                                 ______
                                 

                    UPPER COLORADO RIVER COMMISSION
                                       Salt Lake City, Utah

                                                     March 25, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Colorado River Basin Drought Contingency Plans (``DCPs'') Oversight 
        Hearing

    Dear Chairman Huffman and Ranking Member McClintock:

    Thank you for your leadership in convening a hearing on the drought 
contingency planning efforts underway in both the Upper and Lower 
Colorado River Basins (``Upper'' and ``Lower Basins'', respectively) as 
reflected in the March 19, 2019, final draft DCP agreements provided to 
Congress. As Executive Director and Secretary, I represent the Upper 
Colorado River Commission (``UCRC''), an interstate water 
administrative agency established under the laws of the states of 
Colorado, New Mexico, Utah and Wyoming (the ``Upper Division States'') 
and by Congress through the enactment of the 1948 Upper Colorado River 
Basin Compact (63 Stat. 31) (``1948 Compact''). The UCRC's role serves 
to ensure the appropriate allocation of water from the Colorado River 
to the Upper Division States and to ensure water is provided to the 
Lower Division States of Arizona, California and Nevada and to the 
Republic of Mexico in accordance with the 1922 Colorado River Compact 
(45 Stat. 1057) (``1922 Compact''). The UCRC is comprised of one 
representative appointed by the Governor of each of the Upper Division 
States and one member appointed by the President to represent the 
United States. There is no equivalent to the UCRC in the Lower Basin.

    The UCRC supports, without reservation, both the Upper and Lower 
Colorado River Basin DCPs, whose combined objective is to avoid falling 
below critical elevations in Lakes Powell and Mead. The risks facing 
the Colorado River resulting from almost 20 years of historically dry 
conditions are well-documented. Of particular concern is the potential 
for Lake Mead to plunge to a critically low level as early as 2021, 
further threatening elevations at Lake Powell. Accordingly, the UCRC 
urges your immediate support for federal legislation necessary to 
implement the DCPs as soon as possible.

    The UCRC plays a central role in both the demand management and 
drought response operations elements of the Upper Basin DCP 
(``Agreement Regarding Storage at Colorado River Storage Project Act 
Reservoirs Under an Upper Basin Demand Management Program'' and 
``Agreement for Drought Response Operations at the Initial Units of the 
Colorado River Storage Project Act'', respectively). Demand management 
is premised on water conserved, and subsequently stored and released at 
the direction of the UCRC, in order to satisfy the Upper Division 
States' obligations under the 1922 Compact. The drought operations 
element, which will operate within the framework of existing 
environmental compliance, seeks to avoid falling below a critical 
elevation at Lake Powell through the development and implementation of 
drought response operations plans. The plans will require the 
participation of the UCRC in each phase of the drought response 
process.

    The UCRC's role in the Upper Basin DCP arises from its authorities 
under both federal law and the statutes of the signatory states to the 
1948 Compact. These authorities include making findings as to the 
quantity of water in the Upper Colorado River above Lee Ferry used each 
year by each state signatory to the 1948 Compact; the quantity of water 
deliveries at Lee Ferry during each water year; and, the necessity for 
and the extent of the curtailment of use required, if any. See Articles 
IV and VIII (d) of the 1948 Compact. Both the demand management and 
drought response operations elements of the Upper Basin DCP seek to 
maintain reservoir elevations at Lake Powell sufficient to ensure 
continued compliance with the 1922 Compact. At the same time, both seek 
to avoid the specter of involuntary curtailment of uses by the Upper 
Division States should conditions deteriorate such that compact 
obligations may be jeopardized. As such, the dual purposes of the Upper 
Basin DCP directly impact the responsibilities of the UCRC. Moreover, 
while the UCRC is not itself a party to the interstate DCP agreements, 
the agreements will be executed by the Upper Division States through 
each of their Commissioners to the Upper Colorado River Commission and, 
accordingly, will bind the UCRC to the terms of the agreements.

    The UCRC appreciates the opportunity to express our unequivocal 
support for the Upper and Lower Basin DCPs and the enactment of federal 
legislation necessary for immediate implementation of the plans.

            Very truly yours,

                                               Amy I. Haas,
                                   Executive Director and Secretary

                                 ______
                                 

                 Prepared Statement of Mark A. Gabriel,
               Administrator and Chief Executive Officer
                   Western Area Power Administration
    Since 2000, drought conditions in the Colorado River Basin have led 
to significant decreases in water storage in several key Colorado River 
reservoirs. The Seven Basin States, through their Commissions, are 
developing Drought Contingency Plans (DCP) (one for the upper basin, 
and another for the lower basin) to address the possibility of 
mitigating the reservoir levels at Lakes Powell and Mead from declining 
below critical elevations that would trigger water shortage provisions. 
Hydropower would also be impacted by shortages.
    An agreement has been reached in the Upper Basin (Wyoming, Utah, 
New Mexico and Colorado). The primary goal of the Upper Basin strategy 
is to maintain sufficient water levels at Lake Powell during drought 
conditions to preserve water deliveries and power generation. Lake 
Powell is the largest reservoir and largest source of hydropower 
generation in the Upper Basin and singularly controls deliveries of 
Colorado River water to the Lower Basin. The Upper Basin States have 
agreed on a strategy that primarily calls for increased deliveries to 
Lake Powell by releasing water from higher elevation reservoirs, in 
excess of normal releases but consistent with all Records of Decision, 
to ensure Lake Powell remains above its dead pool level and water can 
be released. Shifting of water from different reservoirs may impact 
power generation ability in the higher reservoirs as well as impact 
water deliveries in subsequent years. Power from Lake Powell is 
delivered to 135 customers across Arizona, Colorado, New Mexico, 
eastern Nevada, Utah, and Wyoming. Power contracts extend through 2057.
    The Lower Basin states (California, Nevada and Arizona) have had 
more difficulty reaching an agreement, particularly due to Arizona 
legislation and now concerns from the Imperial Irrigation District 
(IID) in California regarding funding for the cleanup of the Salton 
Sea. The Bureau of Reclamation Commissioner Brenda Burman required that 
an agreement be reached by January 31, 2019. Unfortunately this 
deadline was not met and additional pressure was set by the 
Commissioner via a Federal Register Notice requiring input from each 
State's Governor by March 19th. On March 18th the States satisfied this 
deadline by signing a letter of intent and agreement to sign the DCP in 
the following days, without IID's signature.
    Lake Mead water releases in the lower basin are part of the Boulder 
Canyon project (Hoover Dam). WAPA is obligated to deliver wholesale 
energy to approximately 45 customers in southern California, Arizona, 
and Nevada, and the available capacity is highly dependent on the 
elevation of Lake Mead. If power is insufficient to support customer 
electrical capacity entitlements, each customer's capacity entitlement 
would be reduced or increased on a pro-rata basis to align with the 
available capacity at any given time. Electric service contracts 
provide for the marketing of power through September 30, 2067.
    Water demands in the Lower Colorado River Basin and hydropower 
operations of the Parker-Davis Project (PDP) in Arizona are directly 
impacted by upstream releases from Hoover Dam. Power from the PDP is 
currently marketed to 37 customers in southern Nevada, Arizona and 
southern California, supplying the electrical needs of more than 
300,000 people. All firm power contracts are effective through 
September 30, 2028.
    WAPA is engaging with Reclamation and state representatives to 
represent hydropower interests in discussions about the drought 
contingency plan to fully understand the impacts on hydropower costs 
and the Colorado River Basins Power Marketing Fund. The focus of the 
interpretation of that data has been and will continue to be 
understanding the overall impact to the cost of hydropower if a DCP is 
triggered and for the subsequent years when recovering from drought 
mitigation measures.

                                 ______
                                 

      The Western Coalition of Arid States--WESTCAS
                                             Washington, DC

                                                     March 27, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans and Wildlife,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Martha McSally, Chair,
Hon. Catherine Cortez Masto, Ranking Member,
Subcommittee on Water and Power,
Senate Committee on Energy and Natural Resources,
Washington, DC 20510.

Re: WESTCAS Support of enactment of the Colorado River Basin Drought 
        Contingency Plan

    Dear Chairmen Huffman and McSally and Ranking Members McClintock 
and Masto:

    On behalf of the Western Coalition of Arid States (WESTCAS) we wish 
to express our strong support for the Colorado River Basin States 
Colorado River Basin Drought Contingency Plans (DCP) and we further 
wish to thank your respective subcommittees for the public hearing on 
this issue which you are holding in the Senate on March 27 and the 
House on March 28.
    WESTCAS was formed in 1992 when water and wastewater service 
providers joined together to pool their talents and resources in 
support of the development of water programs and regulations. Our 
mission is to ensure adequate supplies of high quality water for those 
living in the arid west while also protecting the environment. The 
WESTCAS membership is located in the states of California, Arizona, 
Nevada, Colorado, New Mexico, and Texas.
    We applaud and salute the Basin States, the U.S. Bureau of 
Reclamation, urban and agricultural water districts and the key water 
contractors for reaching agreement to establish a voluntary program for 
managing the critically important Colorado River system. WESTCAS urges 
the Congress to act swiftly to enact the necessary legislation to 
implement the DCP. Long-term drought conditions have caused a 130-drop 
in the water level of Lake Mead since the year 2000. If the annual 
water level reaches an elevation of 1,075 feet, about 15 foot lower 
than the current water level, an official shortage would be declared 
that would in turn trigger cuts in water delivered to Arizona and 
Nevada. A continuing decline in Lake Mead elevation to critical levels 
would have increasingly severe consequences for all the stakeholders.
    WESTCAS believes that the DCP would help to address the challenges 
associated with drought in the Colorado River Basin. We appreciate your 
consideration to swiftly enact the DCP legislation. If you have any 
questions regarding these comments please do not hesitate to contact me 
at (XXX) XXX-XXXX, extension XXXX.

            Sincerely,

                                              Steve Bigley,
                                                         President.

                                 ______
                                 

                       WESTERN STATES WATER COUNCIL
                                               Murray, Utah

                                                     March 22, 2019

Hon. Jared Huffman, Chair,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans & Wildlife,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Martha McSally, Chair,
Hon. Catherine Cortez Masto, Ranking Member,
Subcommittee on Water & Power,
Senate Committee on Energy & Natural Resources,
Washington, DC 20510.

    Dear Chairs and Ranking Members:

    The Western States Water Council (WSWC) was created by the 
governors to advise them on water policy issues. The WSWC is comprised 
of representatives appointed by the governors of eighteen western 
states. The mission of the WSWC is to foster cooperation among its 
member states, provide a forum for discussion of a broad spectrum of 
water resource challenges facing the West, and ensure that the West has 
an adequate, sustainable supply of water of suitable quality to meet 
its diverse economic and environmental needs now and in the future.
    Water is a scarce and precious resource in the West. Surface and 
groundwater supplies in many areas are stressed, resulting in a growing 
number of conflicts among users and uses. Effectively addressing these 
challenges requires collaborative, cooperative effort among states and 
stakeholders that transcends political and geographic boundaries. The 
WSWC has a long history of promoting drought preparedness, planning, 
and response programs in cooperation with federal agencies.
    The Colorado River provides water to approximately 40 million 
people and 5.5 million acres of irrigated agriculture in the Upper 
Basin (Colorado, New Mexico, Utah, and Wyoming) and Lower Basin 
(Arizona, California, and Nevada). Since 2000, the Basin has 
experienced historically dry conditions and combined storage in Lakes 
Powell and Mead has reached its lowest level since Lake Powell 
initially began filling in the 1960s. Last year's runoff into the 
Colorado River was the second lowest since 2000, and there is no sign 
that the trend of extended dry conditions will end any time soon even 
if 2019 provides above average runoff. Lakes Powell and Mead could 
reach critically low levels as early as 2021 if conditions do not 
significantly improve. Declining reservoirs threaten water supplies 
that are essential to the economy, environment, and health of the 
Southwestern United States.
    The States' primary stewardship over water resources is fundamental 
to a sustainable water future. The WSWC strongly encourages your 
support of the drought contingency plans and legislation currently 
proposed by the seven States of the Colorado River Basin to implement 
necessary actions in order to respond to the historic drought and 
ongoing dry conditions in the Colorado River Basin.
    The proposed federal legislation and subsequent implementation of 
the plans will enable prompt action to enhance conservation of Colorado 
River water and provide the States with water management tools 
necessary to address a looming crisis. These tools will assist in 
reducing the probability that Lakes Powell and Mead will decline to 
critically low elevations, without sacrificing any existing 
environmental protections.
    We thank you for your leadership on this critically important 
issue.

            Sincerely,

                                           Tony Willardson,
                                                Executive Director.

                                 ______
                                 

                Western Urban Water Coalition--WUWC

                                                     March 25, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans and Wildlife,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Colorado River Basin Drought Contingency Plans (DCP)

    Dear Chairman Huffman and Ranking Member McClintock:

    The Western Urban Water Coalition (WUWC) appreciates the 
opportunity to express its strong support for the Colorado River Basin 
Drought Contingency Plans (DCP) and commends the States, the Bureau of 
Reclamation, Tribal governments, and the key water contractors for 
achieving agreement through broad-based collaboration to establish a 
program for managing this vitally important river system. We urge 
Congress to act expeditiously to enact legislation to implement the 
DCP.

    Established in 1992 to address the West's unique water supply and 
water quality challenges, the WUWC consists of the largest urban water 
utilities in the West, serving more than 40 million western water 
consumers in major metropolitan areas in seven Western states. WUWC 
includes the following urban water utilities:

    <bullet> Arizona--Central Arizona Project, city of Phoenix and Salt 
            River Project;

    <bullet> California--Eastern Municipal Water District, Los Angeles 
            Department of Water and Power, The Metropolitan Water 
            District of Southern California, San Diego County Water 
            Authority, Santa Clara Valley Water District, and City and 
            County of San Francisco Public Utilities Commission;

    <bullet> Colorado--Aurora Water, Colorado Springs Utilities, and 
            Denver Water;

    <bullet> Nevada--Las Vegas Valley Water District, Southern Nevada 
            Water Authority, and Truckee Meadows Water Authority;

    <bullet> New Mexico--Albuquerque Bernalillo County Water Utility 
            Authority;

    <bullet> Utah--Salt Lake City Department of Public Utilities; and

    <bullet> Washington--Seattle Public Utilities.

    The WUWC is committed to presenting a new and different perspective 
on the management of water resources in the modern West. The WUWC 
articulates the needs and values of Western cities to provide a 
reliable, high quality, sustainable urban water supply for present and 
future generations. As operators of public water supply systems, WUWC 
members serve the health, environmental, and economic needs of their 
communities around the clock and every day of the year. WUWC advocates 
for effective and practicable approaches to environmental protection 
programs at a time when water is becoming more scarce and critical to 
the economic growth, natural resource sustainability, and quality-of-
life in the Western states. The DCP is a classic example of the 
importance of innovative and collaborative management of water 
resources to the sustainability and resilience of the infrastructure 
and economy of the West.
    The WUWC is in strong support of federal legislation to implement 
the DCP. The WUWC has carefully tracked the development of this 
agreement over many years, and several of its members are major urban 
water supply utilities in the Upper and Lower Basin of the River who 
have participated in negotiations to develop the DCP that is now 
subject to your consideration. The Colorado River is essential to the 
economy and quality-of-life of these urban areas, and the sustained 
drought conditions on the River since 2000 are placing at risk the 
continued availability of drinking water to the tens of millions of 
residents of these cities, as well as other users. The WUWC urges 
Congress to act expeditiously to enact federal legislation to implement 
the DCP. We specifically support and request enactment of the 
legislative text (attached), which reflects the consensus provision 
developed by the seven Colorado River Basin states.
    It is particularly important to put the DCP into effect 
immediately, without delay. The DCP has already gone through years of 
complex negotiation and review by all of the key stakeholders, and the 
basic impacts of implementation are known and overwhelmingly positive. 
Adding further layers of procedural review would not add any meaningful 
elements to the DCP, while depriving the Colorado River system of 
critically important management measures that must be in place prior to 
the August 2019 determinations of operations for Lake Powell and Lake 
Mead in 2020. The DCP is the product of unprecedented collaboration, 
cooperation, and sacrifice among the many parties with interests in the 
Colorado, and the hard-won agreements that serve as the basis for the 
DCP could be undone if action is not taken now. Implementation of the 
DCP without delay has broad support by NGOs, including the strong 
support by American Rivers, the Environmental Defense Fund, the 
National Audubon Society, the Theodore Roosevelt Conservation 
Partnership and Trout Unlimited. Please support the DCP with 
congressional ratification, and in doing so, help ensure the long-term 
viability of the Colorado River system.
    Thank you for the opportunity to provide this letter of support. If 
you have any questions regarding these comments, please contact me at 
XXX-XXX-XXXX or XXXXXXXXXXX.

            Very truly yours,,

                                            Donald C. Baur,
                                                  National Counsel.

                                 *****

    Attachment C to the Agreement Concerning Colorado River Drought 
    Contingency Management and Operations (``Companion Agreement'')

                          PROPOSED LEGISLATION

SEC. ___    COLORADO RIVER BASIN DROUGHT CONTINGENCY PLANS

(a) Notwithstanding any other provision of law directly related to 
operation of the applicable Colorado River System reservoirs, upon 
execution of the March 19, 2019 versions of the Agreement Concerning 
Colorado River Drought Contingency Management and Operations and the 
agreements attached thereto as Attachments A1, A2 and B, by all of the 
non-federal parties thereto, the Secretory of the Interior shall, 
without delay, execute such agreements, and is directed and authorized 
to carry out the provisions of such agreements and operate applicable 
Colorado River System reservoirs accordingly; provided, that nothing in 
this section shall be construed or interpreted as precedent for the 
litigation of, or as altering, affecting, or being deemed as a 
congressional determination regarding, the water rights of the United 
States, any Indian tribe, band, or community, any state or political 
subdivision or district thereof, or any person.

                   Rationale for Proposed Legislation

    This proposed legislation was developed by the seven Basin States, 
and water contractors within those states, working on a consensus-
basis. Much like the Drought Contingency Plans (DCPs) themselves, it is 
the product of collaboration and compromise. The DCPs, when authorized 
by this proposed legislation, will enhance existing water management 
tools in order to address a looming water crisis in the Colorado River 
Basin. The seven-year term of the DCPs will also provide the 
opportunity for the Basin States, federal government and other key 
stakeholders to collaborate on a longer-term set of sustainable 
solutions for managing the Colorado River.
    The proposed legislation is tailored to authorize and require the 
Secretary of the Interior to carry out the provisions of the DCPs, and 
to limit the Secretary's authority to that which is necessary to carry 
out the flexible operational tools the states have developed. This 
legislation would grant no additional authority to the Secretary beyond 
congressional direction to implement the DCPs upon their execution by 
the parties. Furthermore, the proposed legislation and the DCP 
agreements themselves reserve and recognize each party's existing 
rights adnd do not impact the rights of other water users or 
stakeholders with interests in the Colorado River.
    To achieve compromise with regard to the proposed legislation, the 
Basin States, and water contractors within those states, had to assure 
that the DCPs respect the existing Law of the River, while providing 
for the flexibility found within the DCPs. For example, certain 
provisions of the Lower Basin DCP are inconsistent with some Parties' 
interpretations of the Law of the River. Additionally, the Upper Basin 
DCP authorizes the ability to store water under an Upper Basin Demand 
Management Program should one be developed. To allow for full 
implementation of the DCPs, the proposed legislation requires their 
implementation notwithstanding any other provision of law directly 
related to operation of the applicable Colorado River System 
reservoirs. Accordingly, through that provision, existing laws will not 
preclude DCP implementation.
    The Parties developed the DCPs with a clear recognition of the 
environmental considerations associated with operating the applicable 
Colorado River System reservoirs. For example, the impacts of 
additional reduced deliveries of water consistent with what will occur 
under the Lower Basin DCP were previously evaluated as part of the 
Environmental Impact Statement associated with the 2007 Record of 
Decision on ``Colorado River Interim Guidelines for Lower Basin 
Shortages and the Coordinated Operations for Lake Powell and Lake 
Mead,'' prepared pursuant to the National Environmental Policy Act 
(NEPA). Furthermore, the Upper Basin's Drought Response Operations 
Agreement expressly provides that the action contemplated to protect 
target elevations at Lake Powell will operate within the framework of 
existing NEPA and Endangered Species Act (ESA) compliance, and other 
listed federal and state laws and regulations, for each of the Initial 
Units of the Colorado River Storage Project (CRSP) Act. Additionally, 
the Authorization for Demand Management Storage and the creation of a 
process to potentially use such storage as an element of the Upper 
Basin DCP do not affect existing NEPA or ESA compliance for the CRSP 
Act Initial Units.
    The DCPs must also be implemented without delay. Immediate 
implementation of the Lower Basin DCP would benefit the Lower Basin. 
The new operational flexibility created by the Lower Basin DCP will 
enable Lower Basin water contractors to put Intentionally Created 
Surplus into storage this year, rather than needing to draw it down, 
helping preserve the level of Lake Mead. Determinations regarding 
reservoir operations for water year 2020 will be made in August 2019. 
Timely implementation is important with regards to contributions by the 
Republic of Mexico. Those contributions are conditioned upon the 
effectiveness of the Lower Basin DCP and will require several months to 
effectuate, potentially precluding Mexico's participation in water year 
2020 if the DCPs are not implemented by April 22, 2019. Moreover, 
implementation cannot begin until the agreements have been executed by 
all parties, which is predicated upon securing congressional 
legislation. It is the position of the Basin States, and water 
contractors within those states, that immediately enacting the proposed 
federal legislation and implementing the DCPs reduces the probability 
that Lakes Powell and Mead will decline to critically low elevations--
which could occur as early as 2021--and promotes both domestic and 
binational participation in drought contingency planning.

                                 ______
                                 

                      Imperial Irrigation District,
                                      Imperial, California.

                                                     April 11, 2019

Hon. Jared Huffman, Chairman,
Hon. Tom McClintock, Ranking Member,
Subcommittee on Water, Oceans and Wildlife,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Huffman and Ranking Member McClintock:

    I appreciate the opportunity to submit this statement on behalf of 
the Imperial Irrigation District (IID) for inclusion in the Oceans, 
Water and Wildlife Subcommittee hearing record on the Colorado River 
Drought Contingency Plan (DCP). My statement addresses key 
misstatements of fact made by several witnesses during the March 28, 
2019, hearing regarding IID's DCP participation, the DCP's impacts on 
the Salton Sea and the question of whether existing environmental 
compliance documents anticipated DCP-related Salton Sea environmental 
or public health impacts. It also provides background on the importance 
and value of this national resource.
    At the outset, it is important to note that with respect to the 
DCP, no other party has the authority to sign the agreements on behalf 
of IID. And, by virtue of IID's exclusion from the DCP, the DCP 
agreement advanced by Congress on April 8, 2019, is missing 21 percent 
of the Colorado River's delivered water and fails to address the 
greatest environmental challenge facing the entire river system. While 
IID is sincerely grateful that Congress rejected Reclamation and the 
Basin States' efforts to eliminate federal environmental protections 
for the Salton Sea in the DCP legislation, it is our strong view that a 
DCP that excludes both IID and the Salton Sea is deeply flawed and 
ultimately unsustainable.
    We hope to work with you to expeditiously address the federal 
government's responsibility to partner with the state of California to 
address the public health and ecological crisis affecting the Salton 
Sea. It is only through advancing this important work that the 
sustainability of the Colorado River system can truly be assured.
Imperial Irrigation District and the Salton Sea
    Established in 1911, IID is legally entitled to 3.1 million acre-
feet (MAF) annually of Colorado River water, making it the largest 
water contractor on the Colorado River and the largest irrigation 
district in the nation. IID provides water to irrigate approximately 
500,000 acres of highly productive farmland located in Imperial County, 
California, and also serves seven municipalities and a Navy base. IID 
has over 1,400 employees, maintains more than 3,000 miles of irrigation 
canals and drains, and operates extensive on-farm and system water 
conservation programs that generate more conserved water for the 
benefit of the Colorado River Basin (CRB) than any other single 
contractor.
    Together, IID and the agricultural producers it serves have created 
over 5.3 million acre-feet of conserved water to ensure state and 
regional water supply reliability since the early 2000s.
    IID has long been a willing and generous partner in CRB 
conservation efforts, but it is important to recognize that its 
Colorado River entitlement is its sole source of water and is 
absolutely vital to the economy of Imperial County, which ranks among 
the nation's top agricultural counties, with a gross production valued 
at over $2 billion. IID's Colorado River entitlement sustains an 
agricultural industry that provides more than two-thirds of the winter 
vegetables consumed in the nation. The agricultural industry is key to 
Imperial County's economy--approximately 50 percent of employment 
opportunities are in this sector.
    Cutbacks to agricultural production to benefit the water supply 
security of the CRB hurt our economy. Imperial County has a very 
substantial low-income population; 24.1 percent of the population falls 
below the poverty line, and the county's unemployment rate has 
fluctuated between 15.5 and 31.9 percent over the last decade--among 
the highest in the nation.
    Water conservation efforts have also had very significant public 
health and environmental impacts in this community. The Salton Sea, 
California's largest lake, occupies approximately 370 square miles in 
Imperial and Riverside counties. The sea is sustained primarily by 
agricultural drainage flows from farmland served by IID. Since the 
early 2000s, inflows to the Salton Sea have been significantly affected 
by IID's voluntary water conservation efforts that have greatly 
benefited California and the CRB's water supply security.
    Decreasing agricultural return flows to the sea have resulted in 
the exposure of emissive lakebed (playa), and have negatively impacted 
area air quality. The region is in severe non-attainment with federal 
air quality standards, and has the highest rate of childhood asthma and 
respiratory illness in California. Imperial Valley farmers bear the 
brunt of increasingly stringent air quality regulation. Poor air 
quality also has a negative impact on agricultural production, as dust 
and dried salts from the exposed playa blow on area crops.
    The ecological significance of the Salton Sea is due largely to its 
habitat value for over 400 species of birds, including threatened and 
endangered species. According to the Bureau of Reclamation, the sea's 
``combination of avian biodiversity and importance as breeding habitat 
is unsurpassed.'' The Salton Sea is also a major stopover on the 5,000-
mile-long Pacific Flyway. Because over 90 percent of Southern 
California's wetlands have been lost to urban development, maintaining 
the bird habitat provided by the Salton Sea is crucial to the survival 
of migratory birds in the region.
    But reduced inflows to the sea as the result of conservation 
efforts and drought have increased salinity levels of the sea to twice 
that of the Pacific Ocean, bringing it to the brink of ecological 
collapse. Reduced inflows have also resulted in a drop in elevation 
that has exposed more than 20,000 acres of barren salt-covered playa. 
Over the next decade, three times that amount of playa will be exposed, 
subjecting the region to worsening dust storms and increasing exposure 
to harmful air contaminants.
IID Considered and Approved the DCP Pending Satisfaction of Three 
        Conditions
    IID participated in DCP negotiations for four and a half years as a 
key contracting party and full partner. During these years of 
negotiations, IID was always clear that its participation would depend 
on a 10-year roadmap for the Salton Sea, and a plan to fully fund it. 
During these negotiations, Reclamation assured the parties that there 
would not be a DCP unless all the contracting parties in each of the 
seven states participated in its development and approved the final 
negotiated package.

    We would all cross the finish line together, or not at all.

    While a witness at the March 28, 2019, hearing maintained that IID 
``never acted on or even put DCP on the agenda'' for consideration, in 
fact, IID both considered and acted upon DCP-related agreements at a 
December 10, 2018 board meeting. IID also held four DCP workshops 
leading up to the December 10th, meeting.
    At that board meeting, IID voted to support the DCP, but placed 
three conditions on its implementation. Those conditions were approving 
final DCP agreements as a package, securing a 1:1 federal funding match 
for completion of the state of California's 10-year Salton Sea 
Management Program, and securing IID approval of proposed federal DCP 
legislation.
At Full Implementation, DCP Could In Fact Impact the Salton Sea
    Several witnesses at the March 28, 2019, hearing testified that the 
DCP would not impact the Salton Sea, suggesting IID's concerns about 
the DCP are misplaced. Our colleagues argued that since the DCP's 
intra-state agreements provide for an IID contribution of 250,000 acre-
feet toward California's commitments--and IID has already conserved 
this water--the DCP will have no impact on the sea.
    IID's concern arises not from this 250,000 acre-feet commitment, 
conserved water that is largely stored today within The Metropolitan 
Water District of Southern California's (MWD) system. Our issue stems 
with the DCP's exclusive reliance on the seemingly inexhaustible water 
portfolio of MWD--an entity with a junior priority to Colorado River 
water. This might be fine when water is plentiful, as it is this year, 
but what about when water is not? The DCP, after all, is premised on 
the argument that we are facing a grim water supply future on the 
Colorado River--not an abundant one, due to record-breaking droughts 
and climate change.
    MWD's contributions toward California's DCP obligations are 
projected to average approximately a half-million acre-feet. However, 
if the Colorado River hydrology continues to decline, those MWD 
commitments could require nearly 2 million acre-feet of conserved 
water.
    Should unfavorable hydrologic conditions continue on the Colorado 
River, particularly if they occur in parallel with a California drought 
that decimates MWD's access to Northern California water supplies, MWD 
will invariably turn to IID, once again, given IID's position as the 
largest California Colorado River water contractor--and those 
additional demands for water from IID would impact the Salton Sea.
    It is these potential Salton Sea impacts that are now being brushed 
off with pat predictions and empty promises as the system experiences a 
brief respite from drought with current snowpack improvements. In IID's 
view, the Salton Sea would be far easier to deal with on the front end 
of this river-sharing pact, than at the back--when a true crisis 
reveals the MWD promise now at the heart of California's DCP 
contributions to be one it can't keep.
    In 2003, IID was told that the Quantification Settlement Agreement 
(QSA), discussed below, would resolve Colorado River issues and bring 
``peace on the river'' and to IID. Yet only a decade or so later, here 
we are again working at an urgent pace for a federal DCP that, at full 
implementation, will lead the Colorado River community back to IID's 
doorstep--and threaten more harm to the Salton Sea.
State and Federal Failures to Fulfill Salton Sea Commitments Are Key to 
        Understanding IID's Salton Sea DCP Condition
    IID and the Imperial Valley community have been there and done that 
on state and federal predictions and promises for the Salton Sea. Both 
the state of California and the federal government--particularly the 
Department of Interior--have a history of not keeping their promises 
when it comes to the Salton Sea. IID adopted the DCP condition for a 
1:1 federal-to-state firm funding commitment for the Salton Sea because 
it has learned the hard way that the only way to truly protect this 
region is to require Salton Sea protections upfront.
    While Interior likes to point to the state of California as the 
major transgressor in the story of the Salton Sea's decline, Congress 
has long directed a role for Interior at the Salton Sea. That is due, 
in part, to the fact that the federal government is a major landowner 
of over 110,000 acres at the Salton Sea, and has tribal trust 
responsibilities to the Torres Martinez Desert Cahuilla Tribe, whose 
reservation occupies roughly 2,000 acres at the Salton Sea's north end. 
It is also due to the fact that the Salton Sea is a national 
environmental resource.
    As a result, Congress has repeatedly affirmed the federal interest 
in the Salton Sea, requiring Interior to develop Salton Sea Management 
Plans in 1992, 1998 and 2007. These efforts produced a succession of 
federal plans, but no concrete action.
    The 2003 QSA and the failure of the state of California to fulfill 
its associated Salton Sea commitments--now 17 years later--also helps 
to explain why there is no time to waste and no risk that can be taken 
with respect to ensuring that the Salton Sea is addressed on the front 
end of any federal drought deal.
    Under the Law of the River, California is entitled to use 4.4 MAF 
per year of Colorado River water, and IID holds senior rights to over 
70 percent of that entitlement. For decades, the availability of 
surplus and unused water on the Colorado River allowed California to 
exceed this 4.4 MAF entitlement. Beginning in the late 1990s, as other 
states began to use their full Colorado River apportionment, the 
federal government pressed California to limit itself to its 4.4 MAF 
entitlement.
    That effort posed a serious threat of reductions in deliveries to 
California users with water rights junior to IID's--most notably MWD. 
In 2003, IID entered into the QSA to address this crisis. The 
centerpiece of the QSA was a proposal that IID conserve water and 
arrange for its long-term transfer to the San Diego County Water 
Authority, Coachella Valley Water District and MWD. Through the QSA, 
IID, recognizing the needs of the entire state, agreed to extensive 
conservation--including fallowing productive farmland.
    All who participated in the QSA recognized that the transfers 
carried the potential for significant adverse environmental, economic 
and public health consequences at the Salton Sea and in the Imperial 
and Coachella valleys. There was no question in the minds of the 
parties that orchestrated the QSA water transfer--the largest in U.S. 
history--that without a commitment to ensure the Salton Sea would be 
restored and the other effects of the transfer mitigated, 
implementation of the QSA transfers would destroy the Salton Sea 
ecologically and result in disastrous public health consequences.
    In order to address these concerns, the state of California 
committed to restore the Salton Sea, and the QSA parties--including 
IID--agreed to jointly assume the costs of QSA-related impacts. As a 
result, under the agreement, IID was required to deliver mitigation 
water to the Salton Sea for 15 years, until the end of 2017. It was 
believed by the parties that 15 years would be an adequate period of 
time to allow the State to study the feasibility of restoration, 
develop a plan and begin its implementation.
    While the State studied concepts and crafted proposals to address 
its QSA obligations, it made no actual progress toward the fulfillment 
of its obligation for well over a decade. With no restoration plan or 
projects in place, the public health and ecological harm associated 
with the shrinking Salton Sea progressed. At the same time, IID honored 
all of its QSA obligations, to the great benefit of California urban 
water users and the Colorado River system as a whole. In 2014, 
anticipating the termination of mitigation water to the Salton Sea in 
2017, IID filed a petition with the State Water Resources Control Board 
to force a solution.
    In March 2017, this effort culminated in the state of California's 
Salton Sea Management Program (SSMP) Ten-Year Plan, which calls for 
roughly 30,000 acres of habitat and air quality measures to address the 
ecological crisis at the Salton Sea. The state of California has made 
roughly $280 million available to implement its SSMP, over half the 
amount of the total funding required for plan completion. The first 
major effort called for in that plan--a 3,770-acre shallow water 
habitat project off the New River--is fully permitted and scheduled to 
break ground next year.
    The state of California's QSA obligation and this recent progress, 
however, doesn't absolve Interior from its Salton Sea obligations as a 
landowner and tribal trustee, nor from planning for and addressing the 
potential impacts of a federal agreement like the DCP.
    This obligation has, in fact, been the subject of negotiations and 
commitments in the context of the DCP.

    But Interior failed to meet those commitments.

    In 2016, in the context of efforts to reach agreement on the DCP, 
Interior and the California Natural Resources Agency (CNRA) negotiated 
a Memorandum of Understanding (MOU) wherein Interior pledged to become 
a full and active partner at the Salton Sea. In this agreement, 
Interior acknowledged its legal duties to follow federal environmental 
laws. It pledged to ``pursue a multi-year partnership with USDA . . . 
to advance projects to protect air quality and improve water quality of 
major inflows to Sea habitat.'' The intent of seeking this commitment 
with respect to USDA was to secure Interior's engagement in galvanizing 
additional support from USDA.
    In the MOU, Interior further pledged to perform a federal funding 
analysis that would identify ways to meet the ``anticipated financial 
need to reach acreage goals and creative means to meet them.'' Finally, 
Interior pledged to dedicate a senior level official and convene a 
Salton Sea Working Group tasked with ensuring MOU implementation and 
expediting permitting processes at the Sea.

    Interior failed to fulfill any of these commitments.

    In 2017, Senators Feinstein and Harris, and Congressmen Ruiz and 
Vargas together wrote to the Secretary of the Interior to urge 
implementation of the MOU. No action was undertaken by Interior in 
response to this request. Also in 2017, CNAA Secretary Laird wrote to 
then-Interior Deputy Secretary Bernhardt to urge MOU implementation. No 
action was undertaken by Interior in response to this request.
    Senator Feinstein included direction in the FY 18 Energy and Water 
Appropriations Act to urge Interior to implement the MOU, to provide a 
Salton Sea budget request to Congress, and to report to Congress on its 
MOU progress on a biannual basis. No action was undertaken by Interior 
in response to this request.
Senator Feinstein Secured Federal Legislation for Salton Sea 
        Restoration--the Administration Has Failed to Implement It
    Beginning in 2014, IID, CNRA, the Salton Sea Authority (SSA) and 
agricultural producers developed a strategy of building a partnership 
with USDA in order to create a robust source of federal funding to 
address Salton Sea resource concerns. USDA's conservation programs are 
funded at roughly $6 billion annually, and this funding is mandatory--
meaning once it is authorized in a Farm Bill no further appropriation 
is required. Further, USDA funding is directed to be targeted to help 
agricultural producers address major natural resource concerns.
    As the Salton Sea is surrounded by roughly 600,000 acres of prime 
farmland and its decline directly affects agricultural producers, we 
identified USDA programs as a good fit for the Salton Sea.
    In an effort to take concrete steps to this end, IID and its 
partners developed proposals and competed for USDA funding support. 
USDA scores proposals for funding higher if the proposed project 
affects a significant regional or national resource--and we argued 
successfully that Salton Sea restoration was not only critical to 
maintaining the agricultural productivity of the Imperial Valley, but 
also critical to assuring the sustainability of the Colorado River 
system as a whole. These initial efforts resulted in the funding of a 
Regional Conservation Partnership Program (RCPP) project and a 
Watershed Act pilot project for the Salton Sea.
    To further push Interior to fulfill its MOU commitment to form a 
multi-year funding partnership with USDA and CNRA at the Salton Sea, 
IID, CNRA, SSA and Imperial Valley growers worked with Senator 
Feinstein to craft legislation for the 2018 Farm Bill. Senator 
Feinstein's successful work increased overall conservation funding in 
the Farm Bill by $2.6 billion, created multiple streamlined, non-
competitive contracting tools through which USDA could partner directly 
with the State of California to expand the existing Salton Sea pilots, 
and directed USDA to use this authority to address critical water 
resources, like the Salton Sea, impacted by regional drought control 
efforts.
    On January 31, 2019, following the enactment of the 2018 Farm Bill, 
Senator Feinstein wrote to then-Acting Interior Secretary Bernhardt and 
USDA Secretary Perdue to ask them to work with her to quickly implement 
her Farm Bill legislation to leverage $200 million in state of 
California funding for the Salton Sea. On the same day, however, IID 
was advised that Reclamation officials visited with USDA Undersecretary 
Northey and encouraged USDA not to grant the Senator's request--arguing 
that it would disrupt DCP negotiations.
    USDA responded to Senator Feinstein that the 2018 Farm Bill 
programs required implementing rules that needed to be worked out prior 
to making any further commitment, and that all program funds are 
allocated on a purely competitive basis. This answer, however, ignored 
the clear terms of Senator Feinstein's legislation which permitted--and 
in fact directed--non-competitive targeting of funding to a major 
resource concern like the Salton Sea. And implementing rules were not 
required for three of the four legislative provisions in the Feinstein 
Farm Bill legislation directed to benefit the sea.
    This response also ignored USDA's long practice of non-
competitively targeting major natural resource concerns 
administratively, and its roughly 67 nationwide conservation 
initiatives that do so. Such initiatives are typically created after 
the establishment of smaller pilot projects that have been approved by 
USDA through a competitive process to address a major concern--as IID 
and its partners had established for the Salton Sea.
    Reclamation's admonishment undermined years of work by IID and its 
partners to develop a partnership with USDA at the Salton Sea, the work 
of Senator Feinstein to expand those partnerships and tools in the 2018 
Farm Bill, and Interior's inability to fulfill its own 2016 MOU 
commitment. Inexplicably, it also undermined Reclamation's stated goal 
for the DCP--that all parties would reach the finish line together.
    While Reclamation later wrote to USDA to express tepid support for 
Senator Feinstein's request, its action in January undermined IID's 
ability to secure federal funding for the Salton Sea, according to the 
schedule that the Commissioner had set for the completion of DCP. It 
was a confusing development given the investment IID and its partners 
had made in developing a funding source that could address the Salton 
Sea on the front end of a DCP agreement, and which could secure the 
participation of the largest Colorado River contractor in DCP.
A DCP ``Designed to Fit'' within Existing 2007 Environmental Reviews 
        Never Evaluated Salton Sea Impacts
    As Reclamation took steps to stand in the way of the satisfaction 
of IID's DCP condition for Salton Sea funding, it was at the same time 
aggressively pushing IID to approve the federal DCP authorizing 
legislation drafted by Reclamation and the Basin States. IID declined 
to support that legislation, raising the concern that the language 
would waive federal environmental protections for the Salton Sea. IID 
sought to modify that language with Reclamation and the Basin States, 
but those attempts were rejected out of hand by its peers, who 
forwarded the proposed legislation to Congress in March.
    At the March 28th hearing, several witnesses and Commissioner 
Burman maintained that the DCP was specifically ``designed to fit 
within existing environmental compliance,'' strongly implying that the 
DCP did in legal fact comply with federal environmental laws. In 
particular, they argued that DCP implementing actions had already been 
analyzed and reviewed in the 2007 final environmental impact statement 
(EIS) for Colorado River Interim Guidelines for Lower Basin Shortages 
and Coordinated Operations for Lake Powell and Lake Mead, and therefore 
the DCP is compliant with NEPA.
    This argument raised concerns for IID because, like this DCP, the 
Salton Sea is nowhere to be found in that 2007 document. Our colleagues 
at Reclamation and the Basin States are free to argue that the 2007 EIS 
is sufficient for NEPA compliance, and IID would have strong legal 
arguments to ensure the enforcement of federal environmental 
protections for the Salton Sea. But Reclamation and the Basin States 
weren't simply making an argument in the DCP negotiations and to 
Congress, they were seeking to codify their perspective in federal law. 
The federal DCP legislation proposed by Reclamation and the Basin 
States would have rendered IID's ability to enforce those federal 
environmental protections for the Salton Sea invalid in court.
    This was no guess on IID's part or on the part of the few 
environmental groups willing to speak out against Reclamation and the 
Basin States' anti-environmental waiver. There was a case on point from 
our own backyard that clarified the meaning and intent of the DCP 
language. That case involved the lining of the All-American Canal 
(AAC), which brings water to the Imperial Valley. In 1994, a NEPA 
analysis was performed on the lining project. When the project moved to 
implementation in 2005, environmentalists sued, arguing Interior was 
required to perform a supplemental EIS. The Ninth Circuit Court of 
Appeals granted an injunction halting the lining project.
    Congress then intervened, directing that the project proceed 
``notwithstanding any other provision of law'' and ``without delay.'' 
Interior argued that these eight words waived the applicability of all 
federal laws to the lining project. The Ninth Circuit held that when 
Congress uses these key terms in combination, all federal environmental 
laws are waived with respect to the underlying action. Consejo De 
Desarrollo v. United States, 482 F.3d 1157 (9th Cir. 2007).
    When IID raised the concern that the DCP language identical to the 
AAC waiver would remove Salton Sea protections, the other parties 
refused to modify the language--arguing that the notwithstanding and 
without delay clauses were included for non-environmental concerns.
    But once the draft legislation was modified by Congress to ensure 
that federal environmental laws applied to DCP implementation, it 
became clear that Reclamation's proposed legislation was, in fact, 
intended to waive federal environmental laws. This intent was revealed 
by Reclamation and the Basin States' aggressive effort to secure report 
language in both the House and the Senate--wisely rejected--aiming to 
deem DCP nonetheless compliant with federal environmental laws.
    In particular, Reclamation and the Basin States sought report 
language to express the view of Congress that the ``actions to be 
undertaken [in DCP] are within the analyses and range of effects 
reviewed in the environmental documents prepared pursuant to the 
National Environmental Policy Act (NEPA) in the 2007 final 
environmental impact statement (EIS) on Colorado River Interim 
Guidelines for Lower Basin Shortages and Coordinated Operations for 
Lake Powell and Lake Mead . . . [and] additional NEPA compliance is 
only applicable should future actions be undertaken that are outside 
the range of effects analyzed in those documents . . .''
    Report language of this nature is intended to convey the view of 
Congress that existing environmental documents for a particular action 
have met the requirements of an underlying statute or obligation. Quite 
problematically, Reclamation's proposal also provided that only 
``future actions'' not called for by DCP would be subject to 
environmental review--language which could have blocked a consideration 
of DCP impacts on the Salton Sea.
    IID objected to this report language because it was aimed at 
weakening the environmental protections secured in the bill language 
for the Salton Sea. As noted above, the 2007 NEPA document referenced 
in the proposed report language never considered or analyzed the Salton 
Sea. But the report language would have expressed the view of Congress 
that such impacts to the sea had been analyzed, and that as a result 
any actions called for under DCP did not require additional 
environmental review. Under this language, if IID was called upon to 
back up MWD's obligations, this report language could have been 
interpreted to exempt this action from federal environmental review and 
protections.
    Fortunately, both the House and the Senate rejected both the anti-
environmental bill and report language proposed by Reclamation and the 
Basin States.
Conclusion
    In 2014, the Pacific Institute estimated that failing to take swift 
action to address the shrinking Salton Sea would result in $70 billion 
in public health, economic and environmental costs. With that price 
tag, we know the true cost of inaction at the Salton Sea may one day be 
the loss of our community's way of life.
    That is why in this DCP process, IID stands with the Salton Sea, 
even when no one else will. It has become a familiar, if lonely, place 
to be, but it's also home and that, in the end, is the biggest 
difference between IID and the rest of the Colorado River community. 
IID has one agenda--to be a part of a DCP and a Colorado River 
community that treats the Salton Sea with the dignity and due 
consideration it deserves, not as its first casualty.
    Whether the passage of this DCP will improve the sustainability of 
the Colorado River is an open question. What we know for sure is that 
it is a dramatic setback for the sustainability of the Salton Sea.
    Thank you for allowing IID the opportunity to correct the record. 
We sincerely appreciate your efforts to ensure that the Salton Sea was 
not left without the protections of federal environmental laws as the 
DCP moved forward in Congress, and we hope to work with you to develop 
a meaningful federal response to the public health and ecological 
crisis facing our community.

            Sincerely,

                                       Enrique B. Martinez,
                                                   General Manager.

                                 *****

The following documents were submitted as an attachment to the above 
letter. This document is included as part of the hearing record and is 
being retained in the Committee's official files:

    --Editorial titled, ``The Salton Sea disaster ahead.''

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
